UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7296
ANTONIO PROPHET,
Petitioner - Appellant,
v.
RALPH TERRY, Acting Warden,
Respondent - Appellee,
and
DAVID BALLARD, Warden,
Respondent.
Appeal from the United States District Court for the Northern District of West Virginia, at
Clarksburg. Thomas S. Kleeh, District Judge. (l:16-cv-00178-TSK)
Submitted: September 30, 2020
—

Decided: October 15, 2020

Before NIEMEYER, KEENAN, and WYNN, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Antonio Prophet, Appellant Pro Se. Lindsay Sara See, OFFICE OF THE ATTORNEY
GENERAL OF WEST VIRGINIA, Charleston, West Virginia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

FILED: October 15, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7296
(l:16-cv-00178-TSK)

ANTONIO PROPHET
Petitioner - Appellant
v.
RALPH TERRY, Acting Warden
Respondent - Appellee
and
DAVID BALLARD, Warden
Respondent

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

PER CURIAM:
Antonio Prophet seeks to appeal the district court’s order accepting the
recommendation of the magistrate judge and denying relief on Prophet’s 28 U.S.C. § 2254
petition. The order is not appealable unless a circuit justice or judge issues a certificate of
appealability . See 28-U.S.C. § 2253(c)(1)(A). A .certificate of appealability will not issue
absent “a substantial showing of the denial of a constitutional right.”

28 U.S.C.

§ 2253(c)(2). When the district court denies relief on the merits, a prisoner satisfies this
standard by demonstrating that reasonable jurists could find the district court’s assessment
of the constitutional claims debatable or wrong. See Buckv. Davis, 137 S. Ct. 759. 773-74
(2017). When the district court denies relief on procedural grounds, the prisoner must
demonstrate both that the dispositive procedural ruling is debatable and that the petition
states a debatable claim of the denial of a constitutional right. Gonzalez v. Thaler, 565 U.S.
«r-

134, 140-41 (2012) (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
Limiting our review of the record to the issues raised in Prophet’s informal brief,
we conclude that Prophet has not made the requisite showing. See 4th Cir. R. 34(b); see
also Jackson v. Lightsey, 775 F.3d 170, 177 (4th Cir. 2014) (“The informal brief is an
important document; under Fourth Circuit rules, our review is limited to issues preserved
in that brief.”). Accordingly, we deny Prophet’s motion for a certificate of appealability,
deny leave to proceed in forma pauperis, and dismiss the appeal. We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
DISMISSED
2

FILED: November 24, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7296
(1:16-cv-OO 17 8-TSK)

ANTONIO PROPHET
Petitioner - Appellant
v.
RALPH TERRY, Acting Warden
Respondent - Appellee
and
DAVID BALLARD, Warden
Respondent

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 1 of 68 PagelD #: 4221

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
CLARKSBURG
ANTONIO PROPHET,
Petitioner,
Civ. Action No. l:16-cv-178
(Judge Kleeh)

v.

RALPH TERRY,
Acting Warden,
Respondent.
MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Pending before the Court is United States Magistrate Judge
Michael J. Aloi's Report and Recommendation ("R&R") concerning the
Petition Under 28 U.S.C.

§ 2254 for Writ of Habeas Corpus by a

Person in State Custody filed by pro se Petitioner Antonio Prophet
("Petitioner").

Judge Aloi recommends that the Court grant the

Respondent's Motion for Summary Judgment. For the reasons set forth
below,

the

Court

adopts

the

R&R,

overrules

Petitioner's

objections, grants the Motion for Summary Judgment, and denies and
dismisses the petition.
I.

BACKGROUND

In 2012, a jury in the Circuit Court of Berkeley County, West
Virginia,

convicted

Petitioner

of

two

counts

of

first-degree

Case l;16-cv-00178-TSK Document 99 Filed 08/19/19 Page 2 of 68 PagelD #: 4222
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
murder1 and one count of first-degree arson. ECF No. 13-3 at 4.

jiiry did not

The

recommend

mercy

on

either

of

the

murder

convictions. ECF No. 13-2 at 3. The trial court sentenced him to
a determinate term of life without the possibility of parole on
each murder conviction and to a determinate term of twenty (20)
years

on

the

arjson

conviction,

with

all

sentences

to

run

consecutively. Id Petitioner appealed his conviction to the Supreme Court of
Appeals

of West

Virginia

court's conviction. ECF No.

("SCAWV"),

which affirmed the

trial

52-15. Meanwhile, he petitioned the

Circuit Court of Berkeley County for a writ of habeas corpus, which
it

summarily

dismissed

certain claims.

after

ECF Nos.

summary dismissal

to

the

directing

13-3,
SCAWV,

13-4.

Respondent

Petitioner

to

answer

appealed the

which denied him

relief

via

Memorandum Decision. ECF No. 13-2.
Petitioner filed a pro se § 2254 petition in this Court on
September 2, 2016. ECF No. 13. Per Judge Aloi's March 28, 2018,
Order, the only claims remaining for consideration are Grounds 3-

1 Petitioner was charged with the murder of Angela Devonshire
("Angela") and her three-year-old son, Andre White ("Andre").
2

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 3 of 68 PagelD#:4223
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
9,

10 (1)-10(13),

10 (15)-10(16),

11,

12 (1)-12(3),

and 13,

along

;

with1 all subparts to each. See ECF No. 73 at 30.
Ralph Terry, the Respondent and Acting Warden at Mount 01iv_e
Corr ectional Complex
Judgment on May 3,

("Respondent") ,
2018,

filed a Motion for Summary

arguing that the petition should be

dismissed because Petitioner failed to state a claim upon which
relief can be granted. ECF No. 81. Petitioner filed a Response.
ECF No. 90. Judge Aloi then entered his R&R, recommending that the
Court grant Respondent's Motion for Summary Judgment and deny and
dismiss the petition. ECF No. 96.
On March 6, 2019, Petitioner filed objections to the R&R. ECF
No. 98. He makes the following objections:
OBJECTION 1: To certain portions
Aloi's factual findings;

of

Judge

OBJECTION 2: To Judge Aloi's analysis and
legal determinations in Grounds 3, 4 (and all
sub grounds), 5, 7 (and all sub grounds), 8
(and all sub grounds) , 9, 10 (and all sub
grounds), 11, 12 (and all sub grounds) , and
13;
OBJECTION 3: To Judge Aloi's "grouping" of
Petitioner's claims "by type" — specifically
as to his Ground 4 claim — and to how Judge
Aloi failed to state in his R&R how the
challenged
by
prosecutorial
remarks
3

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 4 of 68 PagelD #: 4224
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO.,13]
Petitioner in Ground 4 are not post-Miranda
silence remarks in violation ojf Doyle;
OBJECTION 4:
To Judge Aloi's deliberate
distortion of the
record
(altering the
chronological order of a significant verbal
interaction at trial);
OBJECTION 5; To Judge Aloi's misapprehension
of Petitioner's Ground 4(3) claim;
OBJECTION
6:
To
Judge
Aloi's
repeated
'a's's'eTt ron t ha t-the^p-eti t ion - ''completely fails’
to identify what specific acts!the Petitioner
is alleging" in his Ground 7 and Ground 8
claims;
OBJECTION 7: To Judge Aloi's cherry-picking of
specific acts of misconduct alleged in
Petitioner's Ground 7 and Ground 8 claims;
OBJECTION 8: To Judge Aloi's failure to abide
by the law regarding the granting of summary
judgment; and
OBJECTION 9: To Judge Aloi's current and
possible future participation in the matter.
See ECF No. 98.
II.

STANDARD OF REVIEW

When reviewing a magistrate judge's R&R, the Court must review
de novo only the portions to which an objection has been timely
4

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 5 of 68 PagelD#:4225
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
made. 28 U.S.C. § 636(b)(1)(C). Otherwise, "the Court may adopt,

l

without explanation, any of the magistrate judge's recommendations
to which the [parties do] not-object." Dellarcirprete v. Gutierrez,
479 F. Supp. 2d 600,

603-04

Davis,

199

718 F.2d 198,

(N.D.W.

(4th Cir.

Va. 2007)
1983)).

(citing Camby v.

Courts will uphold

I
portions qf a recommendation to which no objectipn has been made
unless they are clearly erroneous. See Diamond v. Colonial Life &
Accident Iris". Co., 416 F.3d 310, 315 (4th Cir. 2005) . Here," due to
the broad scope of Petitioner's objections, the Court will review
de novo the merits of all remaining grounds. Plaintiff's Complaint
will be liberally construed because he is proceeding pro se. See
Estelle v. Gamble, 429 U.S. 97 (1976).
Summary

judgment

is

appropriate

if

"there

is

no genuine

dispute as to any material fact and the movant is entitled to
judgment as a matter of law." Fed. R. Civ. P. 56(c) . The movant
"bears the initial responsibility of informing the district court
of the basis for its motion,
'the

pleadings,

depositions,

and identifying those portions of
answers

to

interrogatories,

and

admissions on file, together with the affidavits, if any,' which
it believes demonstrate the absence of a genuine issue of material
5

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 6 of 68 PagelD #: 4226
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO, 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
fact." Celotex Corp. v. Catrett,

All U.S.

317,

323

(1986). The

nonmoving party must "make a sufficient showing on an essential
element of her case with respect to which she has the burden of
proof." Id. Summary judgment is proper "[w]here the record taken
as a whole could not lead a rational trier of fact to find for the

L
non-moving
party,

there

[being]

no

'genuine issue for trial.

t ft

Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
587 (1986)

(citing First Nat'l Bank of Ariz. v. Cities Serv. Co.,

391 U.S. 253, 288 (1968)).
III. DISCUSSION
Habeas relief is available under 28 U.S.C. § 2254 to state
prisoners in "custody in violation of the Constitution or laws or
treaties of the United States."2 Habeas relief under § 2254 is only
appropriate when the state court's adjudication of the claim either

2 Violations of state law or procedure that do not implicate a
specific federal provision do not warrant habeas review. See
Estelle v. McGuire, 502 U.S. 62, 67-68 (1991) (writing that "it is
not the province of a federal habeas court to reexamine statecourt determinations on state-law questions" and that "[i]n
conducting habeas review, a federal court is limited to deciding
whether a conviction violated the Constitution, laws, or treaties
of the United States") . "It is axiomatic that federal courts may
intervene in the state judicial process only to correct wrongs of
a constitutional dimension." Wainwriqht v. Goode, 464 U.S. 78, 83
(1983).
6

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 7 of 68 PagelD #: 4227
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
j

(1) "resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United—States,
"resulted

in

a

decision

that

was

based

on

an

r

(2)

unreasonable

determination of the facts in light of the evidence presented in
I
the State court proceeding

8 U.S.C. § 22S54 (d) (l)-(2) .

This Court may grant relief under the "contrary to" clause
"if the state

court arrives" at a conclusion opposite to that

reached by [the Supreme] Court on a question of law or if the state
court decides a case differently than [the Supreme] Court has on
a set of materially indistinguishable facts." Williams v. Taylor,
529

U.S.

362,

412-13

(2000).

It

may

grant

relief under

the

"unreasonable application" clause "if the state court identifies
the correct governing legal principal from this Court's decisions
but
/
/

unreasonably

applies

that principle

to

the

facts

of

the

prisoner's case." Id. at 365. Section 2254 also provides that the
"State court shall be presumed to be correct" and that "[t]he
applicant shall have the burden of rebutting the presumption of

3 This is referred to as the "contrary to" clause.
4 This is referred to as the "unreasonable application" clause.
7
I
s’

a

0

tv

V] '

N

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 8 of 68 PagelD #: 4228
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
clear

by

correctness

and

convincing

evidence."

28

U.S.C.

§ 2254(e) (1) .
A petitioner must exhaus t his remedies in the courts of the
state before seeking § 2254 review. Id. § 2254(b). To exhaust his
remedies,

a

federal

habeas

petitioner must

have

presented

all

federal claims, in federal terms, to the highest state court before
presenting them for federal habeas review.
U.S. 270, 275
petitioner

404

(1971). Thus, to exhaust a*claim in state court, a
must

constitutional

"expressly

claim in state

court." Diaz v.
*11

Picard v. Connor,

Weisner,

raise[]
court

that

that

he

3:06CV81-1-MU,

No.

same

raises

federal

in federal

2006 WL 2224292,

at

(W.D.N.C. Aug. 1, 2006).
Here,

Petitioner

states

that

he

has

exhausted

his

state

remedies because all grounds in the petition have been presented
to West Virginia's highest court. ECF No. 13 at 15. Petitioner has
alleged

seven

Misconduct;
Evidence;
Ineffective

(B)
(D)

general

types

Judicial
Ineffective

Assistance

of

of

claims:

(A)

Bias/Misconduct;
Assistance
Appellate

of

Prosecutorial
Insufficient

(C)
Trial

Counsel;

Counsel;
(F)

Denial

Meaningful Appellate and Post-Conviction Collateral Review;
8

(E)
of
and

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 9 of 68 PagelD #: 4229
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
(G)

Cumulative Error. The Court has sorted the counts based on

1

their "type" and will analyze them under each type's governing
■law. The Court -will examirie in turn each ground alleged in the
petition that remains for consideration.
A.

PROSECUTORIAL MISCONDUCT
In determining whether a prosecutor's actions during trial

warrant habeas relief,

"[t]he relevant question is whether the

prosecutor's comments 'so infected the trial with unfairness as to
make the resulting conviction a denial of due process.
Wainwright,

477

U.S.

168,

181

(1986)

(quoting

t ft

Darden v.

Donnelly

v.

DeChristoforo, 416 U.S. 637, 643 (1974)). The Fourth Circuit has
established a two-pronged test to apply in answering this question.
First, the defendant must show that the prosecutor's remarks were
improper. United States v. Wilson,

135 F.3d 291,

297

(4th Cir.

1998) . Second, he must show that the remarks prejudicially affected
the defendant's substantial rights so as to deprive him of a fair
trial.

Id. Several factors influence this determination, and no

one factor is dispositive. The Court considers "(1) the degree to
which the prosecutor's remarks have a tendency to mislead a jury
and prejudice the accused;

(2) whether the remarks were isolated
9

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 10 of 68 PagelD #: 4230
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
or extensive;

(3) absent the remarks, the strength of competent

proof introduced t
comments

were

establish guilt of accused; and (4) whether

deliberately

placed

before

attention from ext raneous matters."
States

v.

Adam,

70

F. 3d

776,

Id.

780

the

jury

at 299

(4th Cir.

to

divert

(citing United

1995)).

It

also

considers "(5) whether the prosecutor's remarks were invited by
improper conduct of defense counsel,

and

instructions were given to the jury[.j" Id.

(6)

whether curative

(citing United States

v. Young, 470 U.S. 1, 12-13 (1985), and United States v. Harrison,
716 F.2d 1050, 1053 (4th Cir. 1983) (internal citations omitted)).
The Supreme Court of the United States has indicated that "a
criminal conviction is not to be lightly overturned on the basis
of a prosecutor's comments standing alone, for the statements or
conduct must be viewed in context;

only by so doing can it be

determined whether prosecutor's conduct affected the fairness of
the trial." Young, 470 U.S. at 11. Courts have applied the "invited
response" or "invited reply" rule,

which looks at the remarks

within the context of the entire trial to determine whether the
prosecutor's behavior amounted to prejudicial error.
12.

Turning

to

the

specific

claims
10

alleged

as

Id. at 11-

prosecutorial

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 11 of 68 PagelD #: 4231
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
misconduct, the Court finds that none of the prosecutor's alleged
actions

so infected the trial with unfairness

as to1 make the

resulting conviction a denial of due process. Petitioner has not
shown

that

unreasonable

the

SCAWV's

application

dismissal
of

the

of

these

law

or

claims
an

was

an

unreasonable

determination of the facts, ks discussed below, he is not entitled
to § 2254 relief on his prosecutorial misconduct claims.
Ground 3
Specifically,
5th,

Petitioner alleges that his rights under the

6th, and 14th Amendments to the United States Constitution

were violated when the prosecutor knowingly used false testimony
from Joseph Medina ("Medina") to obtain convictions. ECF No. 13 at
10.
A defendant's right to due process is violated when "the
prosecution's

case

included

perjured

testimony

prosecution knew, or should have known, of the perjury.
Seifert, 808 F. Supp. 2d 900, 920 (S.D.W. Va. 2011)

and
/ n

'the

Jones v.

(citing United

States v. Agurs, 427 U.S. 97, 103 (1976)). To obtain relief based
on such a violation, a petitioner must "demonstrate in his petition
for habeas corpus (1) that a witness made a false statement;
11

(2)

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 12 of 68 Page!D #: 4232
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
that the false statement was material;
testimony

was

government

knowingly

and

and

(3)

intentionally

in order to obtain a conviction."

that the false

employed
Leich v.

by

the

United

States, No. 3 04CV22, 2005 WL 1334568, at *6 (N.D.W. Va. June 3,
2005)

(citing Beasley v. Holland,

649 F. Supp. 561,

566 (S.D.W.

Va. 1986)). Importantly, "[m]ere inconsistencies in testimony b^/
government witnesses do not establish the government's knowing use
of false testimony. " United States v. Griley, 814””E\2d 967,

97l

(4th Cir. 1987). "The credibility of witnesses is within the sole
province

of

the

jury

and

is

not

subject

to

further

judicial

scrutiny." Beasley, 649 F. Supp. at 566.
Here, the SCAWV found that Petitioner "failed to show that
the prosecutor presented false testimony," noting that there was
"no conclusive evidence that Medina's trial testimony was false."
ECF No.

52-15

at

27.

The

court

acknowledged that

there were

inconsistencies between Medina's prior statements to police and
Medina's testimony at trial but found that the inconsistencies did
not

amount

to

a

false

statement

at

trial.

Id.

Petitioner's

inconsistent statements could mean that he lied previously and was
not lying at trial. Id. The SCAWV noted that "[t]hese are areas
12

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 13 of 68 PagelD #: 4233
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
which

are

appropriate

for

vigorous

cross

examination,"

and

Petitioner's counsel attacked Medina's credibility during cross
examination . Id. at 28-.
This 0 ourt agrees with the SCAWV.

Petitioned has not cited

any factual information to support a finding that Medina lied while
testifying at trial. As Judge Aloi stated,

Petitioner "has not

proven that there was any perjury, let alone that 'the prosecution
knew, or should have known of the perjury[.]
(citing Agurs,

427 U.S.

at 103).

i n

ECF No. 96 at 23

Inconsistent testimony is not

proof of perjury. The comments did not so infect the trial with
unfairness so as to deprive Petitioner of a fair trial. The SCAWV's
determinations

of

the

facts

and

application

of

the

law were

reasonable as to Ground 3, and Petitioner is not entitled to relief
under § 2254.
Ground 4
Petitioner alleges that his rights under the 5th,

6th, and

14th Amendments to the United States Constitution were violated
when

the

prosecutor

impeached

attacking his post-Miranda silence.

13

Petitioner's

credibility

by

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 14 of 68 PagelD #: 4234
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Ground 4(1)
Specifically,
rights

were

Petitioner

violated

alleges

when

the

that

his

prosecutor,

constitutional
during

cross

examination, repeatedly questioned him regarding his post-Miranda
silence and, during closing arguments, argued that the discrepancy
between his exculpatory story at trial and his silence at time of
arrest gave rise to a legitimate inference that the exculpatory
story was fabricated.

~

~

!

The Supreme Court of the United States held in Miranda v.
Arizona that the prosecution may not use statements stemming from
custodial

interrogations

of

a

suspect

unless

the

prosecution

demonstrates that it has used certain procedural safeguards. 384
U.S.

436,

478-79

(1966).

To violate Miranda,

police must have

obtained a statement — without using safeguards — from a suspect
while he was (1) in custody and (2) being interrogated.
If a defendant, testifies at trial and tells an exculpatory
version of events, the State may not use his post-Miranda silence
to impeach him. See Buckner v. Polk, 453 F.3d 195, 208 (4th Cir.
2006) . However, there is a difference between post-Miranda silence
and pre-Miranda silence.

"Common law traditionally has allowed
14

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 15 of 68 PagelD #: 4235
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
i
j
witnesses to be impeached by their previous failure to state a
fact in circumstances in which that fact natu Irally would have been
.....asserted." Jenkins v.

Anderson,

4 47 U.S___2 31,

239

(1980).

The

Jenkirjs Court held that "impeachment by use of prearrest silence
does not violate the Fourteenth Amendment. ' Id.

at 240.

"Each

jurisdiction may (formulate its own rules of evidence to determine
when prior silence is so inconsistent with present statements that
impeachment by reference to such silence is probative." Id.

at

;

239.
Here,

at

trial,

Petitioner

testified

to

an

exculpatory

version of events. The following includes the relevant portions of
the trial transcript during cross examination, some of which was
included by Petitioner in his briefing:
Q. And you told us today that you wrote this
work of fiction and you've told us this story
that you've told us about what happened on the
night of the events and that particular story
was never told to anyone of law enforcement —
MR. MANFORD: Objection.
Q:

or otherwise.

THE COURT: Hold on. There's an objection.
MR. MANFORD: I may be totally wrong but — can
we have a short sidebar?
15

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 16 of 68 PagelD #: 4236
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]

THE COURT: Sure.
(Conference at the bench)
MR. MANFORD: I could be wrong but isn't that
commenting on prior statements? She's trying
to say you, didn't tell anybody about that.
That's his right until he comes to court.
THE COURT: He can say why he didn't do it, but
I think she's entitled to say this is the first
time it has come up, yeah.
MR”. ~ MANFORDI So I'm not" "arguing again, but I"
had this in another case in Morgan County
where the prosecutor made a reference to the
Defendant never . . .
THE COURT: Exercising his right to silence to
the police officer. She can't say you never
told it to the police or anything like that.
Did you ever tell it to anyone. You can't say
when the police got you [, ] you didn't tell
them that, did you. This is one of those cases
where there could be an exception because he
did make contact after the event to Mr.
Devonshire [,] and she could say why didn't you
tell him[,] but you can't — pre-arrest silence
is
not
the
same
as
post-arrest.
It's
statements
to
law
enforcement
that
is
exercising your right to silence .so you can't
ask him about anything aboup law enforcement.
MR. MANFORD: Okay.
THE COURT: But you can say he contacted Mr.
Devonshire after and you didn't tell him
things like that because that's not exercising
your right to silence.
16

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 17 of 68 PagelD #: 4237
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]

MR. MANFORD: I agree.
THE COURT: Pre-arrest. Pre-arrest silence is
-allowed in. Poster rest. silen:e isn't.
. .
MR. PREZIOSO: After he was arrested.
MR. PREZIOSO: After he was arrested he did —
[Lieutenant] Harmison did try to interview him
arid he asserted his Fifth Amendment right.
THE COURT: All of that stays out. It has to be
pre-arrest.
MR. MANFORD: That was two years ago, right.
Your Honor, just so we have a time, pre-arrest
silence was two years ago.
THE COURT: Unless he made a statement to
if it's non-law
someone — I mean, if it's
enforcement he made a statement.
MR. MANFORD: Some snitch in the jail, sure.
THE COURT: Or something like that, but pre­
arrest silence does not — the Fifth Amendment
has not attached —
MR. MANFORD: I agree.
THE COURT: So pre-arrest silence.
MR. MANFORD: You're at your own peril if you
talk to someone.
THE
COURT:
Right.
enforcement outside.

Or

(In open court.)
17

someone

non-law

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 18 of 68 PagelD #: 4238
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]

MS. GAMES-NEELY:

(resumed)

Q: You did not tell anyone the story that you
told us yesterday prior to taking the stand;
is that correct?
A: That's incorrect.
MR. MANFORD: Objection. Move to strikp based
on the- ruling. Unless I totally misunderstood
what the Court —
1
THE COURT: Well, no. What I said — I'm going
"to~al low"'that and leave "it at that 1 T " "wiTT
overrule the objection based on that.
MS. GAMES-NEELY:

(resumed)

Q: Did you, in fact, contact Sidney Devonshire
— and I will put this back up on the overhead,.
The jury has already seen this. I'm going to
show you Defendant's Exhibit Number Nine, sir,
and ask if you recognize that text message.
THE COURT: It's
identified it.

already

in.

he's

already

A: Yes, ma'am.
Q: That is the text message that you sent to
Sidney Devonshire; is that right?
A: That is correct.
Q: And that text message has what date on it?
A: June 7th, 2010, 7:53 p.m.
A: And on that particular text message, sir,
18

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 19 of 68 PagelD #: 4239
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
i

do you describe to him what you've described
on that witness stand? j
A: No, ma'am.
Q: Did you call Sidney Devonshire and tell
Sidney Devonshire what information you had
regarding the murder of his daughter and his
grandson?
A: No, ma'am.
ECF No. 52-31 at 33-37. The next portion of the transcript, which
Petitioner cites in part, is as follows:
■

Q: And in this instance, you've had two years
to make up this story.
A: I didn't make up any story, ma'am.
Q: And you've had two years to review all the
discovery, all of the pieces, all of the
elements
A: I didn't
Q: — before you came here to testify?
A: I didn't make up any story, ma'am.
But you've had two years to
Q:
absolutely every detail of this case.

review

A: If you want to look at it like that, yes,
ma' am.
Id. at 157.
Finally,

the prosecutor made the following remarks to the
19

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 20 of 68 PagelD #: 4240
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
jury during closing arguments:
He studied the records. In every criminal case
in West Virginia the State must hand to the
defendant everything we know about this case.
He has had two years to go through each and
every record in this case, each and every
phone record, each and every cell record, each
and every statement. Everything we have he's
had the opportunity to do it. As any author
will tell you, they study their craft, how
does A fit into B, and how can I best convince
somebody else to do this. Let's face it, he's
facing a life sentence. If he doesn't sell the
book, if he doesn't sell his* story, ladies and
gentlemen, he's facing a life sentence. He has
a reason to create and craft a story. And
that's what it is. It is a story.
Don't be convinced by somebody who takes the
stand and somebody who is slick, can tell a
story, can sit up there and weave his craft in
front of you as if he's reading his own novel

He never tells a living soul his story until
he takes that stand.

Remember that? He's got two years to craft his
story.

He waits to be on the stand to craft his story.
All of his pieces fit. They fit because you
can look at every piece of evidence and go oh,
20

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 21 of 68 PagelD #: 4241
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
this must be what happened. This must be what
happened. This may be what happened.

He's crafted nis story. He sat there slicked
and polished after two years and wrote his
story because if he fails in this story he
goes to prison for the rest of his life so
connect all the little dots.

It's a story. He wrote a tale and he sat upon
the witness stand and he told you that tale
after he looked at every sheet of paper that
he went over it mile after mile, and he weaved
and crafted it into a fine story.
ECF No. 52-32 at 42-43; 54; 55; 64-65; 107; 108.
These excerpts from the record indicate that the trial judge
told the prosecutor that she could not comment on Petitioner's
post-arrest silence to law enforcement. The prosecutor did not ask
Petitioner about his silence to law enforcement upon arrest. When
she asked him if he had told his story to anyone in law enforcement,
defense counsel objected, prompting the original sidebar. She then
asked Petitioner if he told "anyone" his version of events, and
she asked him, specifically, if he told Angela's father his version
of events.
The

SCAWV

recognized

that some
21

of

the

state's

questions

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 22 of 68 PagelD #: 4242
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]

i
"potentially

could

have

been

construed

as

referring

petitioner's post-arrest silence" but "also could simply

to

the

havi

been

a general initial question for the prosecutor's line of questi oning
regarding petitioner' 3 pre-arrest discussion with Mr. Devonsh ire."
ECF No.

52-15 at 24.

The SCAWV wrote that "[t]he questioh was

ambiguous and isolated,

and the prosecutor did not pursue this

question improperly into the realm of post-arrest silence." Id.
This Court agrees with the SCAWV's determinations.Comments
or lack of comments made to Angela's father do not warrant Miranda
warnings

and,

thus,

are

proper

questioning

territory

for

a

prosecutor to explore. The other questions asked by the prosecutor
(i.e.

"Did you mention to anyone

either pre- or post-arrest,

.")

could be construed as

and the state court's determination

that they are pre-arrest was reasonable.

It is also reasonable

that the state court would find that even if the comments were
post-arrest, they were ambiguous and isolated and did not infect
the trial with unfairness as to violate due process. The SCAWV's
factual determinations and application of the law as to Ground
4(1) are reasonable, and Petitioner is not entitled to relief.

22

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 23 of 68 PagelD #: 4243
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Ground 4(2)
Petitioner alleges that his rights under the 5th

, t th,

and

14th Amendments tc the United States Constitution were violated
when

the

arguments,
mandated

prosecu tor,

during

cross

examination

and

closing

repeatedly

asserted

that

Petitioner's

due

process

entitlement

to

I
discovery

evidence

deceiving

the

jury.

The

comments

relevant

included

above

in

Ground

4(1).

Petitioner

had
to

aided
this

him

in

claim are

has 'cited

no

law

indicating that a prosecutor may not comment on his right to review
discovery. Regardless, the comments were isolated and did not so
infect

the

trial

with

unfairness

as

to

make

the

conviction a denial of due process. On this issue,

resulting

the SCAWV's

application of law and determination of facts were reasonable.
Therefore, the Court finds that this claim is without merit.
Ground 4(3)
Petitioner alleges that his rights under the 5th,

6th, and

14th Amendments to the United States Constitution were violated
when

the

arguments,
the

prosecutor,

during

cross

examination

and

closing

"implicitly and illicitly utilized the privileges of

attorney-client

relationship
23

to

the

detriment

of

the

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 24 of 68 PagelD #: 4244
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
|

Petitioner." His petition does not indicate what specific behavior
he is referencing.
Petitioner,

in

his

objections,

clarifies

ths t

he

"is

asserting that the State gave to the Petitioner abs olutely no
evidence at all - they gave it to his attorneys[.]" ECF No. 98 at
7. When Petitioner reviewed the State's evidence, he did so during
a "privileged consultation with his attorneys." Id.

Petitioner

believes that the prosecutor improperly referenced his right to
review the evidence against him and violated his rights to due
process and effective assistance of counsel.
The prosecutor referenced Petitioner's ability to review the
evidence for two years in order to come up with a story to avoid
conviction.

The relevant portions of the trial transcript are

listed above in the Ground 4(1) section. Petitioner has cited no
law supporting his argument that a prosecutor may not comment, due
to attorney-client privilege,
evidence.

Even

so,

the

Court

on a petitioner's right to review
finds

that

these

comments

were

isolated and did not so infect the trial with unfairness as to
make the resulting conviction a denial of due process. The SCAWV's
application of law and determination of facts were reasonable.
24

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 25 of 68 PagelD #: 4245
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Therefore, this claim is without merit.
Ground 4(4)
Petition er alleges that his rights under the 5th,

6th, and

14th Amendments to the United States Constitution were violated
when the prosecutor, during closing arguments, repeatedly accused
Petitioner of lying under oath (i.e. committing perjury).
Rule 611(b) of the Federal Rules of Evidence states that a
party’witness may be cross-examined on "matters" affecting the
witness's credibility." Further, "[i]t is a well-settled rule that
a

defendant

who

voluntarily

offers

himself

as

a

witness

and

testifies in his own behalf subjects himself to legitimate and
pertinent cross-examination to test his veracity and credibility."
United States v. Ling, 581 F.2d 1118, 1120 (4th Cir. 1978).
When Petitioner chose to testify at trial,
credibility into issue.

he brought his

The jury was also instructed that the

comments and arguments of counsel are not evidence and that the
jurors were to decide the case based solely on the evidence. ECF
No. 52-28 at 180-81; ECF 52-32 at 24. The prosecutor may comment
during closing argument on Petitioner's credibility. Her remarks
were based on the evidence presented.
25

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 26 of 68 PagelD #: 4246
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Petitioner

has

not

demonstrated

that

the

prosecutor's

k

comments were so fundamentally unfair as to deny him due process.
He has not articulated any unreasonable applicatic n of federal law
during the state proceedings, and he has not shown that the court's
adjudication
determination

resulted
of

in

the

a

decision based on

facts.

Therefore,

an unreasonable

Petitioner

has

not

established that he is entitled to relief on this claim.
Ground 5
Petitioner alleges that his rights under the 5th,

6th, and

14th Amendments to the United States Constitution were violated
when the State introduced evidence of a violent fictional novel
previously authored by Petitioner.

Petitioner argues that this

evidence "had no legitimate bearing on any issue at trial" and was
so unduly prejudicial that it rendered the trial unfair.
Here,

before trial,

the parties stipulated that the State

would not use Petitioner's novel in its case-in-chief but that the
State could refer to the novel in any rebuttal it might present.
ECF No. 52-15 at 12-13. During cross examination of Petitioner,
the prosecutor questioned him regarding his novel. Defense counsel
objected, and in a side bar, the prosecutor explained:
26

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 27 of 68 PagelD #: 4247
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
MS. GAMES-NEELY: This book is a compilation of
quite frankly it is the story of a jdrug war
that is going on with an individual named
Yahoo who is trying to get out of the drug
trade.
THE COURT: Tell me what you want t d use it
for.
MS. GAMES-NEELY: What I'm using it for in this
instance, Your Honor, is it talks about in a
particular area involving Mafia portion of the
drug war that there was a fire which an
individual was killed, burned, so there was no
criminal evidence remaining. It talks about
knives being used to slice individuals'
throats,
and it also discusses in this
incident that the primary character in this
instance had — an individual who was kind of
a mystery person that was going around who
executed this family specifically his wife and
the daughter in this instance. The young
daughter does survive for a period of time but
the wife was executed as well.
THE COURT: Well, I think the biggest relevance
is here we're going to credibility. Once you
put your client on the stand it goes to
credibility. The State's theory is this is all
made up, his whole story is made up. If they
can show he's previously written a book that
involves drugs and somebody being killed and
things like that I think they're entitled to
explore into that. It's not fair to say we had
to put our client on the stand and say this
and not to say the State is entitled to say
27

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 28 of 68 PagelD#:4248
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
wait a minute, he has written about this stuff
before, just pigeon holed into it.j
MR. PREZIOSO: I would respectfully say are we
impeaching him with fiction?
THE COURT: Not at all. We're not saVing — we're
not impeaching what he's saying hovr is somehow
different than what was said before which is
impeachment. What we're saying is
what
you're! telling us now isn't that consistent
with what you said before in some way so it's
not impeachment whatsoever.
ECF No. 52-31 at 19-21. The trial judge added the following, while
the parties were still having a side bar:
Let me say this. You all got in his statements
— I allowed you to get his statement in to 911
which is a perfect act of fiction because it
says Joseph Medina is going to kill a family
tonight and nobody was killed that night. So
it's a prior so you have to let that in ... I
think that it's very probative and on the
matter and the jury should be allowed to hear
it because they are the ones that have to go
back there and judge credibility of the
witnesses on the testimony.
Id. at 24-25. The prosecutor then questioned Petitioner on facts
of

the

story

that

were

similar

to

the

facts

in

his

case.

Specifically, the prosecutor questioned him about the idea that a
fire could destroy evidence of crimes, that violence was inherent
28

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 29 of 68 PagelD #: 4249
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
in drug culture, and that "[pjeople get their throats slit." Id.
at! 26-30.
In analyzing this line of questioning, the SCAWV found that
the prosecutor "characterized the petitio ner as a writer of crime
fiction who had two years to parse every piece of the State's

I

evidence in his case and to fabricate a story consistent with the
!

State's evidence." ECF No. 52-15 at 13. Therefore, the SCAWV found
that the admission of' this evidence was proper on cross-examination
under Rule 611(b)(1) of the State Virginia Rules of Evidence and
State v. Bradshaw,

457 S.E.2d 456 (W. Va. 1995). The court also

found that the State's use of the novel to attack Petitioner's
credibility

outweighed

the

unfair

prejudice

from

doing

so.

Finally, the SCAWV determined that the line of questioning was not
improper under Rule 404 and 608(b) of the West Virginia Rules of
Evidence.
As discussed above, Petitioner put his credibility in issue
when he chose to testify at his trial. The State used the novel to
attack

Petitioner's

credibility.

As

such,

Petitioner

has

not

established that the trial court denied him a fundamentally fair
trial by allowing this line of questioning. He has not demonstrated
29

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 30 of 68 PagelD #: 4250
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
that the trial court's or SCAWV's rulings were either erroneous or

L

"so extreme as to result in a denial of a constitutionally fair
proceeding." The SCAWV's factual d eterminations and application of
the law as to Ground 5 are reasonable,

and Petitioner is not

entitled to relief.
Ground 7
Petitioner alleges that his rights under the 5th, 6th, and
14th Amendments'to the United"States Constitution were violated'
when the prosecutor made improper remarks in front of the jury.
Ground 7(1)
Specifically,
5th,

Petitioner alleges that his rights under the

6th, and 14th Amendments to the United States Constitution

were violated when the prosecutor attacked, in front of the jury,
Petitioner's constitutional rights to silence, to counsel, and to
evidence. This is the same argument proffered by Petitioner in
Ground 4,

and the Court finds it is without merit for the same

reasons as listed above.
Ground 7(2)
In Ground 7(2), Petitioner alleges that his rights under the
5th,

6th, and 14th Amendments to the United States Constitution
30

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 31 of 68 PagelD #: 4251
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
were violated when the prosecutor used her position and status to
undermine Petitioner's ere dibikity and testimony and to bolster
the testimony of the State's witness. Petitioner does-not cite any
specific instances in the recoild.
As discussed in Ground 4(4), Petitioner put his credibility
I
in jissue when he chose to testify and subject himself to crossexamination. The prosecutor is constitutionally permitted to make
comments about a witness's crediBTTTty. Petitioner^has not shown
that the SCAWV's decision was unreasonable as to its application
of federal law or determination of facts, and, therefore, he is
not entitled to relief. This ground is without merit for the same
reasons discussed in Ground 4(4).
Ground 7(3)
In Ground 7(3) , Petitioner alleges that his rights under the
5th,

6th, and 14th Amendments to the United States Constitution

were violated when the prosecutor knowingly elicited and utilized
false testimony to secure a conviction. This is the same argument
proffered by Petitioner in Ground 3,

and the Court finds it is

without merit for the same reasons as listed above.

31

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 32 of 68 PagelD #: 4252
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Ground 7(4)
In Ground 7(4), Petitioner alleges that his rights under the
5th,

6th,

and 14th Amendments to the United States Constitution

were violated when the prosecutor used portions of Petitioner's
fictional novel as evidence, unduly prejudicing Petitioner. This

J the same argument proffered by Petitioner in Ground 5, and the
is
Court finds it is without merit for the same reasons as listed
above.
Ground 7 (5)
In Ground 7(5), Petitioner alleges that his rights under the
5th,

6th,

and 14th Amendments to the United States Constitution

were violated when the prosecutor misused portions of Petitioner's
fictional novel as evidence, unduly prejudicing Petitioner. This
is the sarnie argument proffered by Petitioner in Ground 5, and the
Court finds it is without merit for the same reasons as listed
above.
Ground 7(6)
In Ground 7(6), Petitioner alleges that his rights under the
5th,

6th, and 14th Amendments to the United States Constitution

were violated when the prosecutor misquoted witnesses' testimony,
32

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 33 of 68 PagelD #: 4253
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
including Petitioner's testimony, in order to prejudice him.
The petition does not mention specific examples. Petitioner
however,__provi des

Response,

following portions

some

of trjial,

prosecutor misquoted witnesses'

clarification.

during which he

He

claims

■L

cites

the

that

thfe

testimony in order to prejudice

him:
•

The prosecutor's statement that witness
Katie Draughton testified that Petitioner
told her he had been robbed in the woods in
Summer Hill; ;

•

The prosecutor's statement that Chareese
Davis had testified that Petitioner asked
her for $300;

•

The prosecutor's statement that Angela's
children's father, Andre White, was in
Hagerstown, Maryland, on the night of the
crime, which gave Andre White an alibi; and

•

The
prosecutor's
"choppfing]
up
and
deliberately
alter[ing]"
portions
of
Petitioner's testimony to make the jury
believe
he
had
given
inconsistent
statements.

ECF No. 90 at 23-26.
The SCAWV found that "[a]ny improper comments were isolated,
were

not

deliberately

placed

before

the

jury

to

divert

its

attention to extraneous matters, and did not have a tendency to
33

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 34 of 68 PagelD #: 4254
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]

i
mislead the jury or prejudice the petitioner." ECF No.

52-15 at

i

30. This Court agrees. 1 Petitioner has not shown that the SCAllv's
decision is

an unreasonable

application of

federal

law or an

unreasonable determination of fact with regard to any of these
prosecutorial statements,

and,

therefore, he is not entitled to

relief.
Ground 7(7)
"In Ground' 1\1) , Petitioner alleges that his rights under the
5th,

6th, and 14th Amendments to the United States Constitution

were violated when the prosecutor argued facts not in evidence.
The petition does not cite any facts

in support.

A review of

Petitioner's Response indicates that he was concerned about the
following comments by the prosecutor:
•

That paramedics saw no soot on Daronte's
shirt;

•

That both Angela's and Andre's throats had
been cut; and

•

That "[njone of the neighbors hear this
mystery car."

ECF No. 90 at 26-27.
The

SCAWV

found

that

these
34

comments

did

not

arise

to

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 35 of 68 PagelD#:4255
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
prosecutorial misconduct and that "[a]ny improper comments were
I
isolated, were not deliberately placed before the jury to 'divert
its attention to ext raneous matters, and did not have a_ te ndency
to mislead the jury dr prejudice the petitioner." ECF No. 52 -15 at
30.

As

Judge

statements

Aloi

were

noted,
not

"it

is

apparent

misstatements,

or

that
at

these

three

worst,

were

unintentional, minor misstatements, that were not material to the
prosecution, or were not prejudicial to' Petitioner." “ECF No. 96 at“
47. This Court agrees. Petitioner has not shown that the SCAWV's
decision was an unreasonable application of law or an unreasonable
determination of fact, and he is not entitled to relief.
Ground 7(8)
In Ground 7(8), Petitioner alleges that his rights under the
5th,

6th, and 14th Amendments to the United States Constitution

were violated when the prosecutor inundated the jury with improper
remarks

during

closing

arguments.

This

is

the

same

argument

proffered by Petitioner in Grounds 4 and 5, and the Court finds it
is without merit for the same reasons as listed above.

35

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 36 of 68 PagelD #: 4256
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Ground 7(9)
In Ground 7(9), Petitioner alleges that his rights
5th,

L nder the

6th, and 14th Amendments to the United States Constitution

were violated whenl the prosecutor engaged in other gross misconduct
that

unduly prejudiced

Petitioner.

This

is

the

same

argument

proffered by Petitioner in Grounds 4 and 5, and the Court finds it
is without merit for the same reasons as listed above.
B.

JUDICIAL MISCONDUCT
;

"Due process

secures

a

criminal

defendant's

right

to an

impartial trial judge." Smith v. Mirandy, No: 2:14-cv-18928, 2016
WL 1274592, at *25 (S.D.W. Va. Mar. 31, 2016)

(citations omitted).

In order for a trial to constitute a denial of due process based
on judicial behavior,
that made
335,

341

"a [petitioner] must show a level of bias

'fair judgment impossible. / // Rowsey v. Lee,
(4th Cir.

2003).

327 F.3d

If a trial judge's behavior "reaches

such a level of prejudice" that a defendant is denied a fair trial,
a new trial is required. United States v. Parodi, 703 F.2d 768,
776 (4th Cir. 1983)

(citation omitted).

Here, Petitioner has

not met his burden in alleging that judicial misconduct occurred
during his trial. AS discussed below,
36

the Court finds that his

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 37 of 68 PagelD #: 4257
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
I
judicial misconduct claims must be dismissed.
Ground 6 !
In Ground 6,
5th,

Petitioner alleges that his rights under the

6th, and 14th Amendments to the United States Constitution

were violated when the trial court refused to give the jury an
I
instruction proffered by petiti oner that described Petitioner's
theory of the case.
Generally,

jury instructions are matters "of state law "and

procedure and do not invoke federal constitutional guarantees. See
McGuire, 502 U.S. at 71-72. However, when circumstances impede the
fundamental fairness of the trial and impinge on constitutional
protections, a federal habeas court may review them. See Marshall
v. Lonberger, 459 U.S. 422 (1983).
Petitioner's requested instruction was based upon Syllabus
Point 2 of State v. Dobbs, 259 S.E.2d 829 (1979), which provides
that "[c]ircumstantial evidence will not support a guilty verdict,
unless the fact of guilt is proved to the exclusion of every
reasonable hypothesis of innocence; and circumstances which create
only a suspicion of guilt but do not prove the actual commission
of the crime charged, are not sufficient to sustain a conviction."
37

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 38 of 68 PagelD #: 4258
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
This was overruled in State v. Guthrie when the SCAWV wrote that
"there

is 1 no

qualitative

difference

between1

direct

and

circumstanti al evidence." 461 S.E.2d 163, 175 (W. Va. 1995). The
court furthe r stated that there is "only one standa rd of proof in
criminal cases and that is proof beyond a reasonable doubt." Id.
Importantly, "an additional instruction on circumstantial evidence
is

no

longer

required

even

if

the

State

relies

wholly

circumstantial evidenceI'd.
i

A review of the trial transcript provides the following:
THE COURT: Morning. Let's go on and I
understand
there's
some
objections
instructions.

to

MR. PREZIOSO: Well, Judge,' if I could. I read
through
here.
I
didn't
even
find
a
typographical
error
in
any
of
these
instructions. I think they are, in complete
candor to the Court, correct, and the way you
said it malice, I don't have any problem or
objection with that because there's different
malice for the murder and then the arson.
I went out and spoke to Mr. Prophet. He
reviewed the instructions. He sought to have
his own instruction added that I submitted to
Court and Counsel. Again, the law is what I
typed up. To give you an understanding is from
State versus Dodds which is a case that is
38

on

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 39 of 68 PagelD #: 4259
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
overruled. I don't know if it's necessary to
offer this. I think it's contemplatedjin the
1 reasonable doubt instruction; however, Mr.
Prophet wanted to make a record of that and
wanted to offer it into the record.
THE COURT: I don't think it's a correct
statement of the law. I don't think that it's
required that all reasonable opportunity by
others to have committed the crime is the
standard. The State doesn't have the burden
and the evidence doesn't that all reasonable
“opportunity - by others to- have committed it
'need be proved. It may be why it was overruled.
I understand it went further on to direct
versus circumstantial, but that statement as
it's taken in isolation like that is number
one,
impractical because
there's
not a
requirement of proof beyond all reasonable
doubt.
MR. PREZIOSO: I explained it to him the way
that they're still required, of course, to
prove guilt beyond a reasonable doubt. I
explained that to him. Just note our objection
to it.
ECF No. 52-32 at 4-5.
The SCAWV found "that the circuit court's refusal to give the
instruction from Dobbs is not in error because this language is no
longer a correct statement of the law." ECF No. 52-15 at 25. This
Court agrees. The trial court did not deny Petitioner a fair trial
39

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 40 of 68 PagelD #: 4260
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
by refusing to give the requested jury instruction. Petitioner has
failed to show that the state court's decision was based in either
an

unreasonable

determinatio n

factual

or

an

unreasonable

so he is not entitled to relief on

application of federal law,
this ground.
Ground 8|

Petitioner alleges that his rights under the 5th/

6th,

and

14th Amendments to the" United’ States Constitution were’ ’violated
when the trial court engaged in bias and misconduct and made
prejudicial remarks before the jury.
The Fourth Circuit has written that \> \ [a]

judge's ordinary

even a stern and short-

efforts at courtroom administration

tempered judge's ordinary efforts at courtroom administration —
remain immune' and do not establish bias or partiality." United
States v. Castner,
Liteky v.

50 F.3d 1267,

United States,

1274

510 U.S.

(4th Cir.

540,

556

1995)

(quoting

(1994)).

Further,

"judicial remarks during the course of a trial that are critical
or disapproving of, or even hostile to, counsel, the parties, or
their

cases,

challenge.

.

ordinarily do
.

.

not

support

a bias

or partiality

[T]hey will do so if they reveal such a high
40

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 41 of 68 PagelD #: 4261
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
i
degree

of

favoritism or

antagonism

as

to make

fair

judgment

! impossible." Liteky, 510 U.S. at 555. 'A trial judge, though, must
conduct himself or herself in a way flat "never reaches__the point
at which it appears clear to the jury that the court believes the
accused is guilty." United States v. Ecklin, 528 F. App'x 357, 362
I
(4th Cir. 2013).
i

Ground 8(1)
Specifically,

in Ground " 8 (1) ,’ Petitioner ’alleges that his

rights under the 5th, 6th, and 14th Amendments to the United States
Constitution were violated when the trial judge, prior to trial,
made an "extremely prejudicial and biased remark" in open court
regarding

Petitioner's

guilt

and

culpability.

The

statement

Petitioner references was made during a pretrial hearing. ECF No.
52-14

at

72-73.

During

a

pretrial

hearing,

the

trial

judge,

according to Petitioner, said that Petitioner's defense "doesn't
hold water." Id. at 73. This statement was outside of the purview
of a jury.

It was reasonable, therefore, for the state court to

find that the remark had no bearing on Petitioner's conviction. It
did not deprive him of a fair trial, and he is not entitled to
relief.
41

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 42 of 68 PagelD #: 4262
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ecf no- 96], Overruling petitioner's objections [ecf no. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Ground 8(2)

L

In Ground 8(2), Petitioner alleges that his rights under the
6th, and 14th Amendments to t he United States Constitution

5th,

were violated when the trial judge , prior to trial, manipulated
the State's witness to strengthen the State's case.

Petitioner

seems to be referencing events somewhat explained in his Amended
Petition. Id. at 73^74. Petitioner alleges that two months before
Petitioner's

trial,

"in" "another unrelated’ criminal matter; 'the

trial judge rejected a plea deal for Medina in an unrelated case,
in which Medina had agreed to testify adversely against Petitioner
in

this

case.

Petitioner writes,

"At

that

time,

it

has been

reported that Judge Wilkes intimated that he would riot accept that
negotiated plea deal for Medina because he felt that Medina had
more information than he was letting on to regarding the Petitioner
and the case against him." Id. at 74. Petitioner alleges that the
trial

judge

effectively

"utilized

his

manipulate

or

judicial
otherwise

power

and

coerce

position
Medina

to
into

artificially strengthening the State's case against" him. Id.
The SCAWV found that the claims of judicial misconduct, to
the extent that they are not a rehashing of assignments of error
42

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 43 of 68 PagelD #: 4263
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]

I
previously presented, are "frivolous assertions of bias" that are
i

"deem[ed] wholly unnecessary to alddress." ECF No. 52-15 at 30. The
Court finds that these allegati ons are- at best speculative and
vague

("it has been reported

") ,

.

and the

state

court's

application of law and determination of facts as to this claim
were reasonable. Petitioner is not entitled to relief.
Ground 8(3)
In Ground "8(3), Petitioner alleges that his rights under the'
!

5th,

6th, and 14th Amendments to the United States Constitution

were violated when the trial judge refused to strike two biased
jurors for cause.
Ground 2,

This claim is a reiteration of the claim in

which has been previously found to be procedurally

barred. Therefore, the Court will not address Ground 8(3).
Ground 8(4)
In Ground 8(4), Petitioner alleges that his rights under the
5th,

6th, and 14th Amendments to the United States Constitution

were violated when the

trial

judge allowed the prosecutor to

present unduly prejudicial evidence in the form of Petitioner's
novel. This is the same argument proffered by Petitioner in Ground
5, and the Court finds it is without merit for the same reasons as
43

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 44 of 68 PagelD #: 4264
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
I
listed above.
Ground 8(5)
In Ground 8(5), Petitioner alleges that his rights under the
5th,

6th, and 14th Amendments to the United States Constitution

were violated when the trial judge allowed the prosecutor to attack
Petitioner's

post-Miranda

silence.

This

is

the

same

argument

proffered by Petitioner in Ground 4, and the Court finds it is
without merit for the same reasons as listed above.
Ground 8(6)
In Ground 8(6), Petitioner alleges that his rights under the
5th,

6th, and 14th Amendments to the United States Constitution

were violated when,
accused

Petitioner

during cross examination,
of

being

argumentative,

the trial judge
inconsistent,

and

evasive in his answers. There are no factual allegations in the
Petition as to this claim, but Petitioner's Response clarifies. He
is referencing the following exchange:
Q: But the floor underneath of you at that
point was not on fire; is that right?
A: What? Did I run through fire is what you're
asking?
THE COURT: No.
underneath was

She asked you the floor
not on fire. Answer the
44

i

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 45 of 68 PagelD #: 4265
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
question.

!

WITNESS: The floor underneath. I don't
THE COURT: -Well, previously—you testified to
the fact that you didn't look around and you
didn't know so yoili have to be specific in your
answers to her questions.
WITNESS: She has to be
THE COURT: Don't be argumentative.
WITNESS: I'm not being argumentative. I'm just
trying to understand ’her question.
!

THE COURT: Let's get something straight here.
You' re not going to tell me what you're doing
or not. I'm going to. Answer her question
specifically.
ECF No. 52-31 at 112-13.
The SCAWV found that these claims, to the extent that they
are not a rehashing of assignments of error previously presented,
are

"frivolous

assertions

of bias"

that

are

"deem[ed]

wholly

unnecessary to address." ECF No. 52-15 at 30. The Court agrees
with

Judge Aloi's

findings

on

this

point:

the

trial

judge's

statements to Petitioner during trial were "ordinary efforts at
courtroom administration" taking place when Petitioner was failing
to answer the question asked. See Castner, 50 F.3d at 1274 (quoting
Liteky,

510

U.S.

at

556)).

The
45

newly-impaneled

jury

was

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 46 of 68 PagelD #: 4266
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
specifically instructed by the trial judge as follows:
i

Anything I do 'shouldn't be considered by you
as to how I think you should decide any of the
facts. That's totally your 50 percent. My 50
percent is instructing you as to what the law
is and ruling on the admissibility of the
evidence at other trial procedure matters.

I

ECF No. 52-28 at 181. The trial judge's conduct did not render the
trial unfair,

and the state courts'

application of the law and

determination of facts were reasonable. This claim, therefore, is
without merit.

i

Ground 8(7)
In Ground 8(7), Petitioner alleges that his rights under the
5th,

6th, and 14th Amendments to the United States Constitution

were violated when the trial judge did not intervene to limit the
prosecutor's improprieties during closing arguments. As discussed
above, Petitioner's claims of prosecutorial misconduct are without
merit and are dismissed, so the Court will not find that the trial
judge

was

duty-bound

to

intervene

during

closing

arguments.

Therefore, this sub-ground is without merit.
Ground 8(8)
In Ground 8(8), Petitioner alleges that his rights under the
5th,

6th, and 14th Amendments to the United States Constitution
46

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 47 of 68 PagelD #: 4267
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
!

were violated when the trial judge attempted to guide and advise
the prosecutor throughout the case.

In the petition,

Petitioner

cites no facts supporting this conclusory statement. He provides
some guidance in his Response, citing a transcript from a mdtion
hearing held on July 9, 2019:
now, I this [911
THE COURT: That
from the Defendant's !phone and
doesn't want that in to say — I'm
my gosh, here is what I would do
would‘say — well, I don' t try the

call] came
the State
just saying
with it. I
cases'.

MS. GAMES-NEELY: Yes, your honor. And I know
exactly what I'm going to do with it if the
Court allows it in.

in looking at
THE COURT: So what you want
this I called the police three days in advance
to say Joseph Medina is going to commit this
crime but I'm not going to tell you he's going
to do it to me and that I'm worried about it?
MS. GAMES-NEELY: That's correct.
THE COURT: Wow.

THE COURT: If [the defense does somehow get
this evidence before the jury] , all I can see
is looking at the jury and saying, ladies and
gentlemen of the jury, here we are on a firstdegree murder charge and we have evidence that
the Defendant used his phone to call three
47

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 48 of 68 PagelD#:4268
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
days before the crime to say it was going to
happen and somebody else was going to do it.
Certainly- if the jury tends to believe that
that takes care of premeditation.
MS. GAMES -NEELY: Right.

THE COURT: I can definitely see the Defense
wanting to keep [this evidence] out. Boy.

THE
COURT-:" " If
iTT'ls
in
evidence
fthe
prosecutor] can say — personally — well, I
think it would be great to say did you call
911 to say you were going to commit this crime.
MS. GAMES-NEELY: Exactly.
THE COURT: We all as lawyers have taken that
step off the bridge of faith and sometimes
tumbled, but Mr. Prezioso and Mr. Manford
rarely stumble if — tumble by opening the door
wow.
that way. If the
ECF No.

52-27 at 9-16.

Petitioner also cites another exchange

during the trial:
MR. MANFORD: Second Objection would be subject
to the rules of Evidence how this — how would
this [novel] be relevant.
THE COURT:
book.

I don't know.

MR. PREZIOSO: Exactly.
48

I've not read the

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 49 of 68 PagelD#:4269
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]

i
THE COURT: But I'm assuming the prosecutor has
and they can give me a proffer as to what it
is. I would anticipate she's going to say it
somehow mirrored something he testified to.
ECF No. 52-31 at 18-19. Petitioner contends that the trial judge,
during this

"essentially nudged the prosec utor

exchange,

into

misrepresenting this evidence during the course of trial." ECF No.
90 at 42.
As to the first exchange, as Judge Aloi noted, it took place
during a discussion of evidentiary issues during a motions hearing,
not during trial. The court was expressing its surprise that the
State did not want the evidence of the 911 call submitted, was
discussing the pros and cons of the evidence for each side, and,
as Judge Aloi noted, "was not colluding in some fashion with the
state" in any way. ECF No. 96 at 57. As to the second exchange,
this Court has already discussed the admissibility of the novel
and will not reiterate its reasoning here. For those reasons, the
Court

finds

evidentiary

that
issues

the

state

were

courts'

not

determinations

unreasonable

as

to

on

these
factual

determinations or application of the law, and Petitioner is not
entitled to relief on this claim.
49

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 50 of 68 PagelD #: 4270
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Ground 8(9)
In
5th,

iround 8(9), Petitioner alleges that his rights under the

6th

and 14th Amendments to the United States Constitution

were violated when the trial judge engaged in other subtle conduct
to the detriment of Petitioner. Petitioner fails to identify facts
supporting this alljegation.

Such conclusive statements are not

sufficient to overcome summary judgment. Therefore, this claim is
without merit.
C.

INSUFFICIENCY OF THE EVIDENCE
When reviewing a claim of insufficiency of evidence,

the

district court must view the evidence in the light most favorable
to the prosecution and determine whether any rational trier of
fact could have found the essential elements of the crime beyond
a reasonable doubt. Jackson v. Virginia, 443 U.S. 307, 319 (1979).
Ground 9
Petitioner alleges that his rights under the 5th,

6th, and

14th Amendments to the United States Constitution were violated
when he was convicted by evidence insufficient to establish his
guilt beyond a reasonable doubt for every element of the charged
crime. He argues that there was no evidence of premeditation and
50

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 51 of 68 PagelD #: 4271
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
deliberation that could establish beyond a reasonable doubt that
he co nlm itted first degree murder.
Lnder

West

Virginia

law,

"[a]lthough

premeditation

and

deliberation are not measured by any particular period of time,
there must be some period between the formation of the intent to
kill and the actual killing, which indicates the killing is by
prior calculation and design." Guthrie, 461 S.E.2d at 181. "As a
practical matter, premeditation generally can be proved only by
circumstantial evidence" and "must ordinarily be inferred from the
objective facts." State v. Larock,

470 S . E. 2d 613,

624

(W. Va.

1996).
Here, after viewing the evidence in the light most favorable
to the prosecution, the Court finds that a rational trier of fact
could have found beyond a reasonable doubt that premeditation and
deliberation existed. First, Elizabeth Devonshire testified that
at 3:00 a.m.

on June 6,

2010,

she observed that the Angela's

curtains were tightly closed. ECF No. 52-29 at 75. A reasonable
jury could infer that Petitioner closed the curtains so no one
would see him commit murder, which could indicate premeditation
and deliberation. Further,

Petitioner testified that on June 3,
51

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 52 of 68 PagelD #: 4272
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
2010, he anonymously reported to the police a threat made by Medina
;

aga'inst the victims. ECF No. 52-30 at 246-57. A reasonable jury
cou Id find that he did this to frame Medin a for crimes Petitioner
was planning to commit,

which could indi cate premeditation and

deliberation. As to Andre's death,

a reasonable, jury could find

■i
that Petitioner killed Andre with premeditation and deliberation,

while sparing the infant, because a three-year-old would be able
to identify Petitioner to police. The SCAWV cited a number of these
arguments in finding that the evidence was sufficient to support
the

jury's

finding that

Petitioner

deliberated murder. Therefore,

committed premeditated and

the Court finds that the SCAWV's

application of law and determination of facts were reasonable,
there was sufficient evidence to support Petitioner's convictions,
and Petitioner is not entitled to relief on this claim.
D.

INEFFECTIVE ASSISTANCE OF COUNSEL
In examining a claim of ineffective assistance of counsel,

the court conducts a two-part analysis. "First, the defendant must
show

that

counsel's

performance

was

deficient.

This

requires

showing that counsel made errors so serious that counsel was not
functioning as the 'counsel' guaranteed the defendant by the Sixth
52

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 53 of 68 PagelD #: 4273
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Amendment." Strickland v. Washington,

466 U.S.

668,

687

(1984) .

v'Deficient performance' is not merely below-average performance;
father, the attorney's actions must fall below the wide range of
professionally competent performance." Griffin v. Warden, 970 F.2d
1355, 1357 (4th Cir. 1992).
Second,

the

defendant

must

show

that

the

deficient

performance prejudiced the defendant. Strickland, 466 U.S. at 687.
"This requires showing that (counsel's errors were so serious as to
deprive the defendant of a fair trial,

a trial whose result is

Petitioner must show that "there is a reasonable

reliable." Id.

probability that,

but for counsel's unprofessional errors,

the

result of the proceeding would have been different." Id. at 694.
There is a "strong presumption that counsel's conduct falls within
the wide range of reasonable professional assistance; that is, the
defendant

must

overcome

the

presumption

circumstances,

the challenged action

trial strategy.

r tt

that,

under

the

'might be considered sound

Id. at 689.

In a § 2254 proceeding, this Court does not examine whether
the Strickland standard is met.

It examines whether the state

court's application of Strickland was unreasonable. Importantly,
53

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 54 of 68 PagelD#:4274
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
an unreasonable application is different from a from an incorrect
\

application. Harrington v. Richter, ^62 U.S. 86, 101 (2011).
Ground 10
Petitioner alleges that his ric hts under the 5th,, 6th,

and

14th Amendments to the United States Constitution were violated by
the ineffective assistance of his state-appointe|d trial counsel.
I
Ground 10(1)
Specifically,
5th,

Petitioner alleges that his rights under the

6th, and 14th Amendments to the United States Constitution

were violated by ineffective assistance of his state-appointed
trial

counsel

when

his

counsel

failed

to

thoroughly

and

independently investigate the crime at issue.
The petition does not specify how counsel allegedly failed to
thoroughly and independently investigate the crime. Petitioner's
Response, however,

identifies three alleged deficiencies in his

counsel's performance:

(1) failure to search the woods for "blood

evidence" to corroborate Petitioner's claim that he had fled from
the two murderers and had hidden there; (2) failure to immediately
locate and interview Medina; and (3) failure to timely investigate
Petitioner's claim that he had made calls to 911 and other law
54

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 55 of 68 PagelD#:4275
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
!

I
enforcement agencies several days before the crimes occurred. ECF
No. 52-16 at 144-45.
After-Petitioner briefed this at the trial court level, the
trial court judge found that Peti tioner's first claim failed to
show
that his blood was [actually] in the woods,
where the blood was in the woods] that he
notified counsel to investigate where to
search for blood, that counsel refused to
search for blood," br 'that finding ~his blood in
the woods somehow would have affected the
outcome of the trial.
ECF No.

52-21 at 10.

Further,, counsel was not appointed for at

least two weeks after the crimes were committed, so the probability
of finding blood spatter was very unlikely. Id.
Next,

the

trial

judge

noted

that

Petitioner's

counsel

vigorously cross-examined Medina at trial and that Petitioner did
not show that contacting Medina immediately would have resulted in
a different outcome at trial. Last,

the trial judge wrote that

Petitioner did not establish that he was prejudiced when his
counsel failed to investigate Petitioner's anonymous calls to 911
days

before

the

crimes

were

committed.

Counsel

did

investigate it and used the calls as evidence at trial.
55

in

fact

;

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 56 of 68 PagelD #: 4276
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
This Court agrees with the trial court's reasoning and the
SCAWV's

dismissal.

Petitioner'1 s

not to the

investigate these issues did
assistance.

counsel's

Petitioner has not

alleged
level

failure

to

of ineffective

established that but

for these

alleged errors, the result of his trial would have been different.
Accordingly,

the

state court's ruling was not an unreasonable

determination of facts or an unreasonable application of federal
law, and Petitioner is not" entitled’ to relief.
!

Grounds 10(2) and 10(3)
Petitioner alleges that his rights under the 5th, 6th, and
14th Amendments to the .United States Constitution were violated by
ineffective assistance of his state-appointed trial counsel when
counsel

failed

to

file

a

pretrial

motion

to

suppress

the

introduction of Petitioner's violent fictional novel and failed to
request

a

limiting

instruction

informing

the

jury

that

Petitioner's fictional novel was for impeachment only and not to
be considered as evidence of a material or substantive fact.
As to the motion to suppress, Petitioner's counsel at trial
attempted to minimize the use of the novel. Both parties stipulated
that the novel could not be used in the prosecution's opening or
56

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 57 of 68 PagelD #: 4277
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
case-in-chief but that the novel could be used to rebut evidence.
At

trial,

the prosecutor cross-examined

Petitioner,

using the

novel to attack his credibility.- Counsel objected, but the trial
court

determined

that

the

stipulation

did

not

prevent

the

prosecution from using the novel during cross-examination and that
it was relevant to Petitioner's credibility. ECF No. 52-15 at 13.
The trial court, in its habeas decision, even wrote that "[i]t is
clear that trial counsel tried to preclude "the"use of the book at
trial, and that had trial counsel done so with a written motion in
limine,

the trial court's ruling would not have been different."

ECF No. 52-21 at 11.
Petitioner has not established that but for these alleged
errors,

the result of the trial would have been different. The

state courts' application of law and determination of the facts
were reasonable, and Petitioner is not entitled to relief on this
claim. As to the limiting instruction, again, Petitioner has failed
to show that but for the alleged failure, the outcome of the trial
would have been different. The state courts'

application of the

law and determination of facts were reasonable, and Petitioner is
not entitled to relief.
57

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 58 of 68 PagelD#:4278
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]

i
Grounds 10(4) - 10(12)
Petitioner alleges that his rights under the 5th,

6th, an

14th Amendments to the United States Constitution were violated
ineffective assistance of his state-appointed trial counsel when
his counsel failed to object to and move for a mistrial based or
the prosecutor's

improper and unconstitutional

questions about

Petitioner's post-Miranda silence.
These issues were addressed in Grounds 4 and 5 above. The
Court has determined that Petitioner's claims of prosecutorial
misconduct

and

judicial misconduct

are

without merit

and are

dismissed. Trial counsel did object to the State's questioning of
his pre-arrest silence, preserving the issue for appeal. ECF No.
52-21 at 12. The SCAWV found that the line of questioning was not
error. Therefore, by not moving for a mistrial and — at times
not objecting (though, notably, counsel did object), Petitioner's
counsel's performance was not deficient. The SCAWV's application
of law and determination of facts were reasonable, and Petitioner
is not entitled to relief.

58

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 59 of 68 PagelD #: 4279
PROPHET V. BALLARD

1:16-CV-178

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Ground 10 (13)
Petitioner alleges1 that his rights under the 5th,

6th,

and

-14th Amendments to the tnited States Constitution were violated by
ineffective assistance of his state-appointed trial counsel when
his counsel failed to object to and move for a mistrial based on
the prosecutor's other improper ancl unconstitutional remarks made
during closing arguments. As the Court explained above, there was
no prosecutorial misconduct regarding these remarks (Ground 4) and
there was no judicial misconduct in not preventing them (Ground
8(5) ) .

Therefore,

there

is

no

proper

claim

of

ineffective

assistance of counsel for failing to either object or move for a
mistrial. This claim has no merit, and Petitioner is not entitled
to relief.
Ground 10(15)
Petitioner alleges that his rights under the 5th,

6th, and

14th Amendments to the United States Constitution were violated by
ineffective assistance of his state-appointed trial counsel when
his counsel failed to object to and move for a mistrial for the
trial court's "many instances of blatant bias and misconduct."
This Court has already addressed Petitioner's claims of judicial
59

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 60 of 68 PagelD #: 4280
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
misconduct.

The

trial

court

did

not

engage

in

misconduct.

Therefore, thisIclaim has no merit, and Petitioner is nbt entitled
to relief.
Ground 10(16)
6th, and

Petitioner alleges that his rights under the 5th,

I States Constitution were violated by
14th Amendments to the United
ineffective assistance of his state-appointed trial counsel when
his

counsel

failed

to

object

a

"to

myriad

of

prejudicial
:

circumstances throughout the entirety of the trial." The petition
does

not

specify

referencing.

The

which
other

explanations as well.
overcome

summary

prejudicial

pleadings

circumstances

prove

to

be

he

is

insufficient

Conclusory allegations are not enough to

judgment.

The

Court

finds

the

state

courts'

application of law and determination of facts were reasonable, and
Petitioner is not entitled to relief on this claim.
E.

INEFFECTIVE ASSISTANCE OF APPELLATE COUNSEL
Ground 12
Petitioner "is afforded the right to effective assistance of

counsel

as

to

Pszczolkowski,

his
No.

first

1:14CV13,

appeal

as

of

2015 WL 144619,
60

right."
at *7

Grimes

v.

(N.D.W. Va.

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 61 of 68 PagelD #: 4281
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
Jan. 12 2015)

(citing Evitts v. Lucey, 469 U.S. 387, 396-97 (4th

Cir. 2000) ) . 1 "The standard for reviewing a claim o'f ineffective
assistance of appellate counsel is the same as when reviewing the
effectiveness of trial counsel." Lucas v. McBride, 505 F. Supp. 2d
329, 350 (N.D.W. Va. 2007). The Supreme Court has found the found
that a defendant
must
first
show that
his
counsel
was
objectively unreasonable, in failing to find
that is, that
arguable issues to appeal
counsel
unreasonably
failed
to
discover
nonfrivolous issues and to file a merits brief
raising them. If [the defendant] succeeds in
such a showing, he then has the burden of
demonstrating prejudice. That is, he must show
a reasonable probability that, but for his
counsel's unreasonable failure to file a
merits brief, he would have prevailed on his
appeal.
Smith v. Robbins,
omitted).

The

528 U.S.

Supreme

259,

Court

has

285

(2000)

recognized

(internal citations
the

importance

of

appellate counsel selecting the most promising issues for review.
Jones

v.

Barnes,

463

U.S.

745,

752

(1983).

Counsel

has

wide

latitude in deciding what issues to raise on appeal, and "it is
difficult to demonstrate that counsel was incompetent." Smith, 528
U.S.

at 288. As the Smith Court noted,

" [g] enerally,

only when

ignored issues are clearly stronger than those presented, will the
61

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 62 of 68 PagelD #: 4282
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
presumption of effective assistance of counsel be overcome." Id.

I

(citing Gray v. Greer, 800 F.2d 644, 646 (7th Cir.1 1986)). A court
'presumption that he decided

"must accord appellate counsel the

which issu es were most likely to afford relief oh appeal.

r n

Bell

v. Jarvis, 236 F.3d 149, 164 (4th Cir. 2000) (quoting Pruett v.
I
Thompson, 996 F.2d 1560, 1568 (4th Cir. 1993)).
I
Grounds 12(1) and 12(2)
"Petitioner alleges that his rights under the 5th, "6th,

and

14th Amendments to the United States Constitution were violated by
ineffective assistance of his appellate counsel when his counsel
failed to present certain grounds on appeal that were stronger
than

those

presented

and

failed

to

present

constitutional

questions or cite to United States Supreme Court authority. Counsel
on appeal challenged the sufficiency of the evidence, the use of
Petitioner's

novel,

the

alleged

comments

on

the

post-arrest

silence, the refusal to give the jury instruction, the "false and
perjured" testimony, and prosecutorial and judicial misconduct.
Petitioner has failed to demonstrate that the claims should
have been raised on appeal or were more meritorious than the claims
that were presented. It was reasonable for his appellate counsel
62

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 63 of 68 PagelD #: 4283
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
to focus on the grounds it raised. Petitioner has not listed any
I

i

claims 4hat his appellate counsel could have or 'should have raised.
The SCA/tfV's application of law and determination of facts were
reasonable. Therefore, Grounds 12(1) and 12(2) are without merit,
and Petitioner is not entitled to relief.
Ground 12(3)
Petitioner alleges that his rights under the 5th,

6th, and

14th Amendments to the United States Constitution were violated by
ineffective assistance of his appellate counsel when his counsel
"failed

to

pinpoint

with

accurate,

appropriate,

and

specific

citations to the trial record the post-Miranda silence remarks of
the prosecutor" described in Ground 4. As discussed above,

the

prosecutor's references to Petitioner's pre-arrest silence were
not in error. They were challenged by defense counsel and addressed
on direct appeal. Therefore, the SCAWV's application of law and
determination of facts were reasonable,
entitled to relief.

63

and Petitioner is not

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 64 of 68 PagelD #: 4284
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
F.

;

DENIAL OF MEANINGFUL APPELLATE AND POST-CONVICTION REVIEW

{Ground 13
Petitioner alleges that his rights under the 5th,

6th, and

14th Amendments to the United States Const Ltution were violated
when the SCAWV failed to provide Petitioner meaningful appellate
and post-conviction collateral review. The Supreme Court of the
United States has held that a criminal defendant has a liberty
interest

in

its

"substantial

and

legitimate

expectation"

of

certain procedural protections, and an "arbitrary deprivation" of
those protections may constitute a constitutional violation. Hicks
v. Oklahoma,

447 U.S. 343, 346 (1980). Contrary to Petitioner's

arguments, Petitioner has been afforded extensive review at every
level, and his constitutional rights have been upheld. The Court
agrees with Respondent's argument in his Memorandum of Law in
Support of his Motion for Summary Judgment:
Petitioner
was
afforded
trial
counsel,
appellate counsel, and habeas counsel. He was
afforded a direct appeal, post-conviction
proceedings, and a postconviction appeal. He
was permitted to file a direct appeal brief,
a pro se habeas petition, an amended petition,
by counsel, and a brief challenging the
circuit court's denial of habeas relief. Both
the circuit court and the WVSCA issued
opinions and orders discussing Petitioner's
64

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 65 of 68 PagelD #: 4285
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
claims. Petitioner was permitted to file all
of his claims before the state courts,
culminating in this lengthy 2254 Petition.
Petitioner cannot legally dispute that he was
afforded the full panoply of constitutional
rights provided to a convicted criminal
defendant, simply because his: claims were
correctly found to be meritless.
ECF No

82 at 21. Petitioner contends in his Response that "the

State courts refused to abide by their own Constitution and fully
consider and decide all of the Petitioner's claims." ECF No. 90 at
50. The Circuit Court of Berkeley County, West Virginia, and the
Supreme Court of Appeals of West Virginia both addressed all of
Petitioner's claims and explained their reasoning, and, now, this
Court has as well. Ground 13 is without merit, and Petitioner is
not entitled to relief.
G.

CUMULATIVE ERROR
Ground 11
Petitioner alleges that his rights under the 5th,

6th, and

14th Amendments to the United States Constitution were violated by
the cumulative effect of multiple trial errors.

"The cumulative

effect

errors

of

two

or

more

individually

harmless

has

the

potential to prejudice a defendant to the same extent as a single
reversible

error,"

and

"[t]he

purpose
65

of

a

cumulative-error

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 66 of 68 PagelD#:4286
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
analysis is to address that possibility." United States v. Rivera,
!900 F.2d 1462, 1469 (10th Cir. 1990).! A "legitimate cumulativeanalysis

error

evaluates

only

the

e ffect

of matters

actually

determined to be constitutional error, not the cumulative effect
of all of counsel's actions deemed deficient." Fisher v. Anqelone,
163 F.3d 835, 852 n.9 (4th Cir. 1998).
Here, as discussed above, the Court has found no individual
constitutional errors with respect to any of Petitioner's claims^
Therefore, a cumulative-error analysis is not appropriate. See id.
at

852

(writing

counsel's

that

actions

"[hjaving
could

be

just

determined

considered

that

none

of

constitutional

error ... it would be odd, to say the least, to conclude that
those same actions,

when considered collectively deprived

[the

defendant] of a fair trial").
Petitioner also contends that the prosecutor erred in failing
to provide notice of its intent to use 404 (b) evidence, that the
trial court failed to change the venue of the trial due to massive
publicity,

and that

the state witness

informed the

jury that

Petitioner was staying at the local regional jail. With regard to
the 404 (b) claim, Petitioner has provided no facts indicating why
66

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 67 of 68 PagelD #: 4287
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO. 81], AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
and although a pro se petitioner is

he is entitled to relief,

entitled to liberal construction o
"expected to state facts

t

his pleadings,

that point to—a

he is still

real possibility of

constitutional error" in a habeas petition. See Samples v. Ballard,
860 F.3d 266, 275

(4th Cir. 2017). Further,

the claim regarding

the changing of the trial venue has already been procedurally
barred. As to Petitioner's claim regarding a witness's informing
the jury that Petitioner was in jail,

the petition provides no

argument in support of this claim and fails to explain how it is
cumulative error.
provided to

See ECF No.

evidence
these

Accordingly,

that

13-1

such

at

5.

comments

No

facts

prejudiced

allegations

conclusory

have been
the

are

jury.
either

insufficiently pled or procedurally barred and do not overcome
Respondent's Motion for Summary Judgment.
IV.

CONCLUSION

Petitioner has failed to overcome the presumption that the
state

court

was

correct

in

its

decision.

§ 2254(e)(1). For the reasons discussed above,

See

28

the Court ORDERS

the following:
•

the R&R is ADOPTED
67

[ECF No.

96]

U.S.C.

to

the

Case l:16-cv-00178-TSK Document 99 Filed 08/19/19 Page 68 of 68 PagelD#:4288
1:16-CV-178

PROPHET V. BALLARD

MEMORANDUM OPINION AND ORDER ADOPTING REPORT AND RECOMMENDATION
[ECF NO. 96], OVERRULING PETITIONER'S OBJECTIONS [ECF NO. 98],
GRANTING MOTION FOR SUMMARY JUDGMENT [ECF NO . 81] , AND
DENYING AND DISMISSING § 2254 PETITION [ECF NO. 13]
extent not modified
Opinion and Order;
j

in

this

Memorandum

Petitioner's Objections are OVERRULED [ECF
No. 98];
Respondent's Motion for Summary Judgment is
GRANTED [ECF No. 81]j
Petitioner's Motion to Expedite Review is
DENIED AS MOOT [ECF No. 93];
Petitioner's § 2254 petition is DENIED [ECF
-No-- 1-3] ; and------------- - -• ------------ ----------!

i

•

this action,is DISMISSED WITH PREJUDICE and
STRICKEN from the Court's active docket.

It is so ORDERED.
The Court directs the Clerk to enter a separate judgment order
and to transmit copies of it and this Order to the pro se petitioner
via certified mail, return receipt requested.
DATED: August 19, 2019

THOMAS S. KLEEH
UNITED STATES DISTRICT JUDGE

68

IN THE SUPREME COURT OF THE UNITED STATES

ANTONIO PROPHET,
Petitioner.

Case No.:

vs.

DONALD AMES, Superintendent,
Mount Olive Correctional Complex,
Respondent.

Appendix C
Complete Copy of the Magistrate Judge’s Report and Recommendation to the District Court.
Filed: February 21, 2019.

Antonio Prophet, pro se
Prisoner #3484869
Mount Olive Correctional Complex
One Mountainside Way
Mount Olive, WV 25185

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 1 of 76 PagelD#:4129

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
ANTONIO PROPHET,
Petitioner,
Civil Action No. I:16cvI78
(Judge Kleeh)

v.

RALPH TERRY, Acting Warden,
Respondent.
REPORT AND RECOMMENDATION
This case was initiated by the pro se Petitioner on August 24, 2016, by the filing of a
petition for habeas corpus pursuant to 28 U.S.C. § 2254—The petition was not on a court-approved
form and comprised 806 pages, including memoranda and attachments. Along with the petition,
Petitioner paid the filing fee and filed a Motion for Expedited Review. ECF Nos. 2, 3. The
following day, pursuant to Rule 4 of the Federal Rules Governing Section 2254 Proceedings in the
United States District Court, Magistrate Judge James E. Seibert made a preliminary review of the
petition and found that summary dismissal was not warranted at that time. Accordingly, the
Respondent was directed to file an answer to the petition. ECF No. 5. On August 29, 2016, the
Respondent moved for an extension of time. ECF No. 7. By Order entered the same day, Petitioner
was directed to show cause; his over-large § 2254 petition was struck for failure to comply with
the Local Rules of Prisoner Litigation Procedure (“LR PL P”); the attachments to the petition were
struck; Petitioner’s motion for expedited review was denied; and the prior order directing
Respondent to answer was vacated. ECF No. 10. By separate Order entered the same day,
Respondent’s motion for an extension was denied as moot. ECF No. 9.

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 2 of 76 PagelD #: 4130

On September 2, 2016, Petitioner refiled his § 2254 petition, with a 7-page typed
“addendum” and three attached exhibits;1 along with a motion to proceed as a pauper; a copy of
his Prisoner Trust Account Report; a response to the order to show cause; a Motion for Leave to
Type 2254 on the Uploaded Court-Approved Form; and a Motion for Leave to File Excess Pages.
ECFNos. 13, 14, 15, 16, 17, 18.
On October 31,2016, along with a Motion for the Court to Forthwith Direct the Respondent
to File an Answer to Petitioner’s Initial or Modified 2254 Petition [ECF No. 20], Petitioner filed a
Renewed Motion for Expedited Review of his § 2254 petition. ECF No. 21. By Order entered
November 2, 2016, Petitioner’s motion to type his § 2254 petition on an uploaded court approved
form and his-motion for leave to file excess-pages were granted, and Petitioner was-direeted to file
a memorandum of law, if any, not to exceed fifty pages. ECF No. 22. By separate Order entered
the same day, Petitioner’s renewed motion for expedited review was denied. ECF No. 23.
On November 9, 2016, Petitioner filed a 56-page Memorandum of Law in support of his §
2254 petition. ECF No. 25.
On December 2, 2016, Petitioner filed another Renewed Motion for the Court to Forthwith
Direct the Respondent to File an Answer. ECF No. 26. On December 5, 2016, the Respondent
filed a response in opposition, along with a motion to strike Petitioner’s memorandum of law. ECF
No. 27. Petitioner filed a reply on December 8, 2017. ECF No. 28.

1 Petitioner attached copies of: a June 21,2016 Memorandum Decision of the West V irginia Supreme Court of Appeals
on the appeal of three Circuit Court of Berkeley County orders entered in his state habeas petition; a June 24, 2015
Order from the Circuit Court of Berkeley County, dismissing certain grounds in his state habeas petition; and an
October 28, 2015 Order from the Circuit Court of Berkeley County, denying his state habeas petition. ECF Nos. 132,13-3, and 13-4.

2

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 3 of 76 PagelD#:4131

On January 18, 2017, Petitioner filed a Renewed Motion for the Court to Forthwith Direct
the Respondent to File an Answer. ECF No. 29. On March 21, 2017, Petitioner filed a Motion for
the District Judge to Direct the Magistrate Judge to Forthwith Order the Respondent to File an
Answer. ECF No. 35. By Order entered March 29,2017, Petitioner’s motion and renewed motion
to direct the Respondent to file an answer were denied; Respondent’s motion to strike Petitioner’s
memorandum of law was granted, and Petitioner was again directed to refile his memorandum in
support in compliance with the LR PL P. See ECF No. 36. By Order entered March 30, 2017,
Petitioner’s Motion for the District Judge to Direct the Magistrate Judge to Forthwith Order the
Respondent to File an Answer was denied as moot. ECF No. 37. On March 31, 2017, Petitioner
filed-a response to the March-29, 2017 Order, withdrawing his Memorandum of law; waiving the----right to file another; and requesting the Court to forthwith direct the Respondent to file an answer
only to his § 2254 petition. ECF No. 38. On April 27, 2017, Petitioner filed a Motion for the Court
to Forthwith Order the Respondent to File an Answer and to Expedite Review. ECF No. 41.
By Order entered May 2,2017, the Respondent was directed to show cause why the petition
should not be granted; Petitioner’s motion for the court to forthwith direct the Respondent to file
an answer was denied as moot, and Petitioner's motion to expedite review was denied as premature.
ECF No. 42. That same day, the Respondent moved for an extension of time to file an answer.
ECF No. 43. By Order entered May 3, 2017, Respondent’s motion for an extension was granted.
ECF No. 44. On July 24, 2017, Respondent filed a second motion for an extension of time. ECF
No. 48. On July 27, 2017, Petitioner filed an objection to Respondent’s second motion for an
extension. ECF No. 49. On July 27,2017, Respondent filed a reply to Petitioner’s objection. ECF
No. 50. On August 16, 2017, Respondent filed a motion for leave to file out of time; a Response;
a Motion to Dismiss for Failure to Exhaust; a Memorandum in Support; and a Motion for leave to

3

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 4 of 76 PagelD#:4132

file excess pages. ECF Nos. 51, 52, 53, 55, 54. By Order entered August 21, 2017, Respondent’s
motion for leave to file out of time was granted, and Respondent’s prior motion for an extension
of time was denied as moot. ECF No. 56. By separate Order entered the same day, Respondent’s
motion to exceed the page limits was granted. ECF No. 57. Because Petitioner was proceeding
pro se, on August 22, 2017, a Roseboro Notice was entered. ECF No. 58. On August 28, 2017,
Petitioner filed a Response in Opposition to Respondent’s Motion to Dismiss and a Reply; the two
documents together exceeded the LR PL P limitation of pages by 5 pages and were filed without
a motion to exceed the page limit. ECF Nos. 61, 62. Along with those two responses, Petitioner
filed another Motion for the Court to Expedite Review of the Matter of Exhaustion and Order the
-Respondent to Forthwith File an-Answer Addressing-the Allegations in-Petitioner’s § 2254
Petition. ECF No. 63. By Order entered August 30, 2017, Petitioner’s third renewed motion for
expedited review was denied as premature. ECF No. 64.
By Order entered September 15, 2017, this case was reassigned from Magistrate Judge
James E. Seibert to Magistrate Judge Michael J. Aloi.
On September 27, 2017, Petitioner filed a Clarified Motion for the Court to Expedite
Review of the Matter of Exhaustion and Order the Respondent to Forthwith File an Answer
Addressing the Allegations in Petitioner’s § 2254 Petition. ECF No. 66. On November 2, 2017,
Petitioner filed a Motion for the District Judge to Direct the Magistrate Judge to Expedite Review
of the Matter of Exhaustion and Order the Respondent to Forthwith File an Answer Addressing
the Allegations in Petitioner’s § 2254 Petition. ECF No. 67.
On February 6, 2018, the undersigned issued a Report and Recommendation, (“RR”)
recommending that Respondent’s Motion to Dismiss [ECF No. 53] be granted, that the petition be
denied and dismissed without prejudice as unexhausted; and that Petitioner’s two pending motions,

4

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 5 of 76 PagelD#:4133

Clarified Motion for the Court to Expedite Review of the Matter of Exhaustion and Order the
Respondent to Forthwith File an Answer Addressing the Allegations in Petitioner’s § 2254 Petition
[ECF No. 66] and Motion for the District Judge to Direct the Magistrate Judge to Expedite Review
of the Matter of Exhaustion and Order the Respondent to Forthwith File an Answer Addressing
the Allegations in Petitioner’s § 2254 Petition [ECF No. 67] both be denied as moot. On February
20, 2018, Petitioner filed a motion for leave to exceed the page limits and objections to the R&R.
ECF No. 71.
By Memorandum Opinion and Order issued on March 28, 2018, the R&R was adopted to
the extent that Grounds 10(14), 12(3) and 12(4) of the Petition were found to be unexhausted, and
—Grounds 4-and 2 to be-proeedurally barred; concluding that Petitioner-had-abandoned the
unexhausted Grounds 10(14), 12(3) and 12(4); dismissing with prejudice Grounds 1 and 2;
denying as moot the Respondent’s motion to dismiss; denying as moot Petitioner’s clarified motion
for the Court to expedite review; denying as moot Petitioner’s motion for the district judge to direct
the magistrate judge to expedite review; granting Petitioner’s motion for leave to exceed the page
limit; and recommitting the case to the undersigned for consideration of the merits of Petitioner’s
remaining claims:2 Grounds 3-9, 10(1)-10(13), 10(15)-l0(16), 11, 12(1)-12(3),3 and 13.

2 This analysis of which claims remain for consideration reflects that Petitioner also agreed to “willingly abandonQ”
Grounds 10(17) and “12(15) [sic]” because they “lack merit.” See ECF No. 61, n.l at 2. Because there is no Ground
12(15) in the petition, and it is clear that Petitioner was referring to the claim of appellate assistance of counsel raised
in Ground 12(5), it appears that this was a typographical error on Petitioner’s part.
Petitioner’s abandonment of the Grounds 10(17) claims also specifically includes abandonment of the claims
labeled as Ground 10(r), Ground 10(s), and Ground 10(q)(6) in the R&R. See ECF No. 61 at 5 - 6.
Petitioner also indicated his willingness to abandon the implicitly-raised claim of appellate counsel’s
ineffectiveness for failing to challenge the circuit court’s refusal to transfer his trial due to prejudicial pretrial publicity
[see ECF No. 61 at 6]; referencing it as Ground 12(5); this claim was actually labeled “Ground 12(f)” in the R&R [see
ECF No. 68 at 38]; this appears to be another typographical error by Petitioner.
3 This appears to be a typographical error in the Order, given that Ground 12(3) was specifically noted to have been
abandoned by Petitioner. Cf. ECF No. 73, nl at 2, 30 with id. at 18.29.

5

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 6 of 76 PagelD#:4134

On April 3,2018, a second Order to Show cause was entered. ECF No. 75. On April 5,2018,
Petitioner filed a “Motion for the District Judge to Independently Consider and Decide the Merits
of Petitioner’s Remaining § 2254 Habeas Corpus Claims.” ECF No. 76. The motion was construed
as a motion for recusal of the magistrate judge and was denied by Order entered April 25, 2018.
ECF No. 78.
On May 3, 2018, the Respondent filed a Supplemental Response, a Motion for Summary
Judgment, a Memorandum in Support, and a motion to substitute party. ECF Nos. 80, 81, 82, 83.
By Order entered May 4,2018, Respondent’s motion to substitute party was granted. ECF No. 84.
A second Roseboro Notice issued. ECF No. 85. On May 17, 2018, Petitioner filed a motion to
exceed the page limit. ECF No. 88. By Order entered May-31,2018, Petitioner^ motion to exceed
the page limits was granted. ECF No. 89. That same day, Petitioner filed a Memorandum of Law
in response to Respondent’s motion for summary judgment. ECF No. 90.
On September 28, 2018, Petitioner filed another motion to expedite review. ECF No. 93.
By Miscellaneous Case Order entered November 30, 2018, this case was reassigned from
District Judge Irene M. Keeley to District Judge Thomas S. Kleeh.
Accordingly, this case is again before the undersigned for a report and recommendation
pursuant to LR PL P 2.
I. Factual and Procedural Background
A.

Petitioner’s Conviction and Sentence
On June 5, 2010, Petitioner spent the night with his girlfriend, Angela Devonshire, and her

two young children4 in her apartment above her parents’ garage in Berkeley County, West
Virginia. See West Virginia Supreme Court of Appeals’ (“WVSCA”) June 5, 2014 opinion on

4 Petitioner was not the father of either child.

6

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 7 of 76 PagelD#:4135

direct appeal, ECF No. 52-15 at 7. The garage apartment was located at the end of Devonshire’s
parents’ driveway, approximately 75 yards from their home. Id At some point before 4:36 a.m.
on June 6, 2010, Petitioner slit Ms. Devonshire’s throat and then burned the apartment with Ms.
Devonshire and her three-year-old son Andre still inside.5 Id. at 7 - 8. Petitioner carried Ms.
Devonshire’s other son, Daronte, an infant approximately six weeks old, out of the apartment and
over to Devonshire’s parents’ nearby patio, where he left him,6 unattended but alive. Id. at 8, 12.
The infant was uninjured; however, blood spatter on his clothing was later confirmed to be
Petitioner’s. Id at 8. Petitioner, using an assumed name, attempted to flee to Georgia [ECF No.
52-20 at 2], but was apprehended in North Carolina on June 17, 2010. ECF No. 52-15 at 8; see
also-ECF Nor 5 2-5 at 50—^-ly-53—At the time of-his arrestrPetitioner’s hands exhibited defensive
injuries. ECF No. 52-15 at 8.
Accordingly, on February 17, 2011, a grand jury sitting within the Circuit Court of
Berkeley County, West Virginia (“circuit court”) indicted Petitioner in Criminal Case No. 11-F67 on two counts of first-degree murder for the deaths of Ms. Devonshire and her son, and one
count of first-degree arson. ECF No. 52-1.
Approximately two years after the murders/arson, at the July, 2012 trial,7 the State of West
Virginia (“state”) introduced witnesses who testified that Petitioner had a cut on his neck, blood

5 At trial, the medical examiner testified that both were dead before the fire started; Angela’s throat was slit so deeply
that her airway was transected and she bled to death; her body was so charred, it only weighed 60 pounds. However,
Andre’s body was too badly burned to determine a cause of death. See ECF No. 52-29 at 95 - 101. At trial, Petitioner
contended two intruders committed the crimes.
As noted by the WVSCA in its per curiam opinion, “[a] reasonable person could infer that after killing
Angela, the petitioner killed Andre because the petitioner knew that Andre, but not infant Daronte, could identify him,
which is evidence of premeditation.” See ECF No. 52-15 at 19.
6 At trial, Prophet testified that he left the baby on a lawn chair on the patio in back of the home. ECF No. 52-30 at
309.
7 Petitioner’s trial counsel were B. Craig Manford and Christopher Prezioso.

7

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 8 of 76 PagelD #: 4136

on his clothing, appeared disturbed, distraught, and was sweating at 7:00 a.m. on the morning of
June 6, 2010, after the murder/arson; that Petitioner requested clothes, a cell phone, and money
from an ex-girlfriend on the morning of the murder/arson; that he sought transportation out of
state; that he had requested help from a friend named Joseph Medina,8 after texting him that he
“was in a situation;” and that blood on the infant’s clothing matched Petitioner’s. ECF No. 52-15
at 8-9.
Petitioner testified in his own defense, alleging that the deaths were the result of a drugrelated hit targeting Ms. Devonshire, purportedly because of money she allegedly owed Joseph
Medina.9 See id. at 10 - 12. Specifically, Petitioner testified that two men broke into Ms.
Devonshire’s apartment that night and slit her and her three-year-old son’s throats while Petitioner
attempted to fight them off.10 Id.; see also ECF No. 52-30 at 300 - 01. However, Petitioner’s
At trial, Medina testified that he had been a friend of Prophet’s since early grade school. See ECF No. 52-15 at 9.
9 Petitioner testified that he and Medina quarreled in the days leading up to the murders/arson, allegedly over a laptop
that Medina had stolen on June 3, 2010, and given to Petitioner to hold, explaining that he planned to extort money
from the laptop’s owner in exchange for its return. ECF No. 52-15 at 10. Petitioner contended that during an argument
over Medina’s involving him in this scheme, Medina threatened to hurt him, Angela, and her family. Id. Petitioner
also testified that he called 911 anonymously on June 3,2010, to report Medina’s threats, alleging that Medina planned
to kill an entire family. Id. See also ECF No. 52-30 at 251 - 52. The 911 operator directed him to call the Martinsburg
City Police, who directed him to call the Berkeley County Sheriffs Department, where he left similar anonymous
messages. ECF No. 52-30 at 251 - 265.
Petitioner’s testimony that he called 911, Martinsburg City Police, and the Berkeley County Sheriffs
Department was supported by his cell phone records and other documentation. ECF No. 52-15 at 10. Medina’s trial
testimony was that Petitioner had stolen the laptop from Medina’s girlfriend [ECF No. 52-31 at 191-98]; but Medina
also testified that he sent no one to Angela’s house the night of June 5-6,2010 [ECF No. 52-30 at 77]; that he had no
reason to collect any money from Angela [id. at 97]; and he denied having anything to do with her death or her son
Andre’s death. Id. at 145.
10 The WVSCA’s opinion summarized the trial testimony, noting that
At 12:30 a.m. on June 6th, Angela awakened the petitioner, stating there were two guys at the door
who would not leave. One of them was named '"Boogy” and the other was unknown, but wore a
Baltimore Orioles ball cap. When the petitioner went to the door to confront the men, they said they
were looking for Angela, explaining that Angela was a junkie who owed them money. The petitioner
convinced the two men to leave but they promised to return. When the petitioner questioned Angela
about this matter, she denied owing money to the men[.]
The petitioner further testified that sometime later he and Angela went outside to smoke .
.. on the porch of the garage apartment. At that point, Boogy jumped out and charged up the steps
toward the petitioner and Angela. Angela ran back into the house, leaving the petitioner to fend off

8

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 9 of 76 PagelD#:4137

testimony opened the door to a rigorous cross-examination, wherein the State identified similarities
in Petitioner’s story to fictional elements contained within a novel Petitioner wrote prior to the
killings. See A. Prophet, Enter the Fire: Seven Days in the Life, PublishAmerica11 (2008). ECF
No. 52-15 at 12-13.
On July 20, 2012, after a 5-day jury trial, Petitioner was convicted on all counts; the jury
recommended that he be sentenced to life without the possibility of parole. ECF No. 52-15 at 14;
see also ECF No. 52-10.

the attackers. The petitioner then tried to run into the house and shut the door, but Boogy crashed
into the apartment where he and the petitioner continued to fight[.]
___
According to the„petitioner, the Baltimore_Orioles:capped man then appeared,, holding a.
gun. Boogy, with whom the petitioner was fighting, had a knife and cut... petitioner's inner forearm
. . .[and] pinky finger. After this struggle, .. . petitioner was directed to sit on the couch. He saw
Boogy screaming at Angela about money[;] Boogy then attempted to cut Angela’s throat with the
same knife used to cut the petitioner. The petitioner attempted to grab the knife at which point the
Baltimore Orioles-capped man struck the petitioner with the gun, and Boogy then cut the petitioner's
hand with the knife.
The petitioner testified that Boogy took him downstairs for the purpose of breaking into
the garage to steal something. After the petitioner arrived back upstairs in the apartment, he saw
Angela lying on a mattress with her throat slit and the three-year old Andre lying beside her in a
pool of blood. At this point the petitioner sprayed the gun-wielding Baltimore Orioles-capped man
with mace and fled ... As he ran through the woods, shots were fired at him and he heard the voice
of a third man whom he thought may have been... Medina [...] [subsequently,] upon seeing smoke
coming from the apartment, [petitioner] ran back into the apartment, grabbed six-week-old Daronte,
and placed him on Angela's parents' patio. He banged on the Devonshires’ door and when nobody
answered, he panicked and fled.. . .[He] admitted that he did not call emergency services and told
nn prip ahrmt tfrp events surrounding the victims' deaths and the fire until he testified in court [two
years later]. WVSCA opinion, ECF No. 52-15 at 10 -12.
The WVSCA noted that despite Petitioner’s claim that he thought he had heard Medina’s
voice at the crime scene when he fled into the woods, both Medina and his girlfriend, Anica Small,
who had spent the night of June 5-6, 2010 with Medina, testified that Medina was elsewhere that
night, and that petitioner had texted Medina at around 4:30 a.m. on June 6,2010, while Medina was
asleep, to say that he was “in a situation” and needed help, showing that Petitioner’s testimony was
not credible. ECF No. 52-15 at 18 -19.
Medina also testified that after initially ignoring the 4:30 am text message from Petitioner,
he called Petitioner later that day and Petitioner told him he had caught Angela “going through his
pockets” and that thereafter, “stuff happened,” which could be viewed by a jury as providing a
motive for killing her. ECF No. 52-15 at 9,19. See also ECF No. 52-30 at 90. Medina testified that
Petitioner told him “[Angela] had went in his pocket... I assumed like because she used drugs or
whatever that she was probably trying to take some money or something from him . . . [so] he
[Petitioner] said he did what he had to do” which Medina took as Petitioner’s admission to having
committed the crimes. ECF No. 52-30 at 95 - 96.
11 See PublishAmerica, available on line at < http://www.publishamerica.com/ >

9

\

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 10 of 76 PagelD #: 4138

At a September 10, 2012 hearing, the circuit court denied Petitioner’s post-trial motions
for acquittal and a new trial and sentenced him to a determinate term of life without the possibility
of parole on each murder conviction, and to a determinate term of twenty (20) years, the maximum
sentence12 on the arson conviction, with all sentences to run consecutively. ECF No. 52-12.
B. Underlying State Court Record
Because the claims Petitioner raised in his underlying state court proceedings are so
voluminous and repetitive, and have already been set forth in exhaustive detail in the first R&R
[ECF No. 68], in the interest in brevity they will not be repeated here.
C. Petitioner’s Federal Habeas Petition
On August 24,-20 KiTEetitioner first filed his-pro^e § 2254 petition;it-was stricken for its
failure to comply with the LR PL P. On September 2, 2016, Petitioner refiled the instant § 2254
petition on a court-approved form. Per this Court’s March 28, 2018 Order, the only § 2254 claims
now remaining for consideration are: Grounds 3-9, 10(1)-10(13), 10(15)-10(16), 11, 12(1)-12(3)
[sic],13 and 13 with their subparts. See ECF No. 73 at 2, 30.
3) Petitioner’s federal constitutional rights to due process of law, to equal protection of the
law, and to a fair trial were violated under the United States Constitution’s Fifth, Sixth, and
Fourteenth Amendments, by the prosecutor’s knowing use of false testimony used to obtain the
Petitioner’s convictions. Id. at 9.
4) Petitioner’s federal constitutional rights to due process of law, to a fair trial by an
impartial jury, to not be compelled to be a witness against himself, to equal protection of the law,
to present a defense, to the effective assistance of counsel, and to the access of evidence under the
United States Constitution’s Fifth, Sixth, and Fourteenth Amendments, when the state impeached
the Petitioner’s credibility by fundamentally unfair means and by attacking his post-Miranda
silence. Id. at 11.

12 At sentencing, the court noted that the maximum sentence was imposed on the arson count because Prophet had “at
least two prior felony convictions and an extensive criminal history dating back ... to at least 1994.” ECF No. 52-38
at 42.
13 As previously noted, this appears to be a typographical error in the Order, given that Ground 12(3) was specifically
noted to have been abandoned by Petitioner. Cf. ECF No. 73, nl at 2, 30 with id. at 18,29.

10

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 11 of 76 PagelD#:4139

(a)/(l) During cross-examination, the prosecutor repeatedly questioned Petitioner
regarding his post-Miranda silence, and then during closing arguments, argued that
the discrepancy between the Petitioner’s exculpatory story at trial and his silence at
the time of arrest, after Miranda warning were given, gave rise to a legitimate
inference that said exculpatory story was fabricated somewhere along the way,
perhaps to fit within the seams of the State’s case as possibly perceived through
discovery evidence;
(b)/(2) during cross-examination and closing argument, the prosecutor repeatedly
asserted the Petitioner’s due process-mandated entitlement to discovery evidence
had undoubtedly aided him in his prosecutor-asserted act of deceiving the jury;
(c)/(3) during cross examination and closing argument, the prosecutor implicitly
and illicitly utilized the privileges of the attorney-client relationship to the detriment
of the Petitioner; and
(d)/(4) during closing argument, the prosecutor repeatedly accused the Petitioner of
having contemporaneously committed the uncharged and unindicated felony crime
- of perjury throughout the course of-his-trial testimony .--------------------5) Petitioner’s federal constitutional rights to due process of law, to a fair trial, and to equal
protection of the law were violated under the United States Constitution’s Fifth, Sixth, and
Fourteenth Amendments when the state rendered Petitioner’s trial fundamentally unfair by
introducing at trial legally inadmissible and unduly prejudicial evidence to the jury in the form of
a fictional novel previously authored by Petitioner. ECF No. 13-1 at 1.
6) Petitioner’s federal constitutional rights-to due process of law, to a fair trial, to present
a complete defense, and to equal protection of the law were violated, under the United States
Constitution’s Fifth, Sixth, and Fourteenth Amendments, when the trial court refused to give the
jury an instruction on the defense’s theory of the case. Id
7) Petitioner’s federal constitutional rights to due process of law, to not be compelled to be
a witness against himself, to the assistance of counsel, to the access of evidence, and to a fair trial
were violated, under the United States Constitution’s Fifth, Sixth, and Fourteenth Amendments,
when the prosecutor for the state engaged in prosecutorial misconduct and made numerous
improper remarks before the jury[][idj [including]:
(a)/(l) unlawfully attacking the Petitioner's Constitutional rights to silence, to
counsel, and to evidence [id];
(b)/(2) using her position and status as an agent of the State to undermine
Petitioner's credibility and testimony, and to bolster the testimony of State
witnesses [id, at 1 - 2];
(c)/(3) knowingly eliciting and utilizing false testimony to secure the Petitioner's
conviction [id at 2];
11

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 12 of 76 PagelD #: 4140

(d)/(4) presenting under the guise of impeachment knowingly irrelevant, legally
inadmissible, and unduly prejudicial evidence in the form of a fictional novel
authored by the Petitioner [id.];
(e)/(5) knowingly and deliberately misstating, misrepresenting, and distorting
scenes and narratives from the Petitioner's novel for the obvious purpose of
unduly prejudicing the Petitioner [idj;
(f)/(6) deliberately misquoting numerous witness' testimony, including the
Petitioner's, in order to unduly prejudice the Petitioner [idj;
(g)/(7) repeatedly arguing supposed facts not in evidence fid.];
(h)/(8) inundating the jury with improper remarks during closing arguments [idj;
and
(i)/(9) engaging in other misconduct that unduly prejudiced the Petitioner. Id.
8) Petitioner’s federal constitutional rights to due process of law, to not be compelled to be
a witness against himself, to the assistance of counsel, to the access of evidence, to equal protection
of the law, and to a fair trial were violated, under the United States Constitution’s Fifth, Sixth, and
Fourteenth Amendments, when the trial court engaged in bias and misconduct and made
prejudicial remarks before the jury[][id. at 2][by]:
(a)/(l) prior to trial, making an improper, passionate, and extremely prejudicial and
biased remark in open court regarding his opinion of the Petitioner's guilt and
culpability in the crimes at issue [idj;
(b)/(2) prior to trial, deliberately, improperly, and prejudicially manipulating, or
otherwise coercing, a State witness (Joseph Medina) into artificially strengthening
the State's case against the Petitioner [id.];
(c)/(3) during jury selection, improperly and prejudicially refusing to strike two
biased jurors for cause, one of which ended up on the Petitioner's impaneled jury
[idj;
(d)/(4) during cross-examination, permitting the prosecutor, under the guise of
impeachment, to present knowingly irrelevant, legally inadmissible, and unduly
prejudicial evidence to the jury in the form of a fictional novel that had been
stipulated out rid.];

12

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 13 of 76 PagelD #: 4141

(e)/(5) during cross-examination, permitting the prosecutor, over defense objection,
to attack the Petitioner's post-Miranda silence fid.l:
(f)/(6) during cross-examination, accusing the Petitioner, in front of the jury, of
being "argumentative," inconsistent, and evasive in his answers to the prosecutor

W;
(g)/(7) not dutifully, under State law, intervening to limit and attempting to correct
the prosecutor’s improprieties during closing arguments;
(h)/(8) attempting to guide and advise the prosecutor throughout the entirety of the
case on how to successfully conduct the prosecution of her case against the
Petitioner fid.l:
(i)/(9) engaging in other more subtle, though no less prejudicial, conduct to the
detriment of the Petitioner. Id.
-------—9)-Petitioner’s federal-constitutional rights to due process of law, to-equal protection of the
laws, to not have cruel and unusual punishment inflicted on him, and to a fair trial were violated,
under the United States Constitution’s Fifth, Sixth, and Fourteenth Amendments, when he was
convicted by evidence insufficient to establish his guilt beyond a reasonable doubt for every
element of the charged crime. Id. at 2 - 3.
10) Petitioner’s federal constitutional rights to due process of law, to present a complete
defense, to a fair trial, and to the effective assistance of counsel were violated, under the United
States Constitution’s Fifth, Sixth, and Fourteenth Amendments, by the ineffective assistance of his
state-appointed trial counsel[][id. at 3][when trial counsel]:
(a)/(l) failed to thoroughly and independently investigate the crime at issue [id at
3];

(b)/(2) failed to file a pretrial motion to suppress the introduction of the Petitioner's
violent fictional novel entitled Enter the Fire: Seven Days in the Life fid.l:
(c)/(3) failed to request that a limiting instruction be given to the jury informing
them that the Petitioner's fictional novel was to be limited to a specific and
legitimate purpose to impeach and was not to be used as evidence of a material or
substantive fact fid.l: and
(d)/(4) failed to object to, and move for a mistrial for, the prosecutor's improper and
unconstitutional post-Miranda silence question of: “0. And in this instance you've
had two years to make up this story?” Id.
(e)/(5) Trial counsel failed to object to, and move for a mistrial for, the prosecutor's
improper and unconstitutional post-Miranda silence question: “O. And you've had
13

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 14 of 76 PagelD #: 4142

two years to review all of the discovery, all of the pieces, all of the elements —
before you came here to testify?” Id.
(f)/(6) Trial counsel failed to object to, and move for a mistrial for, the prosecutor's
improper and unconstitutional post-Miranda silence question of: “O. But you've
had two years to review absolutely every detail of this case?” Id. at 3 - 4.
(g)/(7) Trial counsel failed to object to, and move for a mistrial for, the prosecutor's
improper and unconstitutional post-Miranda silence remark of: “He studied the
records. In every criminal case in West Virginia the State must hand to the
defendant everything we know about this case. He has had two years to go through
each and every record in this case, each and every phone record, each and every
cell record, each and every statement. Everything we have he's had the opportunity
to do it... ” Id. at 4.
(h)/(8) Trial counsel failed to object to, and move for a mistrial for, the prosecutor's
improper and unconstitutional post-Miranda silence remark of: “He never tells a
living soul his story until he takes that stand . ..” Id.
(i)/(9) Trial counsel failed to object to, and move for a mistrial for, the prosecutor's
improper and unconstitutional post-Miranda silence remark of: “Remember that?
He's got two years to craft his story ...” Id.
(j)/(10) Trial counsel failed to object to, and move for a mistrial for, the prosecutor's
improper and unconstitutional post-Miranda silence remark of: “He waits to be on
the stand to craft his story. All of his pieces fit. They fit because you can look at
every piece of evidence and go oh. this must be what happened. This must be what
happened. This may be what happened ...” Id.
(k)/( 11) Trial counsel failed to object to, and move for a mistrial for, the
prosecutor's improper and unconstitutional post-Miranda silence remark of: “He's
crafted his story. He sat there slick and polished after two years and wrote his story
because if he fails in this story he goes to prison for the rest of his life so connect
all the little dots ...” Id.
(1)/(12) Trial counsel failed to object to, and move for a mistrial for, the prosecutor's
improper and unconstitutional post-Miranda silence remark of: “It's a story. He
wrote a tale and he sat upon the witness stand and he told you that tale after he
looked at every sheet of paper that he went over it mile after mile, and he weaved
and crafted it into a fine story ...” Id.
(m)/(13) Trial counsel failed to object to, and to move for a mistrial for, the
prosecutor's other improper and unconstitutional remarks made during closing
arguments [idj;

14

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 15 of 76 PagelD #: 4143

(o)/(15) failed to object to, and to move for a mistrial for, the trial court's many
instances of blatant bias and misconduct [id];
(p)/(16) failed to object to a myriad of prejudicial circumstances throughout the
entirety of the trial. Id
11) Petitioner’s federal constitutional rights to due process of law, and to a fair trial by an
impartial jury, were violated, under the United States Constitution’s Fifth, Sixth, and Fourteenth
Amendments, by the cumulative effect of multiple trial errors[] [ECF No. 13-1 at 5] [including]:
(a)/(l) EACH AND
EVERY
INDIVIDUAL
AND COLLECTIVE
ASSERTION AND ARGUMENT OF ERROR MADE IN GROUNDS 1 - 10 OF
THIS PETITION ABOVE [idj (emphasis in the original);
(b)/(2) the prosecutor for the State failing to provide pre-trial notice of its intent to
use 404(b) evidence against the Petitioner fid.1;
(c)/(3) the trial court failing to change the venue of the trial due to massive pre-trial
publicity adverse to the Petitioner fid.1; and
(d)/(4) State witness Lt. Harmisoh deliberately and unnecessaFily informing the jury
during his testimony that the Petitioner was being held in the local regional jail. Id
12) Petitioner’s federal constitutional rights to due process of law, and to the effective
assistance of counsel were violated, under the United States Constitution’s Fifth, Sixth, and
Fourteenth Amendments, by the ineffective assistance of his state-appointed appellate counsel[]
[id,][who failed to]:
(a)/(l) present certain grounds on appeal that were obviously stronger than those
presented fid.1;
(b)/(2) present federal constitutional questions or cite to United States Supreme
Court authority fid.1;
13) Petitioner’s federal constitutional rights to due process of law, and to the equal
protection of the law were violated, under the United States Constitution’s Fifth and Fourteenth
Amendments, when the WVSCA violated its state constitution so as to deny the Petitioner a statecreated liberty interest, and when it failed to provide the Petitioner meaningful appellate and post­
conviction collateral review. ECF No. 13-1 at 6.
Regarding exhaustion, Prophet asserts that “[a]ll the grounds presented in this petition have
been presented to West Virginia’s highest court [id, at 15];” that he fully exhausted his state court
remedies as to Grounds 5-13; Grounds 5, 6, 7, 8, and 9 were raised on direct appeal; Ground 10
was not raised on direct appeal because IAC claims are more properly raised in post-conviction

15

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 16 of 76 PagelD#:4144

collateral review; Ground 11 was not raised on direct appeal due to appellate counsel’s
ineffectiveness; and that Grounds 12 and 13 “were not raised on direct appeal for obvious reasons.”
Id. at 6 - 7. He contends that he appealed all of the claims denied in his state habeas motion to the
WVSCA. Id. at 7.
Petitioner contends that his petition is timely filed. Id. at 17.
As relief, Petitioner requests that his convictions be reversed and/or overturned, and that
he be immediately discharged from state custody. Id. at 18.
E. Respondent’s Motion for Summary Judgment
Respondent contends that the petition should be dismissed and summary judgment granted
—in its favor because-it is -apparent from the record that-the WVSCA-^eognized and applied
Strickland.14 the relevant legal standard, in finding that Petitioner’s constitutional right to effective
trial and appellate counsel were not violated.
Further, Respondent asserts that the Petitioner’s claims of prosecutorial and judicial
misconduct are either frivolous, lack merit, have no support in the record, improperly request that
this Court review reasonable state-court evidentiary rulings, request rulings based on incorrect
statements of law, are conclusory or speculative allegations without factual support, misunderstand
the role of a prosecutor’s permissible advocacy, and fail to show that the WVSCA’s decisions
regarding them were unreasonable application of federal law or unreasonable determination of
facts.
Respondent contends that the WVSCA noted that Plaintiff’s sufficiency of the evidence
claim should be limited to whether there was proof of premeditation and deliberation, given that

14 Strickland v. Washington. 466 U.S. 668 (1984).

16

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 17 of 76 PagelD #: 4145

during the defense’s argument for judgment of acquittal, Petitioner conceded that the evidence was
sufficient to find second degree murder [see ECF No. 52-15 at 15]; the WVSCA made a specific
finding that the testimonial and inferential evidence was sufficient to find that Petitioner
premeditated the murders and arson. Because the WVSCAs findings were reasonable, and were
neither contrary to, nor based on an unreasonable application of clearly established federal law,
the claim fails.
Finally, Respondent contends that Petitioner’s claim of cumulative error is a legal
impossibility, given that Petitioner suffered no unconstitutional error during trial.
Accordingly, Respondent concludes that Petitioner has failed to state a claim upon which

/

R

relief can be granted.
p

F. Petitioner’s Responses in Opposition
V3
-> i
In his 54-page typewritten response in opposition, Prophet reiterates his arguments and
attempts to refute the state’s on the same. He continues to argue that his conviction and sentences

^

violate the constitution, and that he has been prejudiced by the actions of the state courts. He /•
requests that the Court deny the Respondent’s dispositive motion. ECF No. 90 at 2 - 50.
II. Standard of Review
A. Summary Judgment
The Supreme Court has recognized the appropriateness of Rule 56 summary judgment
motions in habeas cases. See Blackledge v. Allison. 431 U.S. 63, 80 (1977). So too has the Fourth
Circuit Court of Appeals. Maynard v. Dixon. 943 F.2d 407 (4th Cir. 1991). Pursuant to Rule 56(c)
of the Federal Rules of Civil Procedure, summary judgment is appropriate “if the pleadings,
depositions, answers to interrogatories, and admissions on file, together with the affidavits, if any,

17

/V

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 18 of 76 PagelD #: 4146

show that there is no genuine issue as to any material fact and that the moving party is entitled to
judgment as a matter of law.”
Motions for summary judgment impose a difficult standard on the moving party: for it must
be obvious that no rational trier of fact could find for the nonmoving party. Miller v. Federal
Deposit Ins. Corn., 906 F.2d 972, 974 (4th Cir. 1990). However, the “mere existence of a scintilla
of evidence” favoring the nonmoving party will not prevent the entry of summary judgment.
Anderson v Liberty Lobby. Inc.. 477 U.S. 242, 252 (1986), To withstand such a motion, the
nonmoving party must offer evidence from which a “fair-minded jury could return a verdict for
the [party].” Id. “If the evidence is merely colorable, or is not significantly probative, summary
------judgment-may be granted,—Feltv-v.-Graves-HumphrevsCo.. 818 F,2d-1-1-26—1-1-28 (4th Cir 198-7-)r
Such evidence must consist of facts which are material, meaning that the facts might affect the
outcome of the suit under applicable law, as well as genuine, meaning that they create fair doubt
rather then encourage mere speculation. Anderson. 477 U.S. at 248. It is well recognized that any
permissible inferences to be drawn from the underlying facts must be viewed in the light most
favorable to the party opposing the motion. Matsushita Elec. Industrial Co. v. Zenith Radio Corp..
475 U.S. 574, 587-588 (1986).
B. Federal Habeas Review Under 28 U.S.C. § 2254
Notwithstanding the standards which govern the granting of a motion for summary
judgment, the provisions of 28 U.S.C. § 2254 must be examined to determine whether habeas relief
is proper. Title 28 U.S.C. § 2254 requires a district court to entertain a petition for habeas corpus
relief from a prisoner in State custody, but “only on the ground that he is in custody in violation
of the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(aT “Federal habeas
relief does not lie for errors of state law.” Thomas v. Tavlor. 170 F.3d 466, 470 (4th Cir. 1999);

18

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 19 of 76 PagelD#:4147

see also Weeks v. Angelone. 176 F.3d249, 262 (4th Cir. 1999). Regardless, “[a]n application for
a writ of habeas corpus on behalf of a person in custody pursuant to the judgment of a State Court
shall not be granted unless it appears that...the applicant has exhausted the remedies available in
the courts of the State.” 28 U.S.C. § 2254(b)(1)(A).
The “exhaustion” doctrine requires a federal habeas Petitioner to have presented all federal
claims - in federal terms - to the highest state court prior to presenting them for federal habeas
review. Picard v. Connor. 404 U.S. 270, 275 (1971) (citations omitted). This requirement ensures
the State is given the “opportunity to pass upon and correct alleged violations of its prisoners’
federal rights.” Id To exhaust a claim in state court, Petitioner must “expressly raise[] that same
federaLconstitutionaLclaim_in_state court that he raises in federal court.!lDiaz v. Weisner. 2006
U.S. Dist. LEXIS 56583, at *31 (W.D.N.C. Aug. 1, 2006). “It is not enough that all the facts
necessary to support the federal claim were before the state court or that a somewhat similar stateclaim was made.” Anderson v. Harless. 459 U.S. 4, 6 (1982) (citations omitted).
Even if a Petitioner is found to have exhausted his state remedies, the federal court may not
grant habeas relief for claims adjudicated on their merits by the state court unless the state court’s
adjudication:
//

1. resulted in a decision that was contrary to, or involved in an unreasonable
application of clearly established Federal law, as determined by the Supreme Court
of the United States;
______ _________ _—■----2. resulted in a decision that was based on an unreasonable determination of the facts
in light of the evidence presented in the State Court proceeding.

28 U.S.C. § 2254(d)(1) and (2): see also Williams v. Taylor, 529 U.S. 362 (2000).
The Fourth Circuit Court of Appeals has determined that “the phrase ‘adjudication on the
merits’ in section 2254(d) excludes only claims that were not raised in state court, and not claims
that were decided in state court, albeit in a summary fashion.” Thomas v. Taylor. 170 F.3d 466,
19

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 20 of 76 PagelD #: 4148

475 (4th Cir. 1999). When a state court summarily rejects a claim and does not set forth its
reasoning, the federal court independently reviews the record and clearly established Supreme
Court law. Bell v. Jarvis. 236 F.3d 149 (4th Cir.), cert, denied, 524 U.S. 830 (2001) (quoting Bacon
v. Lee, 225 F.3d 470, 478 (4th Cir. 2000)). However, the court must still “confine [its] review to
whether the court’s determination ‘resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme Court
of the United States.’” Id. at 158.
A federal habeas court may grant relief under the “contrary to” clause if the state court
arrives at a conclusion opposite to that reached by this Court on a question of law or if the state
'Courtjdecidesacasedifferently_thanthisCourthas_on_asetofmateriallyJndistinguishable„facts.li
Williams. 529 U.S. at 413. A federal court may grant a habeas writ under the “unreasonable
application” clause, “if the state court identifies the correct governing legal principle from the
Court’s decision but unreasonably applies that principle to the facts of the prisoner’s case.” Id
“An unreasonable application of federal law is different from an incorrect application of federal
law.” Id. at 410.
When a Petitioner challenges the factual determination made by a state court, “federal
habeas relief is available only if the state court’s decision to deny post-conviction relief was ‘based
on an unreasonable determination of the facts.’” 28 U.S.C. § 2254(d)(2). In reviewing a state

fT

court’s ruling on post-conviction relief, we are mindful that ‘a determination on a factual issue
made by a State court shall be presumed correct,’ and the burden is on Petitioner to rebut this
presumption ‘by clear and convincing evidence.’” Tucker v. Ozmint. 350 F.3d 433, 439 (4th Cir.
2003).

20

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 21 of 76 PagelD#:4149

Habeas corpus relief is not warranted unless the constitutional trial error had a “substantial
*r

and injurious effect or influence in determining the jury’s verdict.” Brecht v. Abrahamson. 507
U.S. 619, 637 (1993); Richmond v. Polk. 375 F.3d 309 (4th Cir. 2004). “Under this standard,
habeas Petitioners may obtain plenary review of their constitutional claims, but they are not
entitled to habeas relief based on trial error unless they can establish that it resulted in ‘actual
prejudice.’” Brecht. 507 U.S. at 637.
✓ C. Liberal Construction of Pro Se Filers’ Pleadings
Although pro se petitions are to be liberally construed as set forth in Haines v. Kemer. 404

f

•

U.S. 519 (1972), habeas petitions must meet heightened pleading requirements. McFarland v.

\

Scotu4>12U.S.849 (1994)riifNlotice pleading is not sufficient, for the petition is expected to state
facts that point to a real possibility of constitutional error.” Blackledee v. Allison. 431 U.S. 63, 75,
n. 7 (1977) (internal quotations omitted). A habeas petitioner must come forth with evidence that
a claim has merit. Nickerson v. Lee. 971 F. 2d 1125, 1136 (4th Cir. 1992), cert, denied, 507 U.S.
923 (1993). Unsupported, conclusory allegations do not entitle a habeas petitioner to relief. Id.
“Principles requiring generous construction ofpro se complaints are not, however, without limits.
Gordon15 directs district courts to construe pro se complaints liberally. It does not require those
courts to conjure up questions never squarely presented to them. District judges are not mind
readers.” Beaudett v. City of Hampton. 775 F.2d 1274. 1278. 1985 U.S. App. LEXIS 24559, *7-8
(4th Cir. 1985). Moreover, mere conclusory allegations are not competent summary judgment
evidence, and thus are insufficient to defeat a motion for summary judgment. Eason v. Thaler. 73
F.3d 1322, 1325 (5th Cir. 1996). Unsubstantiated assertions, improbable inferences, and

15 Gordon v. Leeke. 574 F.2d 1147 (4th Cir. 1978).

21

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 22 of 76 PagelD#:4150

unsupported speculation are not competent summary judgment evidence. See Forsyth v. Barr. 19
F.3d 1527, 1533 (5th Cir.), cert, denied, 513 U.S. 871 (1994).

v

III. Analysis
v/

<r

The undersigned prefaces this analysis to note that despite having been significantly
reduced by the claims already waived and those found to be procedurally barred after filing,
including all sub-grounds, Petitioner’s grounds for relief still includes raising 48 claims. The
claims are repetitive; nearly all are first raised as prosecutorial misconduct, then as judicial
bias/misconduct, and then as ineffectiveness of counsel. Petitioner then challenges the sufficiency
of the evidence, and finally, raises a claim of cumulative error. For clarity and ease of disposition,
-the-elaims-have been addressed numerically where-pessible, but also grouped by type.
A. Prosecutorial Misconduct:
Ground 3: Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and Fourteenth
Amendments were violated when the prosecutor’s knowing use of false testimony was used to r
obtain the Petitioner’s convictions. (Joseph Medina testimony).
As his sole factual basis for this claim, Petitioner argues that the prosecutor permitted the
witness Medina to testify and imply falsely that he had not spoken adversely about Petitioner to
the authorities regarding the crimes at issue during his first interview, because he had not had an
attorney present. See ECF No. 13 at 10.
A criminal defendant is denied due process of law when false testimony is used against
him at trial. Nupue v. Illinois. 360 U.S. 264, 269 (1959). To state a successful habeas claim under
Napue. a criminal defendant must prove that "the prosecution knew, or should have known of the
perjury." United States v. Agurs. 427 U.S. 97, 103. (1976).

22

u

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 23 of 76 PagelD#:4151

A review of the record indicates that the WVSCA relied on the holding of State ex rel.
Franklin v. McBride,16 when it reviewed this claim, providing an independent and adequate state
law basis for the state courts’ denial of habeas relief to Petitioner. See Coleman v. Thompson. 501
U.S. 722 (1991). The WVSCA found that not only did Petitioner fail to show that the prosecutor
presented false testimony, he also failed to make the requisite showing that Medina’s trial
testimony was false. See ECF No. 52-15 at 27.
As noted supra, at trial, while Medina admitted not initially revealing everything he knew
about the crime during his first statement to the police, because he had charges pending against
him and did not yet have counsel, he also testified that he sent no one to Angela’s house the night
-of-June 5-6, 2010 [ECF No.-52-30 at 77]; had no reason to collect any-monev-from Angela fid.-at-----97]; and denied having anything to do with her or her son Andre’s death. Id at 145.
Accordingly, while the WVSCA acknowledged that Medina’s trial testimony was
sometimes inconsistent with that of his prior statements to the police, it found that such testimony
did not amount to a false statement at trial. ECF No. 52-15 at 27. Petitioner has not proven that
there was any perjury, let alone that "the prosecution knew, or should have known of the perjury[.]"
See United States v. Agurs. 427 U.S. at 103. Because the WVSCA’s determination of the factual
underpinnings of Ground Three was not unreasonable, Petitioner’s Ground Three claim was
decided on an independent and adequate state law basis, and he is not entitled to relief.
Ground 4: Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and Fourteenth
Amendments were violated when the state impeached the Petitioner’s credibility by fundamentally
unfair means and by attacking his post-Miranda silence.

16 State ex rel. Franklin v. McBride. 226 W. Va. 375,701 S.E.2d 97 (2009) (“[i]n order to obtain a new trial on a claim
that the prosecutor presented false testimony at trial, a defendant must demonstrate that (1) the prosecutor presented
false testimony, (2) the prosecutor knew or should have known the testimony was false, and (3) the false testimony
had a material effect on the jury verdict”), which is an independent and adequate state law basis for the state courts’
denial of habeas relief to Petitioner.

23

V

0

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 24 of 76 PagelD #: 4152

Petitioner contends that during cross examination, (a)/(l) the state repeatedly questioned
him about his post-Miranda silence, and during closing arguments, argued that the discrepancy
between the Petitioner's exculpatory story at trial and his post-Miranda silence after arrest, eleven
days after the murders/arson occurred, gave rise to a legitimate inference that his exculpatory story
was fabricated. Petitioner also argues that (b)(1) at cross examination and in closing, the state
repeatedly asserted that Petitioner's entitlement to discovery evidence had undoubtedly aided him
in deceiving the jury, and that (c)/(3) during cross-examination and closing, the state “implicitly
and illicitly utilized the privileges of the attorney-client relationship to the detriment of the
Petitioner.” ECF No. 13 at 12. Petitioner contends that counsel only objected to the first two postMiranda-silence prosecutorial cross-exam remarks,-but once they were overruled, theprosecutor
continued her allegedly improper line of questioning and argument. Finally, Petitioner contends
that (d)/(4) during closing argument, the state repeatedly accused him of having perjured himself
^

throughout the course of his trial testimony. See generally ECF No. 13 at 11 - 13.
The state denies Petitioner was impeached on his post-arrest silence. ECF No. 82 at 6.
The United States Supreme Court has held that “a criminal conviction is not to be lightly

J

/ V
<■

overturned on the basis of a prosecutor’s comments standing alone, for the statements or conduct
must be viewed in context; only by so doing can it be determined whether prosecutor’s conduct

^

affected the fairness of the trial.” United States v. Young. 470 U.S. 1,11 (1985). In fact, courts
/

' t have applied what has come to be known as the “invited response” or “invited reply” rule, whereby
J

courts look at the remarks within the context of the entire trial to determine whether the
prosecutor’s behavior amounted to prejudicial error. Id. at 12.
“Prosecutorial misconduct may warrant habeas relief only if the relevant misstatements
were so egregious as to render the entire trial fundamentally unfair to a degree tantamount to a due

n

o

ll

'

24

f'

\l

0

\t

/

\)'

0

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 25 of 76 PagelD #: 4153

process deprivation.” Caldwell v. Russell. 181 F.3d 731, 736 (6th Cir. 1999)(citations omitted),
abrogated on other grounds, Mackey v. Dutton, 217 F.3d 399,406 (6th Cir. 2000); see also Darden
v. Wainwrieht, 477 U.S. 168, 181 (1986)(“The relevant question is whether the prosecutor’s
comments ‘so infected the trial with unfairness as to make the resulting conviction a denial of due
process’”) (quoting Donnelly v. DeChristoforo, 416 U.S. 637, 643 (1974)).
At trial, Petitioner testified that after he left the baby on Angela’s parents’ patio in the early
morning hours of June 6, 2010 and fled, because he “felt terrible for [the family] for fleeing the
scene without telling them anything,” at 7:53 pm the next day, he sent a text message to Angela’s
father, Sidney Devonshire, stating “[m]y condolences to your family. I’m truly sorry for your loss.
Ltried to-stop it. Itried-to^Jtried to protect Angie and the baby from-them..! wasn’t able to.Xm
sorry.” See ECF No. 52-30 at 321 - 325.
'

>

\'

In his petition, Petitioner challenges the prosecutor’s allegedly improper statement during

r

/

r

cross examination: “[a]nd you told us today that you wrote this work of fiction and you've told us
is story that you've told us about what happened on the night of the events and that particular

0

is never told to anyone of law enforcement - ” see ECF No. 13 at 12; see also ECF No.

story
"—

52-31 at 33. However, a careful review of the trial court record reveals that Petitioner did not

J

' 0
I*

v

0
j

include the prosecutor’s entire statement, nor the dialogue that followed:
Q. And you told us today that you wrote this work of fiction and you've told us this
story that you've told us about what happened on the night of the events and that
particular story was never told to anyone of law enforcement MR. MANFORD: Objection.
Q. — or otherwise.
THE COURT: Hold on. There's an objection.
MR. MANFORD: I may be totally wrong but — can we have a short sidebar?

25

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 26 of 76 PagelD #: 4154

THE COURT: Sure.
(Conference at the bench between the Court and Counsel with the Defendant
present as follows:)
MR. MAN FORD: I could be totally wrong but isn't that commenting on prior
statements? She's trying to say you didn't tell anybody about that. That's his right
until he comes to court.
THE COURT: He can say why he didn't do it, but I think she's entitled to say this
is the first time it has come up, yeah.
, ^

MR. MANFORD: So I'm not arguing again, but I had this in another case in Morgan
/ County where the prosecutor made a reference to the Defendant never ...

t'

\

'

0

THE COURT: Exercising his right to silence to the police officer. She can't say
you never told it to the police or anything like that. Did you ever tell it to anyone.
You can't say when the police got you[,] you didn't tell them that, did you. This is
-------- one-of-those-Gases-where-there-could be-an-exception because-he-did-make-contactafter the event to Mr. Devonshiref,] and she could say why didn't you tell him[,]
but you can't - - pre-arrest silence is not the same as post-arrest. It's statements to
law enforcement that is exercising your right to silence so you can't ask him about
anything about law enforcement.
MR. MANFORD: Okay.
THE COURT: But you can say he contacted Mr. Devonshire after and you didn't
tell him things like that[,] because that's not exercising your right to silence.
MR. MANFORD: I agree.
THE COURT: Pre-arrest. Pre-arrest silence is allowed in. Post-arrest silence isn't.
MR. PREZIOSO: After he was arrested
MR. PREZIOSO: After he was arrested he did - [Lieutenant] Harmison did try to
interview him and he asserted his Fifth Amendment right.
THE COURT: All of that stays out. It has to be pre-arrest.
MR. MANFORD: That was two years ago, right. Your Honor, just so we have a
time, pre-arrest silence was two years ago.
THE COURT: Unless he made a statement to someone --1 mean, if it's — if it's non­
law enforcement he made a statement.

26

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 27 of 76 PagelD#:4155

MR. MANFORD: Some snitch in the jail, sure.
THE COURT: Or something like that, but pre-arrest silence does not — the Fifth
Amendment has not attached X'*”.

MR. MANFORD: I agree.
THE COURT: So pre-arrest silence.
MR. MANFORD: You're at your own peril if you talk to someone.
THE COURT: Right. Or someone non-law enforcement outside.
ECF No. 52-31 at 34 - 21 35. After the court informed the state that it would permit cross-exam
regarding Petitioner’s pre-arrest silence, but questions regarding his post-arrest silence were

J'

prohibited, the,prosecutor asked Petitioner why, when he sent the text message to Angela’s father

j.*

. ■*: <: f

1

that day, he never told Angela’s father the version of events he was now alleging for the first time

\

Jr s o/
v),

'

'r

/

at trial, leading to the next allegedly improper statement Petitioner contends that the prosecutor
made: “[y]ou did not tell anyone the story you told us yesterday prior to taking the stand; is that
correct?” ECF No. 13 at 12. The trial transcript reflects the following exchange was had:
Q. You did not tell anyone the story that you told us yesterday prior to taking the
stand; is that correct?

/ *

A

A. That's incorrect.

\)

U

MR. MANFORD: Objection. Move to strike based on the ruling. Unless I totally
misunderstood what the Court THE COURT: Well, no. What I said - I’m going to allow that and leave it at that.
I will overrule the objection based on that.

o

/*

MS. GAMES-NEELY: (resumed)
Q. Did you, in fact, contact Sidney Devonshire — and I will put this back up on the
overhead. The jury has already seen this. I'm going to show you Defendant's Exhibit
Number Nine, sir, and ask if you recognize that text message.

r

THE COURT: It's already in. He's already identified it.

j

(.

O

>
27

0 *
ft

. 4

0
•j

vJ
\

v) ^

0

v'-

r

-

✓

1

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 28 of 76 PagelD #: 4156

A. Yes, ma'am.
Q. That is the text message that you sent to Sidney Devonshire; is that right?
A. That is correct.
Q. And that text message has what date on it?
A. June 7th, 2010, 7:53 p.m.
Q. And on that particular text message, sir, do you describe to him what you've
described on that witness stand?
A. No, ma'am.
Q. Did you call Sidney Devonshire and tell Sidney Devonshire what information
you had regarding the murder of his daughter and his grandson?
-A.-No, ma'am.
ECF No. 52-31 at 36 - 37. On appeal, the WVSCA, while recognizing that the state’s questions

0

/r'
l

about Petitioner’s pre-arrest silence “potentially could have been construed as referring to the
petitioner’s post-arrest silence,” reasoned that the state’s “question was ambiguous and isolated,
and the prosecutor did not pursue this question improperly into the realm of post-arrest silence
[ECF No. 52-15 at 23-24]” before concluding that Petitioner was not subjected to impermissible
questioning on his post-arrest silence, in violation of his Miranda rights. Id at 24
t

'V

The next allegedly improper prosecutorial cross examination remarks Petitioner
y-

challenges, contending they impliedly accused him of perjury and of using his entitlement to

a

X''

discovery to fabricate a story were: “in this instance, you've had two years to make up this story?”
vx
fsee ECF No. 13 at 12]; “you've had two years to review all of the discovery, all of the pieces, all
of the elements - before you came here to testify? [id.]” and “[b]ut you've had two years to review

d
j

absolutely every detail of this case?” Id. Again, the full context of those statements is as follows: ^
Q. And in this instance, you've had two years to make up this story.

28

i
V"

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 29 of 76 PagelD#:4157

A. I didn't make up any story, ma'am.
Q. And you've had two years to review all the discovery, all of the pieces, all of
the elements - A. I didn't - Q. — before you came here to testify?
A. I didn't make up any story, ma'am.
Q. But you've had two years to review absolutely every detail of this case.
A. If you want to look at it like that, yes, ma'am.
ECF No. 52-31 at 157. Petitioner’s next contention is that the prosecutor made improper and
prejudicial remarks in closing argument, when she said:
He studied the records. In every criminal case in West Virginia the State must hand
to the defendant everything we know about this case. He has had two years to go
through each and every record in this case, each and every phone record, each and
every cell record, each and every statement. Everything we have he's had the
opportunity to do it.
ECF No. 13 at 13. However, the full text of this dialogue is as follows:
He studied the records. In every criminal case in West Virginia the State must hand
to the defendant everything we know about this case. He has had two years to go
through each and every record in this case, each and every phone record, each and
every cell record, each and every statement. Everything we have he's had the
opportunity to do it. As any author will tell you, they study their craft, how does A
fit into B, and how can I best convince somebody else to do this. Let's face it, he's
facing a life sentence. If he doesn't sell the book, if he doesn't sell his story, ladies
and gentlemen, he's facing a life sentence. He has a reason to create and craft the
story. And that's what it is. It is a story.
r

ECF No. 52-32 at 41.

V.

o ^

Next, Petitioner’s Ground/ 4(t>)/(2)yclaim challenges the propriety of the prosecutor’s
continued closing argument remarks to the effect that "[h]e never tells a living soul his story until
he takes that stand [ECF No. 13 at 13]” and "[r]emember that? He's got two years to craft this
A *

29

1. \
"-A /

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 30 of 76 PagelD #: 4158
\J

story." Id.; see also ECF No. 52-32 a tFurther, Petitioner objects to the prosecutor’s
statement that “[h]e waits to be on the stand to craft this story. All of his pieces fit. They fit because
you can look at every piece of evidence and go oh, this must be what happened. This must be what
happened. This may be what happened [ECF No. 13 at 13]" and “[h]e's crafted his story. He sat
there slick[ed] and polished after two years and wrote his story because if he fails in this story he
goes to prison for the rest of his life so connect all the little dots." ECF No. 13 at 13. These
statements, in full context, stated:
He waits to be on the stand to craft this story. All of his pieces fit. They fit because
you can look at every piece of evidence and go oh, this must be what happened.
This must be what happened. This may be what happened. Who can verify a word
of what he says? Who can verify it? Angela Devonshire and Andre White, and
-they're dead. They-can't tell.----- ---------------------------------------------- --------—
ECF No. 52-32 at 64 - 65. The next statement, read in full, states:
I don't know what happened inside that house, but I can tell you this, there's a
struggle between Angela and I believe that struggle was with Mr. Prophet... we've
made this case a great deal about what Angela did and didn't do and Angela's life .
.. but there's another victim here. Little Andre had nothing to do with any of this.
Little Andre .. . knew or saw what happened to his mommy . .. everybody knew
that Mr. Prophet was there, but little Andre could talk. Little Daronte couldn't and
that's why he was spared. It would be very easy for a three year old to say he hurt
my mommy and point. We never got that opportunity with him. Little Daronte . ..
survives with blood on him. Does that blood make a lot of sense whether it's
superficial or otherwise? Sure. He's [Prophet] cut. But it’s just as easy to say he
was cut in a struggle with Angela than he was cut with anyone else. The only person
that took that stand and said she [Angela] had a drug debt is him. Him. He's crafted
his story. He sat there slicked and polished after two years and wrote his story
because if he fails in this for the rest of his life so story he goes to prison for the
rest of his life[,] so connect all the little dots. Ladies and gentlemen, it's not Joseph
Medina. He put a bounty on Joseph Medina. He called in about Joseph Medina. He
set up Joseph Medina. What's the perfect fall guy for a murder that you do? Let's
blame Joseph Medina.
ECF No. 52-32 at 106 - 07. Petitioner also objected to the prosecutor’s statement saying “[i]t's a
story. He wrote a tale and he sat upon the witness stand and he told you that tale after he looked at

30

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 31 of 76 PagelD#:4159

every sheet of paper that he went over it mile after mile, and he weaved and crafted it into a fine
story." ECF No. 13 at 13. In full context, that statement read:
It's a story. He wrote a tale and he sat upon the witness stand and he told you that
tale after he looked at every sheet of paper[,] that he went over it[,] mile after mile
after mile, and he weaved and crafted it into a fine story. On directf,] great story.
On cross-examination he had issues.
ECF No. 52-32 at 108.
The petition does not explain what Petitioner is referring to in his Ground 4(c)/(3) claim
that during cross-examination and closing, the state “implicitly and illicitly utilized the privileges

o*

P

P

-r

of the attorney-client relationship to the detriment of the Petitioner.” ECF No. 13 at 12. However, >

o

y

in his response in opposition to the Respondent’s summary judgment motion, it is presumed that
this claim is explained by Petitioner’s oblique reference to having told his version of the story to

/

y

counsel “immediately after his arrest,” but that on the advice of counsel, not having shared that
\
version of the events with the prosecutor “because his version ... was self-incriminating in certain
rr

ways” because it placed him at the scene of the crime while it was committed. ECF No. 90 at 11

si

-12. Petitioner argues that “not once was the jury ever instructed that it is the Constitutional right
of every American citizen to remain silent after arrest, and that no inference of guilt can . . .be *
drawn ... for exercising said right.” Id. at 12.
Petitioner’s argument overlooks the fact that at the close of the state’s case, outside of the
jury’s presence, the court advised Petitioner of his right to testi

explaining that

[i]f you do testify then then you’re subject to cross-examination. If you don't testify
then, of course, you're not subject to cross-examination. If you testify I instruct the
jury that you're a competent witness on your own behalf and that they are to weigh
your testimony under the same standards and the same way they weigh any other
witness's [sic] testimony. If you choose not to testify then I instruct the jury that
they are to disregard the fact that you did not testify in their deliberations on the
4^sue of guilt or innocence.
r>
v

^ '

V
V. I 1 ''ft

n

-

y '

z1 I

/-

I

i>'
\\

^

\)

0

/

ft

■

■

I

O

K>

V)

i '

*
C'

0

0

V

t•

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 32 of 76 PagelD#:4160

ECF No. 52-30 at 221 - 22. Further, the instructions to the jury included a charge that it was the
state’s burden to prove his guilt beyond a reasonable doubt and that a defendant was not required
to prove himself innocent, because he was presumed to be so under the law. ECF No. 52-28 at 8,
183; ECF No. 52-9 at 3.
Nonetheless, it is clear from even a cursory review of the relevant portions of the trial
transcript that the prosecutor was not attempting “implicitly and illicitly” attack Petitioner’s rights
to a confidential attorney-client relationship to his detriment; it is apparent from the context of the
prosecutor’s statements to the effect that Petitioner had never told anyone his version of the events
before, that the prosecutor did not intend to include a query as to whether Petitioner had ever told
his-story-to-defense counsel, but was specifically-questioning whether-P-etitioner had-told-his
version of the events to Angela’s father in the above-referenced June 7,2010 text message. There
is simply no merit to this claim. “It is plain beyond a shadow of a doubt that the petitioner is
11 grasping at straws.” United States ex rel. Sullivan v. Pennsylvania. 244 F. Supp. 883, 885, (E.D.
Pa. 1965).
After a careful review of the trial record, the undersigned agrees with the WVSCA that the
Petitioner was not impeached on his post-arrest silence. Utilizing its previous holding in Syl. Pt.
1, State v. Bovd. 160 W. Va. 234, 233 S.E.2d 710 (1977), the WVSCA recognized that
impeachment through utilization of post-Miranda silence was reversible error [ECF No. 52-15 at
22] but noted that the trial court had carefully distinguished pre-arrest from post-arrest silence. Id.
It concluded that “impeachment by use of pre[-]arrest silence does not violate the Fourteenth
Amendment.” Id. (citing Jenkins v. Anderson. 447 U.S. 231,240 (1980)).
As for Petitioner’s Ground 4(d)/(4) claims that the prosecution engaged in misconduct by
making the other pejorative statements referred to above, implying Petitioner was a liar and

0 •

v*-

l

C-r>

*/" ,

0

32

, >
X

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 33 of 76 PagelD #: 4161

commenting on how long Petitioner had had to craft a story that he never told anyone prior to trial, ,<■
this was proper cross-examination, and Petitioner had ample opportunity to rebut this evidence. *

r

'
r>

Further, to be unconstitutional, the remarks made by the prosecution, taken in light of the totality ,

p*

■ n

r.

of the circumstances, must make the entire trial unfair. Darden v. Wainwright, 477 U.S. 168, 181

.
\i

*V

(1986). The undersigned finds that the prosecutor’s argument was “well within the permissible^
0

i

f ^

N— bounds of advocacy” to challenge and comment on Petitioner’s credibility. United States v. Lopez.
584 F.2d 1175, 1178 (2nd Cir 1978). By choosing to testify, Petitioner brought his credibility into
issue. The jury was instructed by the court that the comments and argument of counsel were not
evidence, and that they were to decide the case solely on the evidence presented. ECF No. 52-28
af 180 — 81; ECF 52-32 at24-25, 32:
As for the statements made during closing argument, again, there was nothing improper
about the prosecutor’s commenting on Petitioner’s credibility; her remarks were based upon
evidence presented; and as noted supra, the jury had already been instructed that counsels’
argument was not evidence. Accordingly, the undersigned finds that Petitioner has not
demonstrated that the prosecutor’s comments implying that Petitioner was a liar who had had two

o1r

years to concoct a story were so fundamentally unfair as to deny him due process.

'i

With regards to these Ground 4 claims, Petitioner has not articulated any unreasonable
application of federal law which occurred in the state proceedings, nor does he allege that the state '
court’s adjudication resulted in a decision based on an unreasonable determination of the facts.
Therefore, because the decisions of the state courts were not contrary to, nor did they involve an
unreasonable application of, clearly established federal law as determined by the Supreme Court,
the Petitioner has not established that he is entitled to relief pursuant to 28 U.S.C. § 2254(d)(1).
Ground 5: Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and Fourteenth
Amendments were violated when the state rendered the Petitioner’s trial fundamentally unfair by
33

o

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 34 of 76 PagelD#:4162

introducing legally inadmissible and unduly prejudicial evidence to the jury in the form of a
fictional novel previously authored by Petitioner.
Relief under 28 U.S.C. § 2254 is available to state prisoners in “custody in violation of the
Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254 (2002). Violations of state
law and procedure that do not implicate specific federal constitutional provisions are not
cognizable in habeas review. See Estelle v. McGuire. 502 U.S. 62, 67-68,112 S.Ct. 475, 480,116
L.Ed.2d 385 (1991)(“[I]t is not the province of a federal habeas court to reexamine state-court
determinations on state-law questions. In conducting habeas review, a federal court is limited to
deciding whether a conviction violated the Constitution, laws, or treaties of the United States.”);
Fisher v. Angelone. 163 F.3d 835, 854 (4th Cir. 1998), cert, denied, 526 U.S. 1035, 119 S.Ct.
1290, 143 L.Ed.2d 382 (1999).
Generally, federal habeas relief is available with respect to a trial court’s evidentiary
rulings, only if the ruling denied the defendant the right to a fair trial. See Abrams v. Barnett, 121
F.3d 1036, 1042 (7th Cir. 1997). When the challenged evidentiary rulings “so infected the entire
trial that the resulting conviction violates due process,” it is presumed that the defendant was
denied a fair trial. Cupp v. Naughten. 414 U.S. 141,147,94 S.Ct. 396,400,38 L.Ed.2d 368 (1973).
The fact that the admitted evidence allegedly was improper under state law however, does not
provide a basis for habeas relief. “[T]he Due Process Clause does not permit the federal courts to
engage in a finely tuned review of the wisdom of state evidentiary rules.” Marshall v. Lonberger.
459 U.S. 422, 438, n. 6, 103 S.Ct. 843, 853, n. 6, 74 L.Ed.2d 646 (1983). The proper inquiry for
the Court is whether the admission of the evidence itself so infected the entire trial that the resulting
conviction violates due process. See Estelle. 502 U.S. at 72, 112 S.Ct. at 482.
In this case, before trial, the parties stipulated that the state could not use Petitioner’s novel
in the state's opening statement or its case-in-chief, but that the state would be free, subject to the
34

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 35 of 76 PagelD #: 4163

rules of evidence, to refer to the novel in any rebuttal it might present. ECF No. 52-15 at 12 - 13.
Accordingly, during Petitioner’s cross-exam, the state sought to introduce evidence in the form of
the novel Petitioner had written approximately two years before the crimes. See ECF No. 52-31 at
16-26. Defense counsel objected on the basis of the stipulation and relevancy. In a sidebar, before
the issue was decided, the court elicited from the prosecutor what she wanted to use the book for
and the prosecutor replied that
[t]his book is . . . the story of a drug war going on with an individual . . . who is
trying to get out of the drug trade .. . there was a fire [in] which an individual was
killed, burned, so there was not criminal evidence remaining. It talks about knives
being used to slice individuals’ throats,... an individual who executed this family
specifically his wife and the daughter . . . [t]he young daughter does survive for a
period of time but the wife was executed as well.
ECF No. 52-31 at 19 - 20. The court noted that “[t]he State’s theory is this is all made up, his
whole story is made up. If they can show he’s previously written a book that involves drugs and
somebody being killed and things like that I think they’re entitled to explore that.” Id. at 20. The
court further noted that
[l]et me say this. You all got in his statements — I allowed you to get his statement
in to 911 which is a perfect act of fiction because it says Joseph Medina is going to
kill a family tonight and nobody was killed that night. So it’s a prior so you have
to let that in ... I think that it’s very probative and on the matter and the jury should
be allowed to hear it because they are the ones that have to go back there and judge
credibility of the witnesses on the testimony.
hh at 24 - 25. Accordingly, the prosecutor proceeded in a line of questioning to elicit admissions
from Petitioner that there were similarities in the plot of the book to the facts of the case,
specifically, that a fire could destroy evidence of crimes, that violence was inherent in drug culture,
and that “[p]eople get their throats slit.” Id. at 26 - 30. Although Petitioner initially attempted to
deny recalling anyone in his book getting their throat slit, after the prosecutor reminded him that
the character “Baby Jah” got “his throat cut and his head dismembered,” Petitioner conceded to

35

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 36 of 76 PagelD#:4164

the fact. Id at 30. Further, the prosecutor got Petitioner to admit that in the book, “the wife of your
major character dies because of a home invasion.” Id. at 30 - 31.
On appeal, the WVSCA found that “the prosecutor used the fact that the petitioner was a
creative writer to imply that he used his creative skills to fabricate his trial testimony and that he
borrowed several elements from his novel in fabricating his trial testimony. »17 ECF No. 52-15 at
21. Finding that the admission of such evidence was proper on cross-examination under Rule
611(b)(1) of the West Virginia Rules of Evidence18 and State v. Bradshaw. 193 W. Va. 619, 457
S.E.2d 456 (1995), the WVSCA concluded that Petitioner’s claim was legally unsupported.
Moreover, the WVSCA further found that the state’s use of the novel to attack Petitioner’s
credibility-outweighed-any-perceived danger—of-unfair prejudice. Finally,-the WVSCA—also
determined that the state’s use of the novel as evidence during its cross-examination of Petitioner
was not improper under Rules 404 and 608(b) of the West Virginia Rules of Evidence.

17 Specifically, the WVSCA noted that
[d]uring her cross-examination of the petitioner, the prosecutor was able to establish that the
petitioner’s novel contains themes of violence within the drug culture, the novel refers to a house
fire; two main characters in the novel were drug dealers, the wife of one of the main characters is
killed and his young child is seriously injured in a home invasion, and a character in the novel has
his throat slit[.] The prosecutor, in her closing argument, characterized the petitioner as a writer of
crime fiction who had two years to parse every piece of the State’s evidence in his case and to
fabricate a story consistent with the State’s evidence^] The prosecutor also emphasized the
similarities between the petitioner’s novel and his trial testimony.
ECF No. 52-15 at 13.
18 W.Va. Rule of Evidence 611(b)(1) states that a party witness “... may be cross-examined on any matter relevant
to any issue in the case, including credibility. In the interest of justice, the judge may limit cross-examination with
respect to matters not testified to on direct examination.”

36

Case l:l6-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 37 of 76 PagelD#:4165

Here, while Petitioner contends that this evidentiary ruling was improper and resulted in a
constitutional violation, the undersigned finds that Petitioner has not demonstrated that the trial
court’s admission of the state’s evidence in accordance with the parties’ stipulation was improper
or denied him a fundamentally fair trial. A federal collateral review court does “not sit to review
the admissibility of evidence under state law unless erroneous evidentiary rulings were so extreme
as to result in a denial of a constitutionally fair proceedings.” Barbe v. McBride. 521 F.3d 443,
452 (4th Cir. 2008) (citing Burket v. Angelone. 208 F.3d 172, 186 (4th Cir. 2000)). As such* “[i]t
is only in circumstances impugning fundamental fairness or infringing specific constitutional
protections that a federal question is presented.” Id (citing Spencer v. Murray, 5 F.3d 758, 762
(4th Cir. 1993)).
Here, the circuit court’s evidentiary rulings were correct. Beyond conclusory statements
that the line of questioning was erroneous and prejudicial, Petitioner cannot show that the
questioning regarding the novel denied him a fair trial. Accordingly, Petitioner has failed to

,

establish a denial of a federal right and has not met his burden of rebutting, by clear and convincing
----------------------- ---------------------- ------------------ ------------------------------------------------------------ —---------------------—--------- -------’

evidence, the presumption of correctness of the state habeas court’s determination of factual
issues, as required by 28 U.S.C. § 2254(e)(1). Therefore, Respondent’s Motion for Summary
Judgment with respect to this claim should be granted.
Ground 7(aWD: Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated when the prosecutor made numerous improper remarks
before the jury [including] (a) unlawfully attacking the Petitioner's constitutional rights to silence,
to counsel, and to evidence.
Respondent notes that with respect to his Ground 7 sub-ground claims, Petitioner fails to
identify or disclose actual facts supporting his allegations, relying solely on the speculative
allegations themselves as his basis for relief. ECF No. 82 at 9. Further, Respondent contends, while
Petitioner’s direct appeal brief does clarify the specific errors Petitioner is alleging here, most of
37

^

0 ^ /

Case l:16-cv-00178-TSK-MJA Document 96

Filed 02/21/19 Page 38 of 76 PagelD #: 4166

the “errors” are merely based upon the prosecutor’s permissible advocacy on behalf of the State.
Id.; see also ECF No. 52-14 at 59-72.
In evaluating Petitioner’s claims, the WVSCA employed the four-factor analysis of Syl.
Pt. 6, State v. Sugg. 193 W. Va. 388, 456 S.E.2d 469 (1995):
Four factors are taken into account in determining whether improper prosecutorial
comment is so damaging as to require reversal: (1) the degree to which the
prosecutor's remarks have a tendency to mislead the jury and to prejudice the
accused; (2) whether the remarks were isolated or extensive; (3) absent the
remarks, the strength of competent proof introduced to establish the guilt of the
accused; and (4) whether the comments were deliberately placed before the jury
to divert attention to extraneous matters.
The WVSCA’s four-factor analysis is adopted from the Fourth Circuit’s reasoning in United
States-v.-Harrison—716-F-r2d-l 050. -1052-(:4th-Gir—1-9831.
After reviewing all of Petitioner’s Ground 7 claims of prosecutorial error, the WVSCA
found that “[a]ny improper comments were isolated, Were not deliberately placed before the jury
to divert its attention to extraneous matters, and did not have a tendency to mislead the jury or
prejudice the petitioner.” ECF No. 52-15 at 30. Simply put, there was “no evidence of intentional
prosecutorial misconduct.” Id at 29. Moreover, the WVSCA noted that the circuit court had
properly instructed the jury that anything said by the lawyers during the trial is not to be
considered evidence,” and the jury is presumed to have proceeded accordingly.
Here, Petitioner’s Ground 7(a)/(l) claim that prosecutorial misconduct occurred when the
prosecutor unlawfully attacked Petitioner’s constitutional right to silence has already been
addressed in Petitioner’s Ground 4 claim that the state impeached his credibility by fundamentally
unfair means by attacking his post-Miranda silence, and found to lack merit, so it will not be
considered again here.

\

o
!

L

38

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 39 of 76 PagelD #: 4167

The undersigned agrees with the WVSCA’s legal and factual conclusion that the State
did not commit reversible error. Petitioner has not shown that any prosecutorial misconduct
occurred sufficient to warrant the overturning of his trial for prosecutorial misconduct on this
ground, because that can only be done when such conduct “so infected the trial with unfairness
as to make the resulting conviction a denial of due process.” Donnelly v. DeChristoforo. 416
U.S. 637 (1974). Here, Petitioner has not shown that the WVSCA’s decision is an unreasonable
application of federal law or an unreasonable determination of fact, and he is not entitled to
relief under 28 U.S.C. § 2254(d).
Ground 7(bV(2): Whether Petitioner’s federal constitutional rights under Fifth, Sixth, and
Fourteenth Amendments were violated when the prosecutor (b) used her position and status as an
agent ofthe Statetoundermine the Petitioner's credibility andtestimony, and to bolster'the
testimony of State witnesses.
As an initial point, the petition completely fails to identify what specific acts the Petitioner
is alleging that the prosecutor committed regarding this claim.

See ECF No. 13-1 at 1 - 2.

However, in his response in opposition to the Respondent’s summary judgment motion, Petitioner
references his pro se habeas petition, in which he elaborates, contending that the prosecutor
“infused” into the trial her personal beliefs and opinions regarding Petitioner’s credibility, his
version of the events, and his guilt. More specifically, he points to the prosecutor’s statement that
“[i]f he doesn't sell the book, if he doesn't sell the story, he's facing a life sentence. He has a reason
to create and craft the story. And that's what it is. It is a story." See ECF No. 52-32 at 41. He also
objects to the prosecutor’s argument to the jury to the effect that
[djon't be convinced by somebody who takes the stand and somebody who is slick,
can tell a story, can sit up there and weave his craft in front of you as if he's reading
his own novel in his own mind each and every element, because ladies and
gentlemen, a man who can kill a child, who can kill a child, can take that stand and
that oath doesn't mean anything to him . . . It's a story, ladies and gentlemen, and
that's what he told you.
39

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 40 of 76 PagelD#:4168

ECF No. 52-32 at 42. Petitioner also objects to the prosecutor’s statements to the effect that “[h]e
lied. He didn't tell you the whole truth. He made up these individuals^] [id. at 64];” “[l]adies and
gentlemen, it's him. He burnt down that house to cover the crime. He executed those individuals
for his own selfish reasons. That's what he did. [id. at 65];” and “[i]t's a story...It's all made up. It's
carefully crafted to each and every point." Id at 108.
On direct appeal, after reviewing what it described as “a long laundry list of allegedly
improper comments made by the prosecutor,” the WVSCA found no reversible error, given that
“[a]ny improper comments were isolated, were not deliberately placed before the jury to divert
its attention to extraneous matters, and did not have a tendency to mislead the jury or prejudice the
petitioner.” ECF No-52-T-5-at 30. It found no evidence of intentional prosecutorial misconductridr
at 29. Further, it noted that “the [circuit] court properly instructed the jury that anything said by
the lawyers during trial is not to be considered evidence,” which marginalized any potential for
undue prejudice. Id
The undersigned concurs with the WVSCA’s legal and factual conclusion that the state did
not commit reversible error. Most of what Petitioner alleges as “errors” are merely the prosecutor’s
permissible advocacy on behalf of the state. The Supreme Court has held that a trial can be
overturned for prosecutorial misconduct only when such conduct “so infected the trial with
unfairness as to make the resulting conviction a denial of due process.” Donnelly v. DeChristoforo.
416 U.S. 637 (1974). This Petitioner has not done. Further, Petitioner has not shown that the
WVSCA’s decision is an unreasonable application of federal law or an unreasonable determination
of fact, and he is not entitled to relief under 28 U.S.C. § 2254(d).
Ground 7(cW3): Whether Petitioner’s federal constitutional rights under the United States
Constitution’s Fifth, Sixth, and Fourteenth Amendments were violated when the prosecutor made
numerous improper remarks before the jury [including] (c) knowingly eliciting and utilizing false
testimony to secure the Petitioner's conviction.
40

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 41 of 76 PagelD #: 4169

Again, the petition completely fails to identify what specific acts the Petitioner is alleging
that the prosecutor committed regarding this claim. See ECF No. 13-1 at 2. However, in his
response in opposition to the Respondent’s summary judgment motion, Petitioner references his
pro se state habeas petition, in which he elaborates, contending that the prosecutor “bolstered” the
“plainly false” testimony of the state’s witness, Josepha Medina, citing to several lines from her
closing argument, which were “major points of contention at trial,” because it was Petitioner’s
position that “Medina was ‘on the run’ because he orchestrated the crime in question.” ECF No.
52-16 at 97. He further objects to the prosecutor’s statement that "Joseph Medina is not going to
say anything because he's on the run. He's on the run because of the probation violation. He's not
trying to go back to jail on that." See ECF No. 52-32. He also points to the prosecutor’s statement
that “I think Mr. Medina told us exactly what he knew."

See ECF No. 52-32 at 107.

This claim is merely further iteration of Petitioner’s Ground 3 claim that the state’s
knowing use of Joseph Medina’s “false” testimony at trial was prejudicial, using additional similar
statements by the prosecutor, statements that are legally permissible argument that were “well
within the permissible bounds of advocacy,” given that they were based upon evidence presented
at trial. It is without merit for the same reasons discussed in Ground 3, supra, and will not be
given further review. Summary judgment should be granted to the Respondent as to this claim.
Ground 7(dV(41 and 7(eV(51: Whether Petitioner’s federal constitutional under the Fifth, Sixth,
and Fourteenth Amendments were violated when the prosecutor made numerous improper
remarks before the jury [including] (d) presenting, under the guise of impeachment, knowingly
irrelevant, legally inadmissible, and unduly prejudicial evidence in the form of a fictional novel
authored by the Petitioner, and (e) knowingly and deliberately misstating, misrepresenting, and
distorting scenes and narratives from the Petitioner's novel for the obvious purpose of unduly
prejudicing the Petitioner.
These two claims are merely further iterations of Petitioner’s Ground 5 claim that the state
rendered Petitioner’s trial fundamentally unfair by introducing “legally inadmissible and unduly
41

Case 1:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 42 of 76 PagelD #: 4170

prejudicial” evidence to the jury in the form of a fictional novel previously authored by Petitioner.
That claim has already been determined to have no merit; likewise, neither do these two.
Accordingly, Petitioner is not entitled to relief.
Ground 7(f)/(6): Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated when the prosecutor made numerous improper remarks
before the jury [including] (f) deliberately misquoting numerous witness' testimony, including
the Petitioner's, in order to unduly prejudice the Petitioner.
Again, the petition completely fails to identify what specific acts the Petitioner is alleging
i-

that the prosecutor committed regarding this claim. See ECF No. 13-1 at 2. However, in his
response in opposition to the Respondent’s summary judgment motion, Petitioner references his
pro se state habeas petition, in which he provides a long list of examples of alleged “deliberate”
misstatements of evidence by the prosecutor he says were intended to prejudice him. For example,
he contends that during his cross examination, the prosecutor stated that state witness Katie
Draughon testified that Petitioner told her that he had been robbed in the woods in Summer Hill;
Petitioner denies that this was Draughon's testimony, and contends that this was a deliberate
misstatement, intended to prejudice him.
A review of the Draughon’s testimony reveals that she was a former girlfriend of
Petitioner’s; they had a six-year old son together; and that she testified that she spoke to Petitioner
in the early morning hours of June 6,2010, and again at 1:30 a.m. on June 7,2010, when Petitioner
called to say he had “exhausted all of his options,” was scared, had been “attacked by his friends
and robbed” and needed her to come and get him. ECF No. 52-29 at 221 - 225. Draughon testified
that she did not know exactly where Petitioner was at that time but thought he was in West
Virginia. Id. at 225. She further testified that in a later conversation, Petitioner told her he was “in
the woods near Summer Hill.” Id. at 226.

42

1

Case l:16-cv-00178-TSJ^M^ Document 96 Filed 02/21/19 Page 43 of 76 l^agelD #: 4171 _
i

t

\

~

•

■

u

\)

Petitioner’s contention that the prosecutor “intentionally altered” Draughon's testimony “in
order to confuse and mislead the jury, and to illicitly cast doubt on the Petitioner's version of events

V

regarding where and when he was attacked and robbed” fails to explain how this extraneous factual

A—

^■
U

dispute would have confused the jury. Whether this alleged robbery happened in the woods in
V
Summer Hill or outside of that area is of little consequence to the facts of the case, and if indeed
it was a misstatement by the prosecutor, it was a trivial one, apparently unintentional. Petitioner
has not even attempted to explain how this statement prejudiced him; the undersigned finds that it
was an inconsequential misstatement. Assuming arguendo that the statement regarding where
Petitioner was robbed, in the days after the crimes were committed was improperly admitted,
Petitioner’s-contention that it deprived him-of his constitutional right-must fail; he cannot-show-it
amounted to a due process violation. “Whether the admission of prejudicial evidence constitutes
a denial of fundamental fairness turns upon whether the evidence is material in the sense of a
crucial, critical[,] highly significant factor.” Brown v. O’Dea, 227 F.3d 642, 645 (6th Cir. 2000).
That is not the case here.
Next, Petitioner seizes upon a statement by the prosecutor to the effect that the state’s
witness John Willingham, a cab driver who drove him to Manassas, Virginia early in the morning
of June 7, 2010, testified that the Petitioner had washed up at a gas station on the morning after
the crime, as proof she deliberately misquoted Willingham’s testimony to prejudice Petitioner,
because Willingham had actually said no such thing. A review of Willingham’s testimony reveals
that Willingham testified that Petitioner was wearing “black clothes on and everything and [a] tank
top” when he picked him up. ECF No. 52-29 at 213. Willingham testified that they stopped once
at a Sheetz store in “Berryville” and Petitioner appeared to have changed clothes at that time
“because he had a shirt over his head.” Id. at 215. This apparent unintentional misstatement of

43

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 44 of 76 PagelD #: 4172

evidence was inconsequential; whether Petitioner washed up or only changed his clothes on the
ride to Manassas, Virginia is not material to the case, and clearly did not prejudice Petitioner in
any way, nor has Petitioner shown how it could have. This claim is frivolous and should be
dismissed.
Petitioner’s response in opposition goes on to cite to several other allegedly improper
comments by the prosecutor. See ECF No. 90 at 23 - 26. None of the statements were material
to the prosecution or prejudicial to Petitioner. As noted by the WVSCA on appeal, “[a]ny improper
comments were isolated, were not deliberately placed before the jury to divert its attention to
extraneous matters, and did not have a tendency to mislead the jury or prejudice the petitioner.
Therefore, we Tind-that—any - improper comments made by the-prosecutor do not-constitute
reversible error.” ECF No. 52-15 at 30. Petitioner has not shown that the WVSCA’s decision is
an unreasonable application of federal law or an unreasonable determination of fact with regard to
any of these prosecutorial statements, and he is not entitled to relief under 28 U.S.C. § 2254(d).
Ground 7(e)/(7): Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments, when the prosecutor made numerous improper remarks before the jury
[including] (g) repeatedly arguing supposed facts not in evidence.
Again, the petition completely fails to identify what specific acts the Petitioner is alleging
that the prosecutor committed regarding this claim. See ECF No. 13-1 at 2. However, in his
response in opposition to the Respondent’s summary judgment motion, Petitioner elaborates,
contending that the prosecutor pointed out that the paramedics saw no soot on the infant Daronte’s
shirt, as would have been expected if he had really been lying on the mattress in a blazing inferno,
next to his mother and brother’s burning bodies, as Petitioner had testified; Petitioner contends
that this was testimony was patently false because no paramedics testified at trial. See ECF No.
90 at 26 - 27.
44

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 45 of 76 PagelD #: 4173

At trial, Angela’s mother Elizabeth Devonshire testified that when they found the baby on
the patio that night, he was wearing a one-piece onesie outfit, that he was examined by EMS later,
and that “[t]hey checked him and they said that he had not been in the fire.” ECF No. 52-29 at
81 (emphasis added). Deputy Christopher Cochran of the Berkeley County Sheriffs Department
also testified, that the onesie that infant Daronte was wearing when he was found was taken into
evidence and given to Lt. Harmison. See ECF No. 52-28 at 222 - 23. Cochran further testified that
the baby was checked out by paramedics and given oxygen, but appeared to be uninjured. Id at
223 - 24. Lieutenant Gary Harmison testified in addition to being employed as a lieutenant in the
criminal investigation division of the Berkeley County Sheriffs Department, he was also a
member of the-Berkeley-County Fire Investigation Team and a-paramedic with the Berkeley County Ambulance Authority [ECF No. 52-29 at 101 - 02 (emphasis added)]; that he received
the infant’s onesie/shirt from Deputy Cochran, photographed it, and sent it to the West Virginia
State Police Crime Lab for testing. ECF No. 52-29 at 150 - 53. Jennifer Ann Howard, a forensic
analysist at the West Virginia State Police Crime Lab testified that she examined the onesie, cut
out sections of the stains on the onesie, determined they were blood, and sent them for further
testing in the lab by others. ECF No. 52-30 at 7 - 13. Angela Gill of the DNA section of the West
Virginia State Police Crime Lab also testified, stating that she tested the five cuttings from the
infant’s onesie and compared them to the saliva DNA samples obtained from Prophet and that four
of the blood spots on the infant’s onesie were consistent with Prophet’s DNA. Id. at 14-25.
Petitioner’s own testimony was that once he realized he could not get Angela and Andre’s
bodies out of the blazing apartment, he grabbed the infant Daronte and carried him out, and that
Daronte had no smoke or soot on him. ECF No. 52-31 at 111, 153 - 54 (emphasis added).

45

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 46 of 76 PagelD#:4174

Accordingly, in closing argument, the prosecutor showed the jury the infant’s onesie/shirt, by then
labeled as Exhibit No. 3 [ECF No. 52-28 at 222], noting
[t]he other... thing that I want you to look at with that shirt [is] there’s no evidence
of soot. If this child is in the house at the time that the fire was raging around him
as he’s laying on the mattress near where this burning body would have been[,]
with the bathroom smoking and the room filling up with smoke[,] and being there
he should have had something on him and the paramedics see nothing. There’s
nothing on that shirt, ladies and gentlemen.
ECF No. 52-32 at 59 - 60. Therefore, it is apparent that the specific testimony at trial regarding
the lack of soot on the infant’s onesie/shirt did not come from a paramedic, as the prosecutor
apparently misstated, but rather, indirectly from Angela’s mother when she testified as to what a
paramedic had told her, and directly, from Petitioner himself. Petitioner’s claim that that this
improper remark constituted prosecutorial misconduct for arguing facts not in evidence has no
merit; the misstatement was understandable and an unintentional inconsequential mistake, based
on the statement by Angela’s mother regarding what paramedics told her. It did not deliberately
misstate the critical point of the evidence, i.e., whether there was soot was found on the infant’s
shirt, and did not prejudice Petitioner in any way. Moreover, from the absence of soot on the
baby’s shirt, the jury was free to conclude that Petitioner had carried the baby out before he set
fire to the apartment, and not after.
Next, Petitioner objects to the prosecutor’s statement that both Angela and Andre’s throats
had been cut, when there had been no testimony presented to show that Andre’s throat had been
cut. Id at 27. However, at trial, Petitioner himself testified that when he returned to the apartment
the night of the murders, he saw Angela lying on the floor, face up, with her throat slit, and that
little Andre was lying face down in a puddle of blood, motionless. ECF No. 52-30 at 300 - 301.
As noted supra, the medical examiner testified that Andre’s body was so badly burned, a cause of
death could not be determined. ECF No. 52-29 at 95 - 96. It was an obvious inference for the jury
46

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 47 of 76 PagelD#:4175

to conclude that the same fate that had befallen Angela had occurred to Andre; this conclusion was
only possible when considering Petitioner’s own testimony; no one else at trial witnessed Andre’s
body before it had been burned beyond recognition. The prosecutor’s statement was a logical
inference made “well within the permissible bounds of advocacy,” given that the comments were
r

> based upon evidence presented at trial, including Petitioner’s own testimony.
Finally, Petitioner contends that the prosecutor’s statement that “[n]one of the neighbors

/

hear this mystery car,” was improper given that none of the neighbors testified at trial. ECF No.
O'

90 at 27. At trial, there was testimony to the effect that the Devonshire home was on a private
dead-end road in the country. ECF No. 52-29 at 10 -11. Petitioner is incorrect that no “neighbor”

o

testified at trial; Angela’s parents were her-neighbors. Angela’s -father Sidney Devonshirerwho
lived in a house next door to the apartment on his property that Petitioner torched, testified that he
had heard nothing before the emergency personnel banged on his door at 4:45 a.m. when the fire
was already in full blaze, and despite having slept with his window open, that he had not heard or
seen the headlights of any car, truck, or vehicle before that. ECF No. 52-29 at 16 - 18. Likewise,
Angela’s mother, who also lived at the same residence, also testified that she was up at one o’clock

\

'

A in the morning of June 6, 2010, and again at three o’clock, that all was quiet and dark, and that she

✓
I

c

saw no cars or people moving about when she looked out the window toward Angela’s garage
apartment either time. Id. at 75.

o

Accordingly, it is apparent that these three statements were not misstatements, or at worst,

\

were unintentional, minor misstatements, that were not material to the prosecution, or were not
*

\

prejudicial to Petitioner. As the WVSCA noted, “[a]ny improper comments were isolated, were
not deliberately placed before the jury to divert its attention to extraneous matters, and did not have

/

a tendency to mislead the jury or prejudice the petitioner.” ECF No. 52-15 at 30. Petitioner has

V

VP

47
C
J

\l

■

✓-

r'

*

vj

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 48 of 76 PagelD#:4176

not shown that the WVSCA’s decision is an unreasonable application of federal law or an
unreasonable determination of fact, and he is not entitled to relief under 28 U.S.C. § 2254(d).
Ground 7(h)/(8): Whether Petitioner’s federal constitutional rights under the United States
Constitution’s Fifth, Sixth, and Fourteenth Amendments were violated when the prosecutor made
numerous improper remarks before the jury [including] (h) inundating the jury with improper
remarks during closing arguments.
Again, the petition completely fails to identify what specific acts the Petitioner is alleging
that the prosecutor committed

ardinp this claim. See ECF No. 13-1 at 2. However, in his

response in opposition to the Respondent’s summary judgment motion, Petitioner elaborates on
this claim, again contending that the prosecutor repeatedly suggested that he had concocted a
fabricated version of the events only after studying the evidence provided to him by the state, the
same claim Petitioner already addressed in Ground 4 and 5, both of which were found to have no
merit. Accordingly, it will not revisited here. Summary judgment should be granted to the
Respondent on this claim.
Ground 7(iV(9): Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated when the prosecutor made numerous improper remarks
before the jury [including] (i) engaging in other misconduct that unduly prejudiced the Petitioner.
Again, the petition completely fails to identify what specific acts the Petitioner is alleging
that the prosecutor committed regarding this claim. See ECF No. 13-1 at 2. However, in his
response in opposition to the Respondent’s summary judgment motion, Petitioner elaborates,
alleging that the prosecutor “unethically reneged” on the stipulation regarding introducing his
fictional novel at trial; argued that “all the pieces” of Petitioner’s story fit with the discovery
because he had crafted his story that way; and again alleged that Petitioner had had the opportunity
to study the evidence for two years before testifying.

48

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 49 of 76 PagelD #: 4177

These are all claims which have been previously addressed in Grounds 4 and 5 and found
to lack merit. Accordingly, they will not revisited here. Summary judgment should be granted to
the Respondent on this claim.
B. Judicial Misconduct:
Ground 6: Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and Fourteenth
Amendments were violated when the trial court refused to give the jury an instruction on the
defense’s theory of the case.
Petitioner contends that before trial, he proffered a proposed jury instruction to the court
regarding his theory of the case, which the court “improperly and unconstitutionally denied,”
thereby depriving him of his constitutional right to have a jury of his peers fairly decide whether
-his theory of the case-raised a reasonable doubt as to his guilt. -See-ECF No. 13-1 at 1.
A review of the trial transcript indicates the following exchange took place before the jury
was re-convened for the final day of trial:
THE COURT: Morning. Let's go on and I understand there's some objections to
instructions.
MR. PREZIOSO: Well, Judge, if I could. I read through here. 1 didn't even find a
typographical error in any of these instructions. I think they are, in complete candor
to the Court, correct, and the way you said it malice, I don't have any problem or
objection with that because there’s different malice for the murder and then the
arson.
I went out and spoke to Mr. Prophet. He reviewed the instructions. He
sought to have his own instruction added that I submitted to Court and
Counsel. Again, the law is what I typed up. To give you an understanding is
[sic] from State versus Dodds [sic] which is a case that is overruled. I don't
know if it's necessary to offer this. I think it's contemplated in the reasonable
doubt instruction; however, Mr. Prophet wanted to make a record of that and
wanted to offer it into the record.
THE COURT: I don't think it's a correct statement of the law. I don't think
that it's required that all reasonable opportunity by others to have committed
the crime is the standard. The State doesn't have the burden and the evidence
doesn't [sic] that all reasonable opportunity by others to have committed it need be
proved. It may be why it was overruled. I understand it went further on to direct
versus circumstantial, but that statement as it's taken in isolation like that is number
49

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 50 of 76 PagelD #: 4178

one, impractical because there's not a requirement of proof beyond all possible
doubt.
MR. PREZIOSO: I explained it to him the way that they're still required, of course,
to prove guilt beyond a reasonable doubt. I explained that to him. Just note our
objection to it.
THE COURT: I will. I will note that it's not given.
ECF No. 52-32 at 4 - 5 (emphasis added).
Petitioner raised this claim as Ground 4 on direct appeal, arguing that the circuit court erred
by refusing to give an instruction based upon the language of Syl. Pt. 2, State v. Dobbs.19 That
syllabus point reads:
2. Criminal Law — Circumstantial Evidence
-Circumstantial-evidence will not-support-a guilty verdicf-unlessthefact of guilris
proved to the exclusion of every reasonable hypothesis of innocence; and
circumstances which create only a suspicion of guilt but do not prove the actual
commission of the crime charged, are not sufficient to sustain a conviction.
Id at 163 W. Va. 630, 631, 259 S.E.2d 829, 830 (W.Va. 1979) overruled by State v. Guthrie. 194
W. Va. 657, 668, 461 S.E.2d 163,174 (W.Va. 1995).
Jury instructions are generally matters of state law and procedure which do not invoke
federal constitutional guarantees. See Estelle v. McGuire. 502 U.S. at 71-72, 112 S.Ct. at 482
(“[T]he fact that the instruction was allegedly incorrect under state law is not a basis for habeas
relief.”); Gilmore v. Tavlor. 508 U.S. 333, 349-50, 113 S.Ct. 2112, 2121-22, 124 L.Ed.2d 306
(1993). “[T]he Due Process Clause does not permit the federal courts to engage in a finely tuned
review of the wisdom of state evidentiary rules.” Marshall v. Lonberger. 459 U.S. 422, 423, 103
S.Ct. 843, 845, 74 L.Ed.2d 646 (1983). When circumstances impede the fundamental fairness of
the trial which impinge on constitutional protections however, erroneous state jury instructions are

19 State v. Dobbs. 163 W.Va. 630,259 S.E.2d 829 (W.Va. 1979) overruled by State v. Guthrie. 194 W.Va. 657,668,
461 S.E.2d 163,174 (W.Va. 1995).

50

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 51 of 76 PagelD #: 4179

properly presented on federal habeas review. Id The proper inquiry therefore, is “whether the
ailing instruction by itself so infected the entire trial that the resulting conviction violates due
process.” Cupp v. Naughten, 414 U.S. at 147, 94 S.Ct. at 400-01.
Here, Petitioner complains that an instruction was not given. However, as the state court
concluded, the instructions given by the trial judge were a correct statement of the law, and the
instructions fully and fairly set forth the applicable law. As noted by the Respondent, providing
the circuit court the requisite “broad discretion” afforded it by Syl. Pt. 4, State v. Guthrie. 194 W.
Va. 657, 461 S.E.2d 163 (1995), the WVSCA also recognized that law supporting Petitioner’s
proffered instruction had been expressly overruled by Syl. Pt. 4, Guthrie, and the requirement that
all elements of a crime be proven beyond a reasonable doubt. Thus,The refusal to give the requested
instruction did not "so infect the entire trial that the resulting conviction violates due process."
Estelle v. McGuire. 502 U.S. at 72 (quoting Cupp v. Naughten, 414 U.S. at 147). Consequently, it
was not error for the trial judge to refuse to give the instruction requested by Petitioner that was
based on an incorrect statement of the law. See Sutton v. Bell. 683 F. Supp. 2d 640, 712 (E.D.
Tenn. 2010). Because Petitioner’s requested instruction was no longer a correct statement of law,
and because the WVSCA determined Petitioner’s Ground Six on an independent and adequate
state law ground, Petitioner is not entitled to relief under 28 U.S.C. § 2254 and summary judgment
should be granted to Respondent.
Ground 8(aV(U: Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated when the trial court engaged in bias and misconduct and
made prejudicial remarks before the jury, by (a) prior to trial, making an improper, passionate, and
extremely prejudicial and biased remark in open court regarding his opinion of the Petitioner's
guilt and culpability in the crimes at issue.
This claim is frivolous. The “improper, passionate, and extremely prejudicial and biased
remark” that Petitioner claims was made in open court in front of the jury before trial (described
\

51
^

-cr

O

*

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 52 of 76 PagelD#:4180

in Ground 7(a) on appeal, in Ground 8(a) in Petitioner’s pro se habeas petition, and in Ground 9(a)
in his amended petition), was a statement made by the court in a pre-trial hearing, the day before
trial, well before any jury had been convened. See ECF No. 52-14 at 72 - 73; ECF No. 52-16 at
116; and ECF No. 52-18 at 87 - 88. Thus, it was impossible for the jury to have heard it. This
claim should be dismissed.
Ground 8(bV(2): Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated when the trial court engaged in bias and misconduct and
made prejudicial remarks before the jury, by (b) prior to trial, deliberately, improperly, and
prejudicially manipulating, or otherwise coercing, a State witness [Joseph Medina] into artificially
strengthening the State's case against the Petitioner.
This claim, likewise, is frivolous. The allegedly “improper coercion” of the state’s witness,
Joseph Medina, regarding the circuit courFs rejecting Medina’s potential plea deal in order to force
him to testify at Petitioner’s trial would necessarily have had to have taken place long before any
jury was ever convened. See ECF No. 52-14 at 73 - 74; ECF No. 52-16 at 115, 118 - 120; ECF
No. 52-18 at 87 - 89. Thus, it would have been impossible for the trial court to have made any
prejudicial remarks in front of the jury regarding this issue. This claim should be dismissed.
Ground 8(cVf3): Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated when the trial court engaged in bias and misconduct and
made prejudicial remarks before the jury, [when] (c) during jury selection, [the court] improperly
and prejudicially refused to strike two biased jurors for cause, one of which ended up on the
Petitioner's impaneled jury. See ECF No. 13-1 at 2.
This is claim is merely another iteration of Petitioner’s Ground Two claim that the trial
court improperly and prejudicially refused to strike two challenged jurors for cause, a claim that
has already been dismissed with prejudice as procedurally barred. See ECF No. 73 at 29. Thus it
will not be given review.
Ground 8(d)/(4V. Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated when the trial court engaged in bias and misconduct and
made prejudicial remarks before the jury, by (d) during cross-examination, permitting the
52

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 53 of 76 PagelD #: 4181

prosecutor, under the guise of impeachment, to present knowingly irrelevant, legally inadmissible,
and unduly prejudicial evidence to the jury in the form of a fictional novel that had been stipulated
out.
This is claim is merely another iteration of Petitioner’s Ground 5 claim that the state
rendered Petitioner’s trial fundamentally unfair by introducing “legally inadmissible and unduly
prejudicial evidence to the jury in the form of a fictional novel previously authored by Petitioner.
As noted by the WVSCA, “[m]ost of the petitioner’s argument is a rehashing of the
assignments of error presented by the petitioner’s counsel and addressed by this Court above. The
remainder of petitioner’s argument consists of frivolous assertions of bias which this Court deems
wholly unnecessary to address.” ECF No. 52-15 at 30. Because Petitioner’s Ground 5 claim has
already been determined to have no merit, likewise, neither does this one. Accordingly, Petitioner
is not entitled to relief on this claim.
Ground 8(eV(5): Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated when the trial court engaged in bias and misconduct and
made prejudicial remarks before the jury, by (e) during cross-examination, permitting the
prosecutor, over defense objection, to attack the Petitioner's post-Miranda silence.
This is merely another iteration of Petitioner’s Ground 4 claim that the state committed
prosecutorial misconduct when it impeached the Petitioner’s credibility by fundamentally unfair
means and by attacking his post-Miranda silence. That claim has already been determined to have
no merit; likewise, neither does this one. Accordingly, Petitioner is not entitled to relief.
Ground 8(fV(6). (£1/(71, (h)(8). and (0/(9): Whether Petitioner’s federal constitutional rights
under the Fifth, Sixth, and Fourteenth Amendments were violated when the trial court engaged in
bias and misconduct and made prejudicial remarks before the jury, by (f) during crossexamination, accusing the Petitioner, in front of the jury, of being "argumentative," inconsistent,
and evasive in his answers to the prosecutor, (g) not dutifully, under State law, intervening to limit
and attempting to correct the prosecutor’s improprieties during closing arguments; (h) attempting
to guide and advise the prosecutor throughout the entirety of the case on how to successfully
conduct the prosecution of her case against the Petitioner, and (i) engaging in other more subtle,
though no less prejudicial, conduct to the detriment of the Petitioner. See ECF No. 13-1 at 2.

53

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 54 of 76 PagelD #: 4182

The Supreme Court has long held that a “defendant is entitled to a fair trial but not a
perfect one, for there are no perfect trials.” Brown v. United States. 411 U.S. 223, 231-32 (1973)
(citation omitted). Thus, the issue here is not whether Petitioner received a perfect trial, but whether
the WVSCA’s decision affirming the denial of Petitioner’s judicial bias claims was contrary
to clearly established law “beyond any possibility for fairminded disagreement.” Harrington v.
Richter, 562 U.S. 86, 103 (2011). This requires Petitioner to demonstrate that his trial judge’s
comments and interruptions during trial made “fair judgment impossible.” Litekv v. United
States, 510 U.S. 540, 555 (1994); see also Rowsev v. Lee, 327 F.3d 335, 341 (4th Cir. 2003) (“In
order to prevail in a deprivation of due process claim, a [petitioner] must show a level of bias that
made‘fairjudgmentimpossible.’”(citatiomomitted))
Due process secures a criminal defendant’s right to an impartial trial judge. Larson v.
Palmateer, 515 F.3d 1057, 1067 (9th Cir. 2008) (citing In re Murchison, 349 U.S. 133, 136, 75
S.Ct. 623, 99 L.Ed. 942 (1955)); Montgomery v. Uchtman. 426 F.3d 905, 910 (7th Cir. 2005)
(citing same); Layer v. Lyles, 598 F. Supp. 95, 98 (D. Md. 1984). “The general presumption is that
judges are honest and impartial.” Montgomery, 426 F.3d at 910.
In assessing judicial impartially, the Fourth Circuit has accepted that a judge is not merely
a spectator at trial; rather, a judge must ensure that the presentations of counsel are not confusing
to the jury and that trials do not become “protracted and costly affairs,” even if that means that the
trial judge must interrupt counsel. United States v. Smith. 452 F.3d 323, 332 (4th Cir. 2006); see
also United States v. Ecklin. 528 F. App’x 357, 362 (4th Cir. 2013). “‘A judge's ordinary efforts
at courtroom administration-even a stern and short-tempered judge's ordinary efforts at courtroom
administration’ ... do not establish bias or partiality.” United States v. Castner. 50 F.3d 1267,
1274 (4th Cir. 1995) (quoting Litekv v. United States. 510 U.S. 540, 556, 114 S.Ct. 1147, 127

54

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 55 of 76 PagelD#:4183

L.Ed.2d 474 (1994)). In addition, “judicial remarks during the course of a trial that are critical or
disapproving of, or even hostile to, counsel, the parties, or their cases, ordinarily do not support a
bias or partiality challenge . . . they will do so if they reveal such a high degree of favoritism or
antagonism as to make fair judgment impossible” Litekv, 510 U.S. at 555.20 A trial judge’s
participation during trial, however, should “never reach the point at which it appears clear to the
jury that the court believes the accused is guilty.” Ecklin. 528 F. App’x at 362 (citations and
markings omitted); see also United States v. Bencivengo. 749 F.3d 205, 216 (3rd Cir. 2014).
Ultimately, “[t]o prevail on a claim of judicial misconduct, [Petitioner] must show that the state
trial judge's conduct was so fundamentally unfair as to deprive [him] of [his] constitutional right
to due process,”-and this task is an onerous one. Paccione v. New-York. 353 F. Supp. 2d 358, 368
(E.D.N.Y. 2005).
As a preliminary point, the petition completely fails to identify what allegedly improper
judicial acts Petitioner is referencing in his Ground 8(f)/(6) claim. See ECF No. 13-1 at 2.
However, in his response in opposition to the Respondent’s summary judgment motion, Petitioner
provides some specificity to this claim, giving several examples from the trial record where the
court interrupted his responses to the prosecutor to tell him to “answer the question” or “don’t be
argumentative,” and finally “[l]et’s get something straight here. You’re not going to tell me what
you’re doing or not. Answer her question specifically. See ECF No. 90 at 36 - 38.
On appeal, these claims were noted by the WVSCA and deemed to be “frivolous assertions
of bias which this Court deems wholly unnecessary to address.” ECF No. 52-15 at 30. The

20 While Litekv concerned the federal recusal statute, federal courts have looked to it for guidance in resolving habeas
claims ofjudicial bias. See, e.g.. Willis v.Lafler. No. 05-74885,2007 WL 3121542, at *22 (E.D. Mich. Oct. 24,2007).

55

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 56 of 76 PagelD #: 4184

undersigned agrees. Indeed, at trial, the newly-empaneled jury was specifically instructed by the
court that
[ajnything I do shouldn’t be considered by you as to how I think you should decide
any of the facts. That’s totally your 50 percent. My 50 percent is instructing you
as to what the law is and ruling on the admissibility of the evidence at other trial
procedure matters.
ECF No. 52-28 at 181. Further, the court noted
[djuring . . . trial the attorneys may object to certain questions and request that
certain matters be struck out of... evidence. Please do not let any of my rulings or
the manner of my rulings in that in any way influence how I think you should decide
any matter of fact. My job is to make sure that the trials conform to the law of the
land. The opinions as to the outcome so long as it’s done correctly doesn’t [sic]
matter to me so don’t misinterpret any of my actions to think that’s how you should
decide the case.
Id. at 186. Here, a careful review of the trial transcript reveals that the court’s statements were
nothing more than “ordinary efforts at courtroom administration,” when Petitioner clearly was
failing to answer questions asked; as such, they did not rise to the level of bias or partiality. Castner.
50 F.3d at 1274 (quoting Litekv v. United States. 510 U.S. at 556). The trial court’s conduct was
not so egregious as to deprive Petitioner of a fair trial in front of an impartial jury.
Petitioner’s Ground 8(g)/(7) claim that the court did not dutifully intervene under state law,
to limit and/or attempt to correct the prosecutor’s improprieties during closing arguments is merely
another attempted reiteration of the multiple sub-grounds of prosecutorial misconduct raised in
Ground 7, already addressed supra, and found to be completely without merit, thus, they will not
be given further review. Moreover, on appeal, the WVSCA noted that
petitioner has presented us with a long laundry list of allegedly improper comments
made by the prosecutor. After considering each comment, this Court finds no
reversible error. Any improper comments were isolated, were not deliberately
placed before the jury to divert its attention to extraneous matters, and did not have
a tendency to mislead the jury or prejudice the petitioner.

56

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 57 of 76 PagelD#:4185

ECF No. 52-15 at 30. Accordingly, it declined to find that any of the prosecutor’s comments
constituted reversible error. Id.
Similarly, the petition completely fails to identify what allegedly improper, specific judicial
*■—■

■

_______________________ __________________________________________________________________________________ ._____________________________________ 1

-

acts comprise Petitioner’s Ground 8(h)/(8) claim that the trial court was overly deferential toward
the prosecutor throughout the trial, attempting to guide and advise her to obtain Petitioner’s
conviction. However, Petitioner’s response in opposition elaborates, describing an instance during
which the court and prosecutor discussed the admissibility of the evidence of Petitioner’s
anonymous call to 911 three days before the crimes, when he reported that Joseph Medina was
going to kill a family. ECF No. 90 at 40 - 42; ECF No. 52-27 at 8 - 15. However, it is apparent
that this exchange did not take place dwn'wg trial; it took place during a-discussion on-evidentiary
issues in a July 9,2012 motions hearing, one day before trial began, wherein the state was wanting
to exclude evidence of the call and the defense was wanting it in. The statements Petitioner quotes
fsee ECF 90 at 40 — 41] are merely the court’s expressions of surprise that the state did not want
the evidence of the 911 call in, because clearly, the evidence of the call could cut both ways, and
could lead a jury to view the call as evidence of Petitioner’s premeditation.
This claim has no merit; the court was not colluding in some fashion with the state; to the
contrary, the court advised both parties on the pros and cons of their positions and the admissibility
of the evidence. See ECF No. 52-27 at 4 - 41. Petitioner also posits that discussion during a
sidebar, outside of the jury’s hearing, on the third day of trial, between the prosecutor, defense
counsel, and the court regarding the admissibility of the evidence of the fictional novel suggests
that the court was providing “hintfs]” to the prosecutor, to misrepresent the evidence regarding the
novel. See ECF No. 90 at 42. The subject of the admissibility of the fictional novel has already

57

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 58 of 76 PagelD#:4186

been exhaustively addressed supra, in Petitioner’s Ground 5 and 7(e) claims of prosecutorial
misconduct; there is no merit to this frivolous claim and it will not be given further review.
Finally, Petitioner’s Ground 8(i)/(9) claim that the court engaged in other more subtle,
though no less prejudicial, conduct that was prejudicial to Petitioner. Again, the petition
completely fails to identify what “subtle” prejudicial conduct Petitioner alleges occurred.
However, Petitioner’s response in opposition elaborates somewhat, alleging that during a July 9,
2012 motion hearing the day before trial, the trial court advised the defense “that it was incumbent
upon the defense to inform the prosecutor of their anticipated defense prior to trial, as the
prosecutor was apparently surprised by and had not anticipated Petitioner’s possible defense to the
charges against him, and that this was-somehow-unfair to the prosecutor and her case7--See EGF
No. 90 at 42 - 43; see also ECF No. 52-27 at 20 - 28. A review of the transcript of that July 9,
2012 motion hearing merely reveals further discussion of evidentiary issues for trial, including the
potential use of the anonymous 911 call Petitioner made, three days before the crimes, reporting
that Joseph Medina was going to kill a family, i.e., the linchpin of Petitioner’s theory of the case:
that Medina had committed or orchestrated the crimes. ECF No. 52-27 at 20 - 28. This issue has
already been addressed in Petitioner’s Ground 8(h)/(8) claim, supra. Because that claim has
already been given review, it will not be revisited here.
As further evidence of the trial court’s “subtle” prejudicial behavior, Petitioner also
references his pro se habeas petition, where he alleged that the trial court looked away from him
when he testified, instead of attentively watching, as the court did with other witnesses, “to make
clear to those watching his demeanor that he neither liked nor believed” Petitioner, and that the
only time the court looked at Petitioner was to “scowl at, interrupt, or chastise” him. ECF No. 5216 at 134. Further, Petitioner alleges that at a crucial point in the defense’s closing argument, the

58

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 59 of 76 PagelD #: 4187

court “suddenly, and very loudly, shouted out: “[t]en minutes left.” Id. Petitioner alleges that this
was intentionally done to interrupt the flow of counsel’s argument, distract the jury, and “issue a
subtle warning” to defense counsel ‘not to argue Medina’s possible culpability to the jury.” Id. A
careful review of the record shows no such “subtle” bias, merely the occasional appropriate
interventions necessary to manage a trial and control the courtroom; nothing that “reveal[s] such
a high degree of favoritism or antagonism as to make fair judgment impossible” Litekv. 510 U.S.
at 555. The undersigned agrees with the WVSCA that these are “frivolous assertions of bias which
this Court deems wholly unnecessary to address.” ECF No. 52-15 at 30.
Finally, as further proof of the trial court’s “subtle” prejudicial conduct, Petitioner
reiterates the many-points of alleged-judicial conduct already-raised and addressed-in-Ground
8(g)/(7) [ECF No. 52-16 at 135]; as such, those will not be given further review here.
The Court therefore finds that because the WVSCA decided these four frivolous assertions
ofjudicial on independent and adequate state law grounds, Petitioner is not entitled to relief under
28 U.S.C. § 2254 and summary judgment should be granted to Respondent.
C. Sufficiency of the Evidence
Ground 9: Whether Petitioner’s federal constitutional rights under the United States
Constitution’s Fifth, Sixth, and Fourteenth Amendments were violated when he was convicted by
evidence insufficient to establish his guilt beyond a reasonable doubt for every element of the
charged crime.
In reviewing the sufficiency of the evidence to support a state criminal conviction on a due
process challenge in a federal habeas proceeding, “the relevant question is whether, after viewing
the evidence in the light most favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.” Jackson v. Virginia. 443
U.S. 307 (1979).

59

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 60 of 76 PagelD#:4188

A careful review of the records indicates that there was more than ample evidence upon
which a reasonable trier of fact could have found the essential elements of the crimes beyond a
reasonable doubt. The overwhelming evidence indicated that Petitioner arrived to spend the night
with Angela and her children on June 5, 2010; was last seen with them at around 9:00 p.m.; and
remained there until their deaths and the fire in the early morning hours of June 6, 2010. ECF No.
52-15 at 7,18. Further, cell phone evidence presented at trial supported Medina and his girlfriend’s
testimony that they were nowhere near Angela’s apartment that night [ECF No. 52-29 at 147 - 48],
and that Petitioner was. Id at 149 - 50. Petitioner’s cell phone records show at least four outbound
calls to Medina’s phone between 2:06 a.m. and 4:46 a.m. ECF No. 52-19 at 144. A witness at
trial testified he-was-driving by at around 4:30 a.m., saw-the-flamess-and called 911. ECF No. 5228 at 207-08. The 911 operator testified that the call came in at 4:36 a.m. that day. Id. at 211 - 12.
There was a gap in the calls from Petitioner’s phone to Medina’s between 2:09 a.m. and 4:46 a.m.,
leading to the inference that that the crimes were committed shortly before 2:06 a.m., and then
between 2:09 a.m. and 4:46 a.m., the baby was removed from the apartment, the fire set, and
Petitioner fled. Id. Petitioner continued to attempt to call Medina repeatedly throughout the entire
day and evening of June 7, 2010. ECF No. 52-29 at 144.
Moreover, in his argument for judgment of acquittal after the defense rested, Petitioner
conceded that there was enough evidence to convict him of second degree murder [ECF No. 5215at 16: see also ECF No. 52-30 at215 -16],leaving only evidence of premeditation to be proven.
The WVSCA found that the testimonial and inferential evidence was sufficient to support the
jury’s finding that Petitioner premeditated his crimes. See generally ECF No. 52-15 at 18.
Specifically, the WVSCA found that (1) the jury could infer that Petitioner had sufficient
time to formulate the intent to kill his victims; (2) the victim’s mother’s testified that all was quiet

60

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 61 of 76 PagelD #: 4189

and the curtains were pulled so tight that no light escaped from them when she looked out at 3:00
a.m. on June 6, 2010, inferring that Petitioner had pulled the curtains tightly so no one would
witness the killings, further evidence of intent; (3) Petitioner’s communications with Joseph
Medina and his attempts to shift the blame for the killings to Medina in advance, by anonymously
calling 911, Martinsburg City Police, and Berkeley County Sheriffs Department three days before
the murders, reasonably suggested that Petitioner planned the murders [see ECF No. 52-15 at 18];
Medina’s testimony was that Petitioner told him afterwards that after he caught Angela going
through his pockets “he did what he had to do [ECF No. 52-30 at 95 - 96]” a virtual admission to
the murders; and finally, that “a reasonable person could infer that after killing Angela, the
petitioner killed-Andre because [he] . .- knew that Andre, but-not infant Durante, could identify
him. . . .” ECF No. 52-15 at 19. Based upon this evidence, the undersigned finds that there was
more than sufficient evidence to support Petitioner’s convictions, and that he is entitled to no relief
on this basis.
D. Ineffective Assistance of Counsel
As previously noted, Petitioner alleges that his right to counsel was violated because trial
counsel was ineffective in multiple ways. When a petitioner brings an ineffective assistance of
counsel claim, counsel’s conduct is measured under the two-part analysis in Strickland.
“First, the defendant must show that counsel’s performance was deficient. This requires
showing that counsel made errors so serious that counsel was not functioning as the counsel
guaranteed the defendant by the Sixth Amendment.” Id. at 687. “Deficient performance is not
merely below-average performance; rather, the attorney’s actions must fall below the wide range
of professionally competent performance.” Griffin v. Warden. Maryland Corr. Adi. Ctr.. 970 F.2d
1355, 1357 (4th Cir. 1992).

61

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 62 of 76 PagelD#:4190

Second, the defendant must show that the deficient performance prejudiced the defense.
This requires showing that counsel’s errors were so serious as to deprive the defendant of a fair
trial, a trial whose result is reliable. In order to demonstrate prejudice, Petitioner must show that
but for his attorney’s errors, the result of the proceeding would have been different. Strickland.
466 U.S. at 687. Error by counsel which falls short of the constitutional ineffectiveness standard
does not constitute cause, notwithstanding that the error may arise from inadvertence, ignorance,
or strategic choice. Murray v. Carrier. 477 U.S. 478 (1986).
Moreover, as the Court has made clear, this review is done through the lens of § 2254, as
modified by the Anti-Terrorism and Effective Death Penalty Act (AEDPA). In looking at
ineffective-assistance -claims through -this lens* the pivotal question -is-whether -the-state-eourt’s
application of the Strickland standard was unreasonable. This is different from asking whether
defense counsel’s performance fell below Strickland’s standard. Were that the inquiry, the analysis
would be no different than if, for example, this Court were adjudicating a Strickland claim on
direct review of a criminal conviction in a United States district court. Under AEDPA, though, it
is a necessary premise that the two questions are different. For purposes of § 2254(d)(1), “an
unreasonable application of federal law is different from an incorrect application of federal law.”
A state court must be granted a deference and latitude that are not in operation when the case
involves review under the Strickland standard itself. Harrington v. Richter. 131 S. Ct. 770, 785
(2011) (internal citation omitted). Congress intended for AEDPA to raise the bar for relief in a
2254 case because it deals with claims that have already been litigated in state court. Id. at 786.
Accordingly, “even a strong case for relief does not mean that state court’s contrary conclusion
was unreasonable. Id. (citing Lockver v. Andrade. 538 U.S. 63, 71 (2003)).
Ground lOIaVIU: Whether Petitioner’s federal constitutional rights under the United States
Constitution’s Fifth, Sixth, and Fourteenth Amendments were violated by the ineffective
62

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 63 of 76 PagelD#:4191

assistance of his state-appointed trial counsel, when counsel: (a) failed to thoroughly and
independently investigate the crime at issue.
While the petition offers no insight into counsel’s alleged failure to investigate [ECF No.
13-1 at 3], Petitioner’s response in opposition to Respondent’s summary judgment motion [ECF
No. 90 at 44] references his February 2, 2015 pro se state habeas petition, wherein he enumerated
3 deficiencies in counsel’s performance in this regard: 1) counsel’s failure to search the woods for
“blood evidence” to corroborate his claim that he had fled from the two intruders and hidden there;
2) counsel’s failure to immediately locate and interview Medina, who Petitioner contended was
“integrally involved in this crime;” and 3) failure to timely investigate Petitioner’s claim that he
had made calls to 911 and the other law enforcement agencies several days before the crimes
occurred. See ECF No. 52-16 at 144 - 45.
These claims will be examined in turn.
At the conclusion of Petitioner’s circuit court habeas proceedings, the court found that
Petitioner supplied little to no evidence that trial counsel was unprepared or otherwise failed to
investigate prior to trial. The circuit court noted that Petitioner’s claim that counsel should have
searched for Petitioner’s blood in the woods failed to show “that his blood was [actually] in the
woods, where the blood was in the woods, that he notified counsel to investigate where to search
for blood, that counsel refused to search for blood, or that finding his blood in the woods somehow
would have affected the outcome of the trial.” ECF No. 52-21 at 10. The undersigned would further
note that even assuming arguendo that Petitioner had done so, it still overlooks the fact that after
the crimes were committed, Petitioner fled and was not apprehended for almost two weeks. At
some point thereafter, counsel was appointed to represent him. By the time counsel could
reasonably have begun any investigation, the probability of finding blood spatter in a densely
wooded area exposed to the elements for several would be unlikely.
63

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 64 of 76 PagelD #: 4192

Petitioner’s next allegation that trial counsel’s investigation was substandard because
counsel did not immediately contact Medina fails to support his claim with any evidence that the
result of his trial would have been any different, even if counsel had done so. It is clear that Medina
was a witness for the state at trial, and counsel vigorously challenged his testimony on cross
examination and re-cross on July 12,2012 [ECF No. 52-30 at 97 - 139,146]; further, Medina was
recalled to the stand the following day as a rebuttal witness, and counsel again subjected him to
cross-examination. See ECF No. 52-31 at 198 - 207.
Finally, Petitioner’s claim that counsel was deficient for not immediately investigating
Petitioner’s claim-that he had made anonymous calls to 911—and the other law-enforcement
agencies several days before the crimes occurred is likewise unsupported; Petitioner cannot show
that he was prejudiced thereby, given that counsel did, in fact investigate it and the evidence was
introduced at trial, where it served as both a sword and a shield, given that Petitioner’s attempt to
point the blame at Medina for murders that had not yet happened ended up providing grounds for
the jury to view the calls as an indication of Petitioner’s intent to implicate Medina for the murders
he planned to commit himself, i.e., premeditation.
After a careful review of the record, the undersigned finds that the circuit court’s
conclusion that Petitioner failed to show that counsel rendered ineffective assistance as a result of
his pretrial investigation was not based upon an unreasonable determination of facts or an
unreasonable application of federal law. Petitioner has neither proven that counsel’s representation
was deficient or that it prejudiced him at trial.
Grounds 10(bV(2t and 10(cV(3): Whether Petitioner’s federal constitutional rights under the
United States Constitution’s Fifth, Sixth, and Fourteenth Amendments were violated by the
ineffective assistance of his state-appointed trial counsel, when counsel: (b) failed to failed to file
a pretrial motion to suppress the introduction of the Petitioner's violent fictional novel entitled
64

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 65 of 76 PagelD #: 4193

Enter the Fire: Seven Days in the Life, and (c) failed to failed to request that a limiting instruction
be given to the jury informing them that the Petitioner's fictional novel was to be limited to a
specific and legitimate purpose to impeach and was not to be used as evidence of a material or
substantive fact.
These related claims, further iterations of Petitioner’s Ground 5 claim of prosecutorial
misconduct and his Ground 8(d)/(4) claim of judicial misconduct, albeit now brought under the
rubric of counsel’s ineffectiveness, have no more merit than the underlying Ground 5 and Ground
8(d)/(4) claims.
Notably, in this Ground 10(b)/(2) claim, Petitioner omits mention of the fact that the record
clearly indicates that counsel, recognizing the potential prejudicial impact of the contents of his
novel early on, attempted to minimize it; there was a pretrial discovery conference on the matter,
for which defense counsel thoroughly researched the issue and argued on Petitioner’s behalf,
attempting to prevent the use of the novel at trial. ECF No. 52-31 at 17. The parties had stipulated
before trial that the state was prohibited from using the fictional novel in its opening statement or
its case in chief, but that the state would be free, subject to the rules of evidence, to refer to the
novel in any rebuttal that it might present. See WVSCA opinion on appeal, ECF No. 52-15 at 12.
The stipulation was honored; the prosecutor did not inquire into the similarities of the fictional
novel until the defense’s case in chief, a permissible use of the novel. ECF No. 52-21 at 16 - 17.
Counsel objected on the basis of the stipulation and relevancy, but the circuit court determined that
such questioning was permissible because the stipulation did not prevent using the novel during
cross-examination, and that the novel was relevant to Petitioner’s credibility. See WVSCA opinion
on appeal, ECF No. 52-15 at 13.
Further, in its June 28, 2015 Order denying Petitioner’s amended state habeas petition,
the circuit court correctly noted that at trial, counsel repeatedly objected to the state’s use of
Petitioner’s book as evidence, preserving it as an issue for appeal, and that the trial court “heard
65

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 66 of 76 PagelD #: 4194

extensive argument on the use of the book.” EOF No. 52-21 at 11. The circuit court reasoned that
“[i]t is clear that trial counsel tried to preclude the use of the book at trial, and that [even] had trial
counsel done so with a written motion in limine, the trial court’s ruling would not have been
different.” Id. Moreover, the court noted, even if the novel had been precluded altogether on crossexamination, “it is unlikely that the result of the trial would have been different.” Id. Finally, this
claim is frivolous; it is apparent from the record, that far from being ineffective, counsel advocated'
vigorously on Petitioner’s behalf on this issue.
As for Petitioner’s Ground 10(c)/(3) claim that trial counsel was ineffective for failing to
request a limiting instruction regarding the use of his fictional novel at trial, the circuit court found
that-under-the-WestWir-ginia Rules-ofiEvidence, evidence of-Petitioner-’s book “was-direet-rebuttal
evidence and not simply to impeach the credibility of [Petitioner].” ECF No. 52-21 at 12. Thus, “a
limiting instruction would not have been appropriate.” Id. Because trial counsel’s actions with
regards to Ground 10(c)/(3) were not error, they are by definition not subject to a Strickland
analysis. Further, by virtue of being preserved for direct appellate review through trial counsel’s
actions, this claim, too, is frivolous.
Accordingly, there is no evidence to suggest that counsel’s conduct with regards to either
of these claims was either objectively unreasonable or unduly prejudicial to Petitioner. The circuit
court’s ruling is neither an unreasonable determination of the facts, nor an unreasonable
application of federal law, and this claim should be dismissed.
Grounds 10fdV(4) - 10 (11/(12): Whether Petitioner’s federal constitutional rights under the
United States Constitution’s Fifth, Sixth, and Fourteenth Amendments were violated by the
ineffective assistance of his state-appointed trial counsel, when counsel failed to failed to object
to, and move for a mistrial for, the prosecutor's improper and unconstitutional questions regarding
Petitioner’s post-Miranda pre-trial silence.
\

66

Hi

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 67 of 76 PagelD#:4195
. d
\

These claims are merely reiterations of Plaintiffs Ground 4~claim of prosecutorial
misconduct on the same issue, and his Ground 8(e)/8(5) claim of judicial misconduct for permitting
the same, already analyzed supra, and found to lack merit.
ecause no prosecutorial misconduct occurred, no judicial misconduct was committed by
permitting in the prosecutor’s line of questioning on these issues; therefore, there was no basis for
counsel’s failure to object to, or move for a mistrial over the same. Moreover, as correctly noted
by Respondent and apparent from the record, the circuit court found that trial counsel did object to
the State’s questioning of his pre-arrest silence, and that by doing so, preserved the issue for direct
appeal. ECF No. 52-21 at 12. Further, the circuit court acknowledged that the WVSCA found that
such questioning-was not error. Id. Thus, trial counsel- s actions-were not objectively-unreasonable
and were not unconstitutionally prejudicial. These sub-grounds are frivolous and should be
dismissed.
Respondent contends that Petitioner’s claim that trial counsel was ineffective for failing to
object to the prosecutor’s closing remarks has no merit; while the circuit court acknowledged that
trial counsel did not object during the prosecutor’s closing remarks, it noted that that the WVSCA
concluded that the prosecutor’s statements were not improper or unfairly prejudicial. Id. The
circuit court also recognized that “whether to object to prejudicial statements in a closing argument
is a tough call for a trial attorney, because an objection will only shine a light on the prejudicial
statement, especially if the objection is overruled.” Id. Moreover, the circuit court reasoned that
the prosecutor’s challenge to Petitioner’s credibility during closing remarks was supported by the
evidence. Id.
The circuit court’s categorization of objections as part of ordinary trial strategy is a
presumption supported by Strickland. Thus, a finding that counsel would refrain from objecting

67

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 68 of 76 PagelD#:4196

during closing remarks to prevent “shining a light” on harmful statements is not unreasonable.
Because trial counsel’s failure to object to the prosecutor’s closing remarks was not objectively
unreasonable, and because the prosecutor’s remarks were actually supported by the evidence
proffered during trial, Petitioner fails both prongs of the Strickland standard. The circuit court’s
determination of the same was neither an unreasonable determination of fact nor an unreasonable
application of federal law.
Ground 10(mV(13): Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated by the ineffective assistance of his state-appointed trial
counsel, when counsel: (m) failed to object to, and to move for a mistrial for, prosecutor's other
improper and unconstitutional remarks made during closing arguments.
This is merely a reiteration of the same claim raised in Ground 4 as prosecutorial
misconduct and in Ground 8(e)/8(5), as judicial misconduct for permitting the same, both of
which have already been analyzed and found to lack merit. Because no prosecutorial misconduct
was committed, there was no judicial misconduct associated with permitting the same; therefore,
counsel cannot be found ineffective for failing to object to and move for mistrial over these issues.
This claim is frivolous and should be dismissed.
Ground 10(oV(15): Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated by the ineffective assistance of his state-appointed trial
counsel, when counsel (o) failed to object to, and move for a mistrial for, the trial court’s many
instances of blatant bias and misconduct. See ECF No. 13-1 at 3 - 4.
Respondent argues that Petitioner’s claim that counsel was ineffective for failing to object
to the circuit court’s alleged instances of misconduct lacks merit. This sub-ground fails for the
same reasons set forth in Petitioner’s Ground 8 sub-grounds claims of judicial bias/misconduct.
ie circuit court did not engage in misconduct; thus trial counsel’s actions (or inaction) regarding
any such alleged misconduct and any unconstitutional prejudice to Petitioner stemming therefrom
are nonexistent. Summary judgment should be granted to Respondent.

68

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 69 of 76 PagelD #: 4197

Ground 10(pV(16): Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated by the ineffective assistance of his state-appointed trial
counsel, when counsel: (p) failed to object to a myriad of prejudicial circumstances throughout the
entirety of the trial. ECF No. 13-1 at 3, 5.
The petition sheds no light on what the “myriad of prejudicial circumstances” counsel
allegedly failed to object to. See ECF No. 13-1 at 5. Petitioner’s response in opposition also fails
to flesh out this claim. ECF No. 90 at 47 - 48. Respondent, assuming that Petitioner’s Ground
10(p)/(16) claim addresses the circuit court’s findings in its Order Denying Petition for Habeas
Corpus [ECF No. 52-21 at 13), contends that Petitioner’s claim in this regard lacks merit, because
Petitioner fails to show that any “prejudicial circumstances” (1) actually occurred, (2) were
actually and unconstitutionally prejudicial, and (3) were not addressed by the court or trial counsel.
Ihe undersigned agrees. Because Petitioner fails to support sub-groundT0[T6)7lnr CauliOl
show that trial counsel’s performance was deficient under either prong of the Strickland standard.
Moreover, mere conclusory allegations are not competent summary judgment evidence, and thus
are insufficient to defeat a motion for summary judgment. Eason v. Thaler. 73 F.3d 1322, 1325
(5th Cir. 1996). This claim should be dismissed.
E. Cumulative Error
Ground 11: Whether Petitioner’s federal constitutional rights under the Fifth, Sixth, and
Fourteenth Amendments were violated by the cumulative effect of multiple trial errors . . .
[including]: (a)/(l) EACH AND EVERY INDIVIDUAL AND COLLECTIVE ASSERTION
AND ARGUMENT OF ERROR MADE IN GROUNDS 1 - 10 OF THIS PETITION ABOVE;
(b)/(2) the prosecutor for the State failing to provide pre-trial notice of its intent to use 404(b)
evidence against the Petitioner; (c)/(3) the trial court failing to change the venue of the trial due to
massive pre-trial publicity adverse to the Petitioner; and (d)/(4) State witness Lt. Harmison
deliberately and unnecessarily informing the jury during his testimony that the Petitioner was being
held in the local regional jail, (emphasis in original).
Petitioner’s Ground (a)/(l) claim is that the cumulative effect of the alleged misconduct of
the prosecutor, the court, and trial counsels’ individual actions, which standing alone, might not
warrant relief, collectively amount to cumulative error.
69

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 70 of 76 PagelD #: 4198

Although the Court recognizes that “[t]he cumulative effect of two or more individually
harmless errors has the potential to prejudice a defendant to the same extent as a single reversible
error” and that “[t]he purpose of a cumulative-error analysis is to address that possibility,” United
States v. Rivera, 900 F. 2d 1462, 1469 (10th Cir. 1990), a “legitimate cumulative-error analysis
evaluates only the effect of matters actually determined to be constitutional error.” Fisher v.
Aneelone. 163 F.3d 835, 853 n. 9 (4th Cir. 1998).
Here, because the Court has not found any individual constitutional errors with regard to
any of Petitioner’s prosecutorial or judicial misconduct claims, let alone any of his ineffective
assistance of trial counsel claims set forth in Grounds 3 - 10 of the petition, a cumulative-error
analysis is neither necessary nor appropriate.-See Id. at 853-(-Having just determined-that none of
counsel's actions could be considered constitutional error ... it would be odd, to say the least, to
conclude that those same actions, when considered collectively, deprived Fisher of a fair trial.”).

(N

■

The petition sheds no light whatsoever on whajT404(b)j£vidence Petitioner refers to in his
Ground 11 (b)/(2) claim fsee ECF No. 13-1 at 5]; nor does Petitioner’s response in opposition. See .

/

ECF No. 90 at 48. A review of the pro se habeas petition likewise is not illuminating. See ECF
\i- *

4

No. 52-16 at 157 - 58. Again, liberal construction ofpro se petitions has its limits. This claim does
not meet the heightened pleading required of a habeas petition. “[Njotice pleading is not sufficient,
for the petition is expected to state facts that point to a real possibility of constitutional error. It

\i
does not require those courts to conjure up questions never squarely presented to them. District

*
0

judges are not mind readers.” Beaudett. 775 F.2d at 1278. This conclusory allegation is insufficient
to defeat a motion for summary judgment. Eason v. Thaler. 73 F.3d 1322, 1325 (5th Cir. 1996).
Because the undersigned cannot determine what the substance of Petitioner’s Ground 11(b) claim
is, it will not be given review.

70

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 71 of 76 PagelD #: 4199

The Ground 11(c) claim regarding the court’s failure to change the venue of trial due to the
“massive pre-trial publicity” has already been dismissed as procedurally barred and will not be
considered here.
Finally, as for Petitioner’s Ground 11(d) claim that in his testimony, state witness Lt. Gary
Harmison deliberately and unnecessarily informed the jury that the Petitioner was being held in
the local regional jail, the petition provides no argument in support of this claim, nor does he
explain how it is cumulative error. See ECF No. 13-1 at 5. Nor does Petitioner’s response in
opposition to the Respondent’s summary judgment motion illuminate the claim. ECF No. 90 at 48.
Although his response in opposition does reference his pro se habeas petition regarding the claim,
there is nothing there to explain how Harmison’s fleeting implied reference to Petitioner-being in
jail,21 assuming the jury noticed it at all, prejudiced him before the jury, either, given the other
overwhelming evidence of his guilt presented at trial. See ECF No. 52-16. Accordingly, this
claim, like Petitioner’s Ground 11(b) claim, is so insufficiently pled, the undersigned cannot
address it. While district courts are required to construe pro se complaints liberally, “[district
judges are not mind readers.” Beaudett, 775 F.2d at 1278. Unsupported conclusory allegations are
not competent summary judgment evidence. See Eason v. Thaler. 73 F.3d at 1325.
F. Ineffective Assistance of Appellate Counsel
“The standard for reviewing a claim of ineffectiveness assistance of appellate counsel is
the same as when reviewing the effectiveness of trial counsel.” Lucas v. McBride. 505 F. Supp.
2d 329, 350 (N.D. W.Va. 2007); see also Smith v. State of South Carolina. 882 F.2d 895 (4th Cir.

21 On cross exam, during a discussion about Petitioner’s cell phone, defense counsel elicited an admission from Lt.
Harmison to the effect that the state had only recently obtained possession of the cell phone Petitioner had used during
the day of the crimes, because the phone had been in the custody of the sheriff’s office since 2010; Harmison replied
“[i]t was actually in his [Prophet’s] property at the regional jail system.” ECF No. 52-29 at 163 - 64.

71

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 72 of 76 PagelD #: 4200

1989), cert, denied, 493 U.S. 1046 (1990). The Supreme Court, in applying the Strickland factors
to appellate counsel’s performance, has held that a defendant:
must first show that his counsel was objectively unreasonable, in failing to find
arguable issues to appeal - that is, that counsel unreasonably failed to discover
nonfrivolous issues and to file a merits brief raising them. If [the defendant]
succeeds in such a showing, he then has the burden of demonstrating prejudice.
That is, he must show a reasonable probability that, but for his counsel's
unreasonable failure to file a merits brief, he would have prevailed on his appeal.
Smith v. Robbins, 528 U.S. 259, 285, 120 S. Ct. 746, 764, (2000). Moreover, the Sixth
Amendment does not require that appellate counsel raise every nonfrivolous issue on appeal. In
fact, the Supreme Court has recognized the importance of “having the appellate advocate examine
the record with a view to selecting the most promising issues for review.” Jones v. Barnes. 463
U.S. 745, 752 (1983). Instead, “[wjinnowing out weaker arguments on appeal and focusing on
those more likely to prevail, far from being evidence of incompetence, is the hallmark of effective
advocacy.” Smith v. Murray. 477 U.S. 527, 536 (1986) (internal quotations omitted). Additionally,
in reviewing appellate counsel’s performance, the court “must accord appellate counsel the
‘presumption that he decided which issues were most likely to afford relief on appeal.’” Bell v.
Jarvis. 236 F.3d 149, 164 (4th Cir. 2000) (quoting Pruett v. Thompson. 996 F.2d 1560, 1568 (4th
Cir. 1993)). Therefore, counsel has great latitude to decide what issues to press in post-conviction
proceedings, Cole v. Branker. 2008 WL 5999766 *9 (4th Cir. 2008). Finally, the Supreme Court
has noted that, when arguing that appellate counsel failed to raise a particular claim, it is
“possible,” but “difficult to demonstrate that counsel was incompetent.” Smith. 528 U.S. at 288
(citing Gray v. Greer. 800 F.2d 644, 656 (7th Cir. 1986) (“Generally, only when ignored issues are
clearly stronger than those presented, will the presumption of effective assistance of counsel be
overcome.”).

72

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 73 of 76 PagelD#:4201

Grounds 12(aV(l). and 12(bV(2): Whether Petitioner’s federal constitutional rights under the
Fifth, Sixth, and Fourteenth Amendments were violated by the ineffective assistance of his . . .
appellate counsel, when appellate counsel failed to: (a) present certain grounds on appeal that were
obviously stronger than those presented and (b) present federal constitutional questions or cite to
United States Supreme Court authority.
Here, on appeal, counsel raised seven assignments of error, challenging the sufficiency of
the evidence, the state’s use of Prophet’s novel, and the prosecutor’s alleged comments on
Prophet’s post-arrest silence. ECF No. 52-14 at 5, 8, 39, 45. Appellate also challenged the circuit
court’s refusal to give Prophet’s proffered jury instruction on his theory of defense, as well as the
State’s “knowing[]” presentation of allegedly “false and perjured” testimony. Id. at 48; 50-58.
Finally, appellate counsel advanced claims of prosecutorial and judicial misconduct based on
allegedly-“improper remarks”-made-by-theprosecutor andTrial judge. Id. at 58-72,-72-78.
Especially in light of the rule that counsel need not raise every colorable claim fJones, 463
U.S. at 754], it was not objectively unreasonable for Prophet’s appellate counsel to focus on these
seven grounds, and their accompanying sub-grounds. See Cole, 328 F. App’x at 159; see also
Jones. 463 U.S. at 753 (“A brief that raises every colorable issue runs the risk of burying good
arguments.”). Thus, Prophet has not overcome the presumption that counsel merely “winnow[ed]
out” weaker claims on appeal in order to focus on those he felt were more likely to prevail, or
established that the claims “ignored” on appeal were “clearly stronger than” those raised. Gray.
800 F.2d at 656. At best, he “has shown that these claims could have been raised on direct appeal,
not that they should have been raised, or that they were more meritorious than those presented.”
Howard. 2009 WL 1872970, at *15.
Accordingly, Petitioner has failed to overcome the presumption against finding appellate
counsel incompetent for choosing to omit a particular argument. Not only has Petitioner
failed to identify any additional claim that appellate could have made, he has offered nothing to

73

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 74 of 76 PagelD #: 4202

demonstrate that Counsel's choices of appellate claims were anything more than tactical
decisions that were reasonable under the circumstances. In his state-court habeas proceedings,
Petitioner alleged only a “blanket assertion that the appeal was weakly presented” without
identifying particular facts to show why appellate counsel’s performance was deficient, or what
issues he might have been raised instead of those he did raise. Not surprisingly, the circuit court
denied relief. The circuit court’s finding that appellate counsel rendered effective assistance based
upon the presumption that counsel’s actions were effective comports with the holding of Cole v.
Branker.
Finally, Petitioner’s Ground 12(b)/Ground 12(2) claim that appellate counsel was
ineffective-for-not-presenting federal-constitutional claims is frivolous. Counsel-argued federal
law wherever applicable in a state law proceeding. As recognized by the circuit court, “counsel
did argue the ‘constitutional underpinnings regarding Petitioner’s right to remain silent.’” See
ECFNo. 52-21 at 14.
Therefore, the undersigned finds that Prophet’s appellate counsel performed “within the
wide range of reasonable professional assistance” fsee Strickland. 466 U.S. at 689; Jones. 463 U.S.
at 754] and recommends that these claims be dismissed.
G. Denial of Meaningful Appellate and Post-Conviction Collateral Review
Ground 13: Whether Petitioner’s federal constitutional rights under the Fifth and Fourteenth
Amendments were violated when the . . . [WVSCA] violated its state constitution so as to deny
the Petitioner a state-created liberty interest, and when it failed to provide the Petitioner meaningful
appellate and post-conviction collateral review.
The undersigned agrees with Respondent that this claim is frivolous. See ECF No. 82 at
21. A review of the enormous record in this case confirms that Petitioner has been afforded the
same full panoply of constitutional rights provided to every convicted criminal defendant. He
received not one but two appointed trial counsel, appointed appellate counsel, and appointed
74

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 75 of 76 PagelD #: 4203

habeas counsel, a direct appeal, post-conviction proceedings, and a post-conviction appeal. He was
permitted to file a direct appeal brief, a pro se habeas petition, then an amended petition by counsel,
and finally, a brief to the WVSCA, challenging the circuit court’s denial of habeas relief. Both the
circuit court and the WVSCA issued opinions/orders fully addressing Petitioner’s claims.
Petitioner was permitted to file all of his claims before the state courts, as evidenced by the
extensive docket for this massive federal petition. Petitioner has been afforded great latitude with
regard to his insufficiently-pled, overly-large filings in this matter, and has received extensions of
time wherever possible. Merely because his claims were correctly found to be meritless does not
imply a constitutional rights violation. This claim has no absolutely merit and should be dismissed.
—

---------------------

—IV. -Recommendation -

—*-------------- -r-r:

~

For the reasons previously set forth, the undersigned recommends that the Respondent’s
Motion for Summary Judgment [ECF No. 81] be GRANTED and that the petition [ECF 13] be
0

DENIED and DISMISSED without prejudice for failure to state a claim upon which relief
can be granted.
Further, the undersigned recommends that Petitioner’s pending motion to expedite review
[ECF No. 93] be DENIED as moot.
Within fourteen (14) days after being served with a copy of this report and
recommendation, any party may file with the Clerk of Court written objections identifying those
portions of the recommendation to which objection is made. Objections shall identify each portion
of the magistrate judge’s recommended disposition that is being challenged and shall specify the
basis for each objection. Objections shall not exceed ten (10) typewritten pages or twenty (20)
handwritten pages, including exhibits, unless accompanied by a motion for leave to exceed the
page limitation, consistent with LR PL P 12. A copy of any objections should also be submitted

75

F

Case l:16-cv-00178-TSK-MJA Document 96 Filed 02/21/19 Page 76 of 76 PagelD #: 4204

to the United States District Judge. Failure to timely file objections to this recommendation
will result in waiver of the right to appeal from a judgment of this Court based upon such
recommendation. 28 U.S.C. § 636(b)(1); Thomas v. Am. 474 U.S. 140 (1985); Wright v. Collins.
766 F.2d 841 (4th Cir. 1985); United States v. Schronce, 727 F.2d 91 (4th Cir. 1984), cert, denied,
467 U.S. 1208 (1984).
The Clerk is directed to send a copy of this Report and Recommendation to the pro se
Petitioner by certified mail, return receipt requested, to his last known address as shown on the
docket and to transmit a copy electronically to all counsel of record.
This Report and Recommendation completes the referral from the district court. The Clerk
is-directed-to terminate the MagistrateJudge’s associationwiththis case.
DATED: February 21, 2019

IslSMic/iael, fco/wi
MICHAEL JOHN ALOI
UNITED STATES MAGISTRATE JUDGE

76

